<html>
<title> - OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR OPERATIONS, MANAGEMENT, AND RULEMAKINGS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





THE DEPARTMENT OF THE INTERIOR OPERATIONS, MANAGEMENT, AND RULEMAKINGS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, July 17, 2013

                               __________

                           Serial No. 113-33

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

82-127 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                


















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 17, 2013.........................     1

Statement of Members:
    Defazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     4
        Prepared statement of....................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Jewell, Hon. Sally, Secretary, U.S. Department of the 
      Interior...................................................     7
        Prepared statement of....................................     9
        Question submitted to....................................    65
                                     


 
    OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR OPERATIONS, 
                      MANAGEMENT, AND RULEMAKINGS

                              ----------                              


                        Wednesday, July 17, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Gohmert, Bishop, 
Lamborn, Wittman, Fleming, McClintock, Thompson, Lummis, 
Benishek, Duncan, Tipton, Gosar, Southerland, Flores, Amodei, 
Mullin, Stewart, Daines, Cramer, LaMalfa, DeFazio, Pallone, 
Napolitano, Grijalva, Costa, Sablan, Tsongas, Hanabusa, 
Cardenas, Huffman, Shea-Porter, Lowenthal, Garcia, and 
Cartwright.
    Also Present: Representative Smith of Missouri.
    The Chairman. The Committee will come to order. The Chair 
notes the presence of a quorum. We easily exceeded that.
    The Committee on Natural Resources is meeting today to hear 
testimony on an oversight hearing on the Department of the 
Interior operations, management, and rulemaking. Under 
Committee rule 4(f), opening statements are limited to the 
Chairman and the Ranking Member of the Committee. However, I 
ask unanimous consent that any Member that wishes to have a 
statement in the record have the statement to the Committee 
prior to the close of business today.
    [No response.]
    The Chairman. And without objection, so ordered.
    I will now recognize myself for 5 minutes for my opening 
statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Our Nation's public lands and resources, from 
energy to minerals, timber, and water, are an essential 
component of our economy. They help power our homes and 
businesses, provide vital water supplies to farmers and 
communities, they enable high-tech manufacturing, and provide 
opportunities for all types of recreational activities. Most 
importantly, our resources help put Americans to work and 
increase our economic competitiveness.
    The agencies and programs overseen by the Interior 
Department support millions of American jobs and bring in the 
second highest source of revenue to the Federal Treasury. The 
policies of the Interior Department directly impact the lives 
of every American in this country; which is why it is 
absolutely essential that the Department recognize and 
understand the importance of balancing the responsible use of 
management of our natural resources with conservation.
    Unfortunately, under this Administration we have 
experienced 4\1/2\ years of flawed and economically devastating 
policies that have kept the American people's resources under 
lock and key. In my opinion, the direction of the Interior 
Department has veered far off course and clear, troubling 
patterns have emerged that I believe need to be fixed.
    First, is the pattern of imposing new regulations and 
policies that directly cost American jobs. In no area is this 
more painfully evident than with the Department's energy 
policies. Under the Obama Administration, gas prices are up and 
Federal energy production is down. The Department has 
implemented one of the most restrictive offshore drilling plans 
that keep 85 percent of areas off limits, has leased the lowest 
number onshore acres for energy production, and canceled 
numerous lease sales. Now the Department is pursuing 
unnecessary and duplicative regulations on hydraulic fracturing 
on Federal and tribal lands that will add new layers of red 
tape to this job-creating practice that has been successfully 
regulated by States for years.
    The Obama Administration is also aggressively pursuing a 
war on coal, which is really a war on jobs and energy prices. 
One of the most egregious examples of this is the Department's 
continual efforts to rewrite the Stream Buffer Zone Rule, even 
though this flawed and redundant rulemaking process has already 
cost millions of taxpayer dollars and will only cause further 
economic harm and job loss.
    Second, the Committee has witnessed an alarming pattern of 
decisions being made either unilaterally without proper input 
from people and communities directly impacted, or policies 
being negotiated behind closed doors with environmental groups 
that have a penchant for lawsuits. Both ways of decisionmaking 
lack transparency and lead to bad policy decisions.
    For example, over the past 4 years the Department has 
attempted to unilaterally impose land use designations, such as 
the Wildlands Secretarial Order, that would severely limit 
public access and multiple-use of our public lands. Similarly, 
the National Blueways Secretarial Order creates new unilateral 
authority to designate watershed as National Blueways and 
impose severe water and land restrictions.
    The Endangered Species Act mega-settlements are an example 
of closed-door agreements with litigious environmental groups. 
These settlements will force decisions on hundreds of species 
listings and habitat designations across the country over the 
next few years. The threat of lawsuits should not drive public 
policy. But we have seen time and time again, from ESA to 
forest management, where that is, unfortunately, the case.
    Finally, the lack of transparency has been another pattern 
that has emerged from this Administration's Interior 
Department. In the past 2\1/2\ years, the Department has 
refused to cooperate with the Committee's legitimate oversight 
efforts, has refused to provide documents, refused to comply 
with the Committee's subpoenas, and refused to answer 
questions, and refused to make witnesses available to testify 
or to answer questions by Committee staff. These actions are 
made worse by the fact that the Department still does not have 
a permanent inspector general.
    These destructive patterns that cost jobs and block public 
input must come to an end. The Department must get back on 
track to being a job-creator for the good of our economy and 
our topics.
    And I do very much want to welcome the Secretary of the 
Interior, newly on her job here, and I welcome you and I will 
make the proper introduction in a moment. But Secretary Jewell, 
thank you very much for being here.
    [The prepared statement of Mr. Hastings follows:]
 Prepared Statement of The Honorable Doc Hastings, Chairman, Committee 
                          on Natural Resources
    Our Nation's public lands and resources--from energy to minerals, 
timber and water--are an essential component of our economy. They help 
power our homes and businesses, provide vital water supplies to farmers 
and communities, enable high-tech manufacturing, and provide 
opportunities for all types of recreational activities. Most 
importantly, our resources help put Americans to work and increase our 
country's economic competitiveness.
    The agencies and programs overseen by the Interior Department 
support millions of American jobs and bring in the second highest 
source of revenue to the Federal Treasury. The policies of the Interior 
Department directly impact the lives of every American in this country, 
which is why it is absolutely essential that the Department recognize 
and understand the importance of balancing the responsible use and 
management of our natural resources with conservation.
    Unfortunately, under the Obama Administration we've experienced 
4\1/2\ years of flawed and economically devastating policies that have 
kept the American people's resources under lock-and-key. In my opinion, 
the direction of the Interior Department has veered far off course and 
clear, troubling patterns have emerged that I believe need to be fixed.
    First, is the pattern of imposing new regulations and policies that 
directly cost American jobs.
    In no area is this more painfully evident than with the 
Department's energy policies. Under the Obama Administration, gas 
prices are up and Federal energy production is down. The Department has 
implemented one of the most restrictive offshore drilling plans that 
keeps 85 percent of areas off-limits, has leased the lowest number 
onshore acres for energy production, and canceled numerous lease sales. 
Now the Department is pursuing unnecessary and duplicative regulations 
on hydraulic fracturing on Federal and tribal lands--adding new layers 
of red-tape on this job-creating practice that has been successfully 
regulated by the states for decades.
    The Obama Administration is also aggressively pursuing a war on 
coal, which is really a war on jobs, energy prices and communities. One 
of the most egregious examples of this is the Department's continual 
efforts to rewrite the Stream Buffer Zone Rule, even though this flawed 
and redundant rulemaking process has already cost millions of taxpayer 
dollars and will only cause further economic harm and job loss.
    Second, the Committee has witnessed an alarming pattern of 
decisions being made either unilaterally without proper input from the 
people and communities directly impacted, or policies being negotiated 
behind closed-doors with environmental groups that have a penchant for 
lawsuits. Both ways of decisionmaking lack transparency and lead to bad 
policy decisions.
    For example, over the past 4 years the Department has attempted to 
unilaterally impose land-use designations, such as the Wildlands 
Secretarial Order, that would severely limit public access and 
multiple-use of our public lands. Similarly, the National Blueways 
Secretarial Order creates new unilateral authority to designate entire 
watershed as National Blueways and impose severe water and land use 
restrictions.
    The Endangered Species Act mega-settlements are an example of 
closed-door agreements with litigious environmental groups. These 
settlements will force decisions on hundreds of species listings and 
habit designations across the country over the next few years and 
disregard local input and ongoing conservation efforts. The threat of 
lawsuits should not drive public policy decisions, but we have seen 
time and time again, from ESA to forest management, where that is 
unfortunately the case.
    Finally, the lack of transparency has been another pattern that has 
emerged from the Obama Administration's Interior Department. In the 
past 2\1/2\ years, the Department has refused to cooperate with the 
Committee's legitimate oversight efforts, refused to provide documents, 
refused to comply with the Committee's subpoenas, refused to answer 
questions, and refused to make witnesses available to testify or to 
answer questions by Committee staff. These actions are made worse by 
the fact that the Department still does not have a permanent Inspector 
General--a person needed to act as an independent watchdog.
    These destructive patterns that cost jobs, block public input, and 
disregard transparency must come to an end. The Department must get 
back on track to being a job-creator for the good of our country and 
economy.
                                 ______
                                 
    The Chairman. And with that, I will recognize the Ranking 
Member.

  STATEMENT OF THE HON. PETER A. DEFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. Secretary Jewell, 
thank you for being here today. You are my neighbor to the 
north, and a resident of the same State as our esteemed 
Chairman, Doc Hastings.
    You know, I think it is extraordinary that you volunteered 
to leave a successful private-sector career and take on this 
public service. As you can tell from the opening remarks of the 
Chairman, I think it was a courageous decision, and it will be 
a bit difficult. There are differences of opinion on this 
Committee, pretty much divided one side to the other. Every 
once in a while we can reach across party lines, but we differ 
significantly.
    I really want to hear today about your plans as a new 
Secretary, what the implementation we are going to move forward 
with, the President's agenda, alternative energy development, 
your plans for climate change, the acidification of our oceans. 
The fact that we are having record wildfires again this year in 
the West and we have very dry conditions are a challenge, in 
particular, to your agency, to this Government, and for our 
future.
    I believe, and on our side we feel, that we need a new 
energy policy. We essentially are still under the Bush-Cheney 
energy policy, which was really designed to make us more 
dependent upon fossil fuels. Despite that, today we are less 
dependent on fossil fuels and we are less dependent upon 
imported fossil fuels. Last year oil production reached its 
highest level in 20 years, natural gas production an all-time 
high. Oil production, despite some protestations from the other 
side, is higher now than at the end of the Bush Administration, 
from public lands. We are less dependent upon foreign oil from 
a combination of production on public and private lands.
    We recently held a hearing where there was an insistence by 
the industry, the American Petroleum Institute, and you, I 
know, have some expertise in this area in particular in your 
past employment, they claim that they need to lease more areas. 
And my question to that witness was, well, with 25 million 
acres of public land onshore, and 30 million acres of land 
offshore, why do you need more now? Why not perhaps develop 
those areas, and then, after those are fully developed, if we 
need more oil resources or gas resources, come and ask? His 
answer was not particularly satisfactory.
    On our side of the aisle we have tried to have a use-it-or-
lose-it policy. I would be interested in your thoughts on that 
later, where you just can't sit on these leases. And people 
say, ``Well, why would the industry sit on a lease? You know, 
they won't do that.'' Well, of course they will. I mean it is 
money in the bank, and they pay so little per year, and the 
price of oil goes up so much every year, 20 years from today it 
is going to be worth probably 5 times what it is now. So I 
think we have issues regarding performance before we expand 
into sensitive areas. There is tremendous opposition on this 
side of the aisle from that.
    Hydraulic fracturing, I would be very interested in hearing 
about the Administration moving forward with some 
standardization, a Federal floor of hydraulic fracturing. We 
had a hearing on that issue. I put it to the witnesses who came 
from four different States and one company that operated among 
the States, ``How do you deal with this? I mean here in Texas 
you require pressure testing for casing. Here in, I think 
Wyoming, you require full disclosure of the chemicals before. 
Here you require enclosed storage of the waste above ground. 
And yet there is no uniform standard.'' And I have some 
interest from the idea of having a uniform standard as a floor. 
I would be very interested to hear about progress on that.
    We had a hearing just last week on hardrock mining, or the 
week before last, and again I made the point I have been making 
since the early 1990s, when we did pass a meaningful mining 
reform on a bipartisan basis in the House, which included 
hardrock royalties. The Federal Government, which is often, 
from this side, being told to be run like a business, is the 
only business, the only entity, that does not charge a royalty 
for the extraction of depletable mineral, valuable mineral 
resources, hardrock, from its lands. States do, tribes do, 
individuals do, other governments around the world do. We 
don't. I would be very interested in your thoughts on mining 
reform and the potential for some revenues which we know we 
could use for other resource issues from those lands.
    I mentioned earlier, obviously you have a very big 
portfolio: the near oceans, our concerns about the potential 
for drilling in sensitive areas, our concerns about the 
acidification. We have had shellfish farm failures in the 
Northwest because of acidification. What plans do you have to 
deal with that, in terms of your approach to global warming.
    Hopefully we can find some ways to work together across the 
aisle and work in consensus with you on these extraordinarily 
critical issues to the American public and to the future of our 
country and the world. Thank you, Madam Secretary, for being 
here.
    [The prepared statement of Mr. DeFazio follows:]
 Prepared Statement of The Honorable Peter A. DeFazio, Ranking Member, 
                     Committee on Natural Resources
    Good morning. It is a pleasure to welcome Secretary Jewell to the 
House Natural Resources Committee.
    The decision to leave a successful career in the private sector to 
enter public service, particularly during a period of deep division in 
American politics, is a courageous one and Secretary Jewell deserves 
our thanks for her willingness to serve.
    It is my hope that the Secretary feels welcome here; the members of 
this Committee are among the few who fully understand how daunting it 
is to be responsible to the American people for the stewardship of 
their natural, cultural and environmental resources.
    Today's meeting is an opportunity for this Committee to hear more 
from Secretary Jewell regarding the President's environmental agenda. 
The devastating toll of wildfires, the challenge and promise of 
alternative energy development, and the ever more pressing need to 
respond to climate change are complicated problems requiring serious, 
balanced responses; we look forward to hearing the Secretary's thoughts 
on these and other issues facing the Department.
    Perhaps more important, this hearing is an opportunity for the 
Secretary, and the American people, to learn more about the priorities 
of this Committee. With a new Secretary on the job, this Committee and 
this House have an opportunity to set a new course regarding the 
conservation and management of the incredible resources with which we 
have been blessed.
    A new energy policy from this Committee is long overdue. Drill 
Baby, Drill proved to be an irresponsible failure, in large part 
because it was sharply at odds with the facts.
    Last year, our oil production reached its highest level in 20 years 
and domestic production of natural gas is at an all-time high, 
including oil and gas production from Federal lands. Under President 
Obama, our dependence on foreign oil has fallen from 57 percent at the 
end of the Bush Administration, to 36 percent in 2013. These gains are 
in spite of the fact that the oil and gas industry is warehousing 
permits to drill on more than 25 million acres onshore and more than 30 
million acres offshore, waiting for higher prices.
    The Majority has ignored these realities and insisted that Big Oil 
needs more tax-payer owned areas in which to drill; they have stood 
guard to protect the enormous tax subsidies enjoyed by fossil energy 
companies and have thwarted the growth and development of an 
alternative energy economy.
    The Senate, the Administration and the public have all, rightly, 
rejected this Republican energy plan; it is my sincere hope that this 
Committee will work with the Secretary in pursuit of a balanced, 
responsible approach that can achieve bipartisan support.
    Likewise, the near-constant assault on the National Environmental 
Policy Act, and the other bed-rock conservation statutes that have 
served the National well for decades, must stop. Hearings and 
legislation premised on unsubstantiated anecdotes and 
misrepresentations of fact are not constructive. Real solutions to 
problems like fire, reduced water quality and quantity, invasive 
species and climate change will be developed through effective, 
efficient application of NEPA and other conservation measures, not 
politically motivated attacks.
    This Committee has spent more than 2 years testing whether an 
agenda dominated by hyper-partisanship would be embraced by the 
American public. The results are in and, just like the Republican 
positions on immigration reform, women's health and nutrition 
assistance for poor families, the public views the Republican 
environmental agenda as extremist and out of touch.
    With a new Secretary in place, we have an opportunity to hit the 
reset button, to commit to working cooperatively with her to craft 
responsible, bipartisan solutions to the enormous environmental 
challenges we face.
    I hope we will take advantage of this chance to provide better 
service to the American people.
                                 ______
                                 
    The Chairman. I thank the Ranking Member for his statement 
and, really, for pointing out the obvious. There are 
differences of opinion on this Committee, there is no question 
about that. But, on the other hand, there is differences of 
opinion in America. So we reflect that on this Committee, and 
there is nothing unusual about that.
    I do want to, by way of introduction, say that Secretary 
Jewell is the 51st Secretary of the Interior, and was sworn in 
on April the 12th. Prior to that she was a fellow 
Washingtonian, in that she resided in Seattle as President of 
Recreation Equipment, Inc. But prior to that she was a banker 
and, for a short time, lived in Duncan, Oklahoma, I found out 
earlier, in Markwayne Mullin's district, in the oil petroleum 
business. I should say she is a graduate of the University of 
Washington, which, for some of us in eastern Washington, causes 
some heartburn, but that is the way it works.
    Mr. DeFazio. Causes some heartburn in Oregon, too.
    The Chairman. Yes, it causes heartburn in Oregon, too. OK, 
that is good.
    [Laughter.]
    The Chairman. Madam Secretary, thank you very much for 
being here. I know that taking over an agency that has 70,000 
employees and then being called up on the Hill to testify is 
like probably drinking out of a fire hose, but that is the 
nature of the business.
    The way our process works with the timing lights is your 
full statement that you have submitted will be part of the 
record. I would ask you to, obviously, keep it within the 5 
minutes, and then we will have questions from all Members.
    By way of scheduling, the Secretary said that she could be 
here until noon. And if we are flexible on that, we would 
appreciate that.
    So, let's get started. Madam Secretary, welcome to the 
Committee, and you are recognized for 5 minutes for your 
opening statement.

        STATEMENT OF THE HON. SALLY JEWELL, SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Secretary Jewell. Thank you very much, Chairman Hastings, 
Ranking Member DeFazio, and members of the Committee. I just 
thought I would start with a quick overview of my background. 
The Chairman gave a little bit of it.
    I have been in business for over 35 years. I started, 
actually, as an engineering student working on the Alaska 
Pipeline. I worked several years working for Mobil Oil in 
Oklahoma and later Colorado, and got exposure to oil and gas 
operations throughout 42 States with Mobil Oil. I then became a 
banker, as a specialist in natural resources. So, moved beyond 
oil and gas to mining and other mineral development to forestry 
to fishing to timber to agriculture, and then, of course, 
commercial and industrial activities that drive the engine of 
the economics of the West. So that was nearly 20 years of my 
career. The last 13 have been in retail, at REI, many of you 
probably know REI, a business that drives a lot of activities 
on our public lands, and drives a lot of business to local 
economies all over this country, and particularly rural 
economies.
    So, I have just 3 months now in the Federal Government. And 
I will say that in that 3-month period of time, I have 
developed a tremendous appreciation for the hard work and 
dedication of the colleagues that I have met at the Department 
of the Interior. I know that Federal employees can be knocked 
around a little bit these days. The ones that I have met don't 
deserve that. They are really, really terrific in what they do.
    So, I wanted to hit just a few highlights before I get to 
your specific questions. One is we have made material progress 
toward energy independence in this country, across an all-of-
the-above strategy: onshore energy, offshore energy, and 
renewable energy. I have visited drill rigs, I have visited 
production facilities, I have visited renewable energy 
facilities, and it is pretty extraordinary, what is happening 
in this country, conventional, unconventional, and renewable 
energy, that I think everybody can be proud of.
    I have also had the privilege of speaking to the National 
Congress of American Indians just a couple weeks ago. A very, 
very important part of the Interior's portfolio is upholding 
the trust and treaty obligations to Indian Tribes and Alaska 
Natives in this country, and making sure that they know that I 
am affirming our commitment to self-governance, self-
determination, and working with tribes in the areas that are 
important to them, like addressing legal decisions that have 
hindered efforts to restore tribal homelands, implementing the 
Cobell litigation settlement, and ensuring that we do a better 
job for students that are educated in the Bureau of Indian 
Education schools.
    We are also, and this is certainly something I recognized 
in my last job, we are blessed with lands and waters that make 
this place America the Beautiful. It truly is from sea to 
shining sea. And privileged to oversee some of those assets. We 
have, in 3 short years, the centennial of the National Park 
Service. That will provide us a golden opportunity to work with 
private industry, corporations, communities, to not only 
highlight our national parks and celebrate them, but also 
recognize the importance of public lands and open spaces, from 
city parks to State parks and beyond. Because tourism and 
outdoor recreation, whether it is hunting or fishing, 
birdwatching, RVing, camping, these are all things that benefit 
from beautiful public lands and the things that I know you are 
proud of in each of your individual States. But they also drive 
a lot of economic activity, which was well quantified by the 
last industry that I represented.
    And America the Beautiful is something we need to make sure 
the next generation is well aware of, and that is certainly 
part of my agenda, as well.
    We are also, as the Chairman mentioned, operating in a time 
of drought. It impacts water supplies. It is also an important 
part of the portfolio of the Interior, the Bureau of 
Reclamation in particular, along with the U.S. Geological 
Survey, working on ways to conserve water, store water, 
facilitate the kinds of meetings that need to happen with 
States, tribes, local governments, and stakeholders, 
particularly in the West, to resolve some of these longstanding 
water conflicts.
    I will also say that my colleagues and I are operating in a 
time of sequestration, which is difficult. As a business 
person, you would never run a business that way, with across-
the-board cuts. So we hope to get beyond that.
    And I just want to touch on a few issues that I know are of 
interest to you. Fracking, I have fracked wells, I understand 
it. We do need thoughtful updates to 30-year-old regulations, 
but in a way that supports the work of States and tribes, so 
that we have standards that will meet or exceed minimum Federal 
standards that we are coming out with on Federal lands.
    Blueways is also something the Chairman recognized. This is 
a program that I was not familiar with, and I have asked the 
team to take a pause on it while I better understand it.
    And last, and the reason I am wearing this purple ribbon, 
has to do with fire. We are in an extreme drought situation 
throughout many parts of the country. I have met firefighters 
at the NIFC center in Boise. I was at the Yarnell Hill fire 2 
days after the devastating accident that took the lives of 19 
firefighters. The worst day on my job was attending the 
memorial for the 19 fallen firefighters. And they gave their 
lives because of very dangerous situations that we have in 
parts of the West. It is, I think, part of all of our jobs to 
recognize that, to address it, collectively, together.
    So, my job is about balance. It is about the use of our 
resources with the protection of our resources, as the Chairman 
mentioned. It is about achieving greater energy independence, 
supporting a robust economy, upholding trust and treaty 
obligations to tribes, and delivering an intact America the 
Beautiful to future generations.
    So, I thank you very much and look forward to your 
questions.
    [The prepared statement of Secretary Jewell follows:]
      Prepared Statement of The Honorable Sally Jewell, Secretary, 
                    U.S. Department of the Interior
    Thank you, Chairman Hastings and members of the Committee, for 
inviting me to be here today to discuss the programs and activities of 
the Department of the Interior. This is my first appearance before your 
Committee since my confirmation in April. I look forward to working 
with you so that we can most effectively accomplish the preservation of 
our Nation's great heritage and history, manage our Federal lands, 
waters, and natural resources, ensure the delivery of water for diverse 
users, empower and support Native American communities and insular 
areas.
    Since the time of my confirmation, I have come to see and 
appreciate the astonishing breadth of the issues and responsibilities 
located within this one Department, most of which fall under the 
jurisdiction of the Natural Resources Committee. The Department's 
complex mission affects the lives of all Americans; nearly every 
American lives within an hour's drive of lands or waters managed by the 
Department.
    The Department's bureaus serve as stewards of the Nation's natural 
resources, parks, wildlife refuges, and national monuments and 
recreation areas, and as the keeper of the history of this country. We 
share responsibilities to protect and advance the role of public lands 
and Indian lands.
    The lands and resources we manage are also a huge economic engine, 
powering our economy through energy development, tourism and 
recreation, logging, grazing and other uses. The Department oversees 
the responsible development of 23 percent of U.S. energy supplies, is 
the largest supplier and manager of water in the 17 Western States, 
maintains relationships with 566 federally recognized tribes, and 
provides services to more than 1.7 million American Indian and Alaska 
Native peoples.
    We collect nearly $13 billion annually through mineral extraction 
and other activities, and share nearly $5 billion of these revenues 
annually with States, tribes, counties, and other entities. An 
additional $2 billion of our budget is used in local communities across 
the Nation through contracts for goods and services. In many of your 
States, the revenues we share from energy production and other 
activities are a critical component of the local economy. Overall, the 
Department estimates the exploration and production of oil, gas, coal, 
hydropower, and minerals on Federal lands contributed nearly $275 
billion to the U.S. economy in 2011.
    In 2012, there were almost 500 million visits to lands managed by 
the Department, and recreational visits to our lands contributed an 
estimated $49 billion in economic benefits to local communities in 
2011.
    The Department administers the Federal Government's relationship 
with the territories of Guam, American Samoa, the United States Virgin 
Islands, and the Commonwealth of the Northern Mariana Islands, and 
financial assistance provided to the freely associated states of the 
Federated States of Micronesia, the Republic of the Marshall Islands, 
and the Republic of Palau under the Compacts of Free Association.
    It is with this fitting introduction to the Department's 
significant responsibilities that I come before you to discuss the 
major programs and highlight some of the activities at the Department 
and my goal to ensure that it continues in its role as a resource 
manager, a job creator, and a partner to tribes and state and local 
governments.
                    strengthening our energy future
    The use of rapidly advancing technologies, implementation of smart 
policies, and a commitment to the President's ``all of the above'' 
energy strategy will allow us to continue with the safe and 
environmentally responsible expansion and diversification of our 
Nation's energy production, further cutting our reliance on foreign 
oil, and protecting our land and water at the same time. We have been 
pushing forward with that goal.
Onshore Energy Development
    Onshore, the Bureau of Land Management held 31 oil and gas sales 
last year and is scheduled to hold more than 30 this year. Oil 
production from Federal onshore lands is at its highest level in over a 
decade. The amount of producing acreage continues to increase, and was 
up by about 200,000 acres between 2011-2012. And the onshore leasing 
reforms put in place in 2010 resulted in the lowest number of protests 
in 10 years--fewer than 18 percent of parcels offered in fiscal year 
2012 were protested, reducing costs and further speeding development.
    The Administration is making more coal available as well, with the 
number of producing acres rising 4 percent from fiscal year 2009 to 
fiscal year 2012. The amount of coal the agency leased last fiscal year 
is the highest since fiscal year 2003. And through the Office of 
Surface Mining Reclamation and Enforcement, we are working to ensure 
that communities impacted by coal mining and the environment are 
protected during mining. We are also pursuing the reclamation of 
priority abandoned mine sites with a goal of reducing the number of 
remaining dangerous abandoned mine sites nationwide.
    The Department has also improved onshore oil and gas permit 
processing. Secretary Salazar instituted reforms to the BLM's oil and 
gas program, including transitioning to an electronic system that will 
automate and streamline the application process and significantly 
reduce the time for approval of new projects. From fiscal year 2006 to 
fiscal year 2012, the amount of time it took for all BLM field offices 
to process and approve complete drilling applications fell by 40 
percent and the number of inspections completed by all BLM offices rose 
73 percent. The Administration has proposed extending and expanding the 
interagency permitting pilot office authority under the 2005 Energy 
Policy Act to allow BLM to focus pilot office resources in areas of 
highest demand. We are headed in the right direction and will continue 
to look at procedures, processes, and the regulatory framework to 
identify areas for further reform.
    In mid-May the Department published a revised proposed rule on 
hydraulic fracturing on public and Indian lands. I have said before 
that it is important that the public have full confidence that the 
right safety and environmental protections are in place. This rule 
proposes common sense updates to 30-year old regulations that will 
increase safety in oil and gas production on public lands. Under the 
proposal, BLM will work with States and tribes to increase flexibility 
and reduce regulatory duplication. The revised version includes a 
variance process that will allow BLM in appropriate circumstances to 
defer to States and tribes that have standards in place that meet or 
exceed those proposed in the rule. We have also extended the public 
comment period to August 23, 2013, to ensure that we have input from 
the public and from key stakeholders.
    Alaska is an important component of our Nation's energy strategy. 
The Arctic holds substantial oil and gas potential, but also presents 
unique environmental and operational challenges. The BLM recently 
finalized a new comprehensive plan--the first ever--for the 23-million 
acre National Petroleum Reserve--Alaska. This balanced plan provides 
access to over 70 percent of that area's estimated oil potential and 
provides for an important east-west corridor that could be needed for 
pipeline infrastructure to eventually carry Chukchi Sea oil to the 
Trans-Alaska pipeline. At the same time, it will protect the vital 
subsistence resources of Alaska Natives and the habitat of world-class 
wildlife populations.
    The Department is also committed to assisting Indian tribes in 
expanding renewable, reliable, and secure energy supplies on Indian 
lands and safe and responsible oil and gas development. Including 
Indian Country in the ``all of the above'' energy strategy will help 
increase domestic energy supplies and improve the economies of many 
Indian tribes and Alaska Native villages.
Offshore Oil and Gas Development
    We also are moving forward with oversight of the safe and 
responsible development of our offshore oil and gas resources. The 
first two sales of the 2012-2017 Five Year Program were held in the 
Gulf of Mexico in November 2012 and March 2013, and resulted in over 
$1.3 billion dollars in industry investment and Government revenue 
through bidding on 436 tracts. At the end of April we announced the 
Proposed Notice of Sale for Lease Sale 233, scheduled for this August, 
making available 21 million acres offshore Texas. With this sale, all 
available unleased acreage in the western Gulf of Mexico will be 
offered for leasing.
    Over the past several years, since the Deepwater Horizon oil spill, 
the Department has reformed the way development on the Outer 
Continental Shelf takes place. The Bureau of Safety and Environmental 
Enforcement has implemented safety and environmental management system 
regulations; issued a new drilling safety rule to refine safety reforms 
and strengthen requirements; taken steps to hold contractors 
accountable for their actions offshore; conducted two full-scale 
capping stack deployment exercises to respond to potential future well 
blowout scenarios; and provided new guidance on oil spill response 
plans.
    The Bureau of Ocean Energy Management has also significantly 
reduced the time for review of exploration and development plans for 
deepwater drilling in the Gulf of Mexico, with time from submission to 
approval down almost 35 percent from the period between October 2010 
and October 2011.
    BSEE has achieved similar, significant improvements in the 
processing of deepwater permits, with the average time for review 
reduced by about 37 percent between 2011 and 2012. This has contributed 
to the approval by BSEE of 112 new deepwater well permits, higher than 
in either of the 2 years preceding the Deepwater Horizon oil spill. 
There are more floating deepwater drilling rigs working in the Gulf of 
Mexico today than prior to the Deepwater Horizon spill, and we expect 
drilling activity to steadily increase over the coming year. And both 
BOEM and BSEE are working to modernize and streamline their data 
systems and the processes for the submission and review of plans and 
permits. When completed, this investment will achieve significant gains 
for both the rigor of analysis and the efficiency of review, saving 
time and money and enhancing accountability.
    Science continues to drive decisionmaking for the OCS leasing 
program. BOEM conducts rigorous scientific and environmental analysis 
to support all stages of the OCS program, partnering with academic 
institutions and other Federal agencies to produce top-tier applied 
research to support decisionmaking. BOEM also conducts thorough 
assessment of resource potential to identify areas of the OCS that are 
most promising for exploration and development. Last year BOEM began a 
Programmatic Environmental Impact Statement to support permitting 
decisions for geological and geophysical surveys that will be used for 
assessing energy resource potential off the coast of the Mid and South 
Atlantic. The Department also uses the results of exploratory drilling 
to improve its knowledge of the resource potential. As part of this 
process, the Department oversaw the first new exploratory activity in 
the Alaskan arctic in a decade, with Shell Oil Company beginning 
limited preparatory drilling activities in the Chukchi and Beaufort 
Seas under strict safety and environmental oversight.
    And we look forward to working with the Committee and your 
counterparts in the Senate to finalize implementing legislation for the 
Agreement between the United States and Mexico concerning Transboundary 
Hydrocarbon Reservoirs in the Gulf of Mexico. BOEM estimates that the 
transboundary area contains as much as 172 million barrels of oil and 
304 billion cubic feet of natural gas.
Renewable Energy Development
    The Department has a critical role to play in fulfilling the 
President's goal to double renewable electricity generation again by 
the year 2020 by permitting enough renewables projects on public lands 
to power more than 6 million homes. I will continue to build on the 
Department's successes and work to make sure we are accomplishing this 
in the right way and in the right places.
    Securing clean sources of energy is good for the environment, 
creates American jobs, and promotes innovation. In 2009, there were no 
commercial solar energy projects on or under development on the public 
lands. From that time, the Department authorized 42 renewable energy 
projects on or through the public lands which, if constructed, will 
have the potential to produce enough electricity to power more than 4.2 
million homes. The Department also plays a key role in efforts to 
strengthen the Nation's electric transmission grid, approving permits 
enabling several hundred miles of transmission lines in seven States 
across Federal lands in 2012.
    BLM has focused on an accelerated, but environmentally responsible, 
permitting process for the development of renewable energy on public 
lands that ensures the protection of signature landscapes, wildlife 
habitats, and cultural resources.
    Since 2009, BLM has authorized more than 12,000 megawatts of energy 
on public lands and waters, established a road map for responsible 
solar development in the West by designating energy zones, and flipped 
the switch on the first solar energy project to deliver power to the 
grid. BLM also released the Final Environmental Impact Statement for a 
proposed 750 megawatt facility in Riverside County that would be one of 
the largest solar energy projects on public lands in the California 
desert. BLM is also moving forward on wind energy, with a proposed 
complex in Wyoming that would generate up to 3,000 megawatts of power, 
making it the largest wind farm facility in the United States and one 
of the largest in the world. BLM also expects to propose rules that 
would establish a competitive process for issuing rights-of-way leases 
for solar and wind energy development on public lands.
    Significant progress has been made to advance offshore wind energy. 
BOEM issued the second non-competitive commercial wind lease off the 
coast of Delaware in 2012. I recently announced the first ever 
competitive lease sale, to be held in July, for a wind energy area 
offshore Rhode Island and Massachusetts, and BOEM will hold another 
competitive lease sale offshore Virginia this year. These sales involve 
nearly 278,000 acres proposed for development of wind generation to 
produce electricity to power as many as 1.9 million homes. We expect 
additional competitive lease sales to follow for wind energy areas 
offshore Maryland, New Jersey, and Massachusetts, and we continue to 
make progress on potential projects in areas offshore New York, North 
Carolina, and Maine.
    BOEM has established renewable energy task forces with a total of 
12 Coastal States, including recent task forces in the States of Hawaii 
and South Carolina, and is overseeing progress in the planning of a 
potential Mid-Atlantic wind energy transmission line, which would 
enable up to 6,000 MW of wind turbine capacity to be delivered to the 
electric grid along the east coast.
    And the Bureau of Reclamation's 58 hydroelectric power plants 
generate more than 40 billion kilowatt hours of electricity to meet the 
needs of over 3.5 million households and generate over $1 billion in 
gross revenues for the Federal Government.
                   management of our lands and waters
    I will also work hard to build on the progress that has been made 
in the management of the Federal lands and waters that make this 
``America the Beautiful.''
    One of the major goals of President Obama's America's Great 
Outdoors initiative is to better connect youth and families to nature 
and outdoor recreation. By engaging with America's youth through the 
outdoors, we are helping to lay the foundation for the next generation 
of our Nation's stewards, scientists, business leaders, teachers, and 
others who will understand the key role that national parks and public 
lands and waters play in conservation and preservation of our Nation's 
treasures and the significance they have for local communities, drawing 
visitors and boosting the economy.
    With the National Park Service's centennial anniversary approaching 
in 2016, we have the opportunity to both celebrate and confirm the 
NPS's stewardship of our cultural, historic, and natural treasures and 
its role in building enduring connections and enriching experiences 
with its visitors, including the Nation's youth. I recently had the 
opportunity to meet students from Stonewall Middle School at Prince 
William Forest Park in Virginia to celebrate National Park Week and 
highlight the importance of outdoor recreation and education, 
especially to young people.
    I have also had an opportunity in these first weeks on the job to 
work alongside young people in Gateway National Recreation Area in New 
York and in Portland, Oregon, where high school and college-aged young 
people were restoring habitat and engaging other youth in environmental 
education and stewardship--all great examples of our commitment to a 
21st Century Conservation Service Corps. In an effort to learn from the 
Civilian Conservation Corps of the last century, this will provide a 
tangible way to boost youth employment, facilitate job training, and 
engage returning veterans, supporting our public lands infrastructure 
in a cost-effective way while giving youth a lifetime connection to 
public lands close to home and far away. It will also provide great 
opportunities for public/private partnerships with businesses and non-
profit organizations.
    Through partnerships with States, tribes, nongovernmental 
organizations, and concerned citizens, we will continue to expand 
opportunities for recreation and conservation and to promote America's 
parks, wildlife refuges, and other public lands and waters. These 
innovative partnerships help create great parks and green spaces in 
urban areas, expand access to rivers and trails, support the $646 
billion outdoor recreation economy (according to the Outdoor Industry 
Association's 2012 report), connect the next generation to the 
outdoors, create wildlife corridors, and promote conservation on large 
landscapes while working to protect historic uses of the land including 
ranching, farming, and forestry.
    The Department and its land management bureaus also benefit from 
fee receipts that are collected and reinvested in visitor services 
under the Federal Lands Recreation Enhancement Act (REA). The 
Department currently collects over $200 million in recreation fees 
annually under this authority and uses them to enhance the visitor 
experience at Interior facilities. Surveys show that most visitors 
believe that the recreation fees they pay are reasonable for the 
amenities and services provided; in fact, 94 percent of visitors to NPS 
sites believe that the value for the entrance fee paid is ``very good'' 
or ``good.'' The Department encourages the Committee to reauthorize the 
REA, which sunsets in December 2014.
    And we also proposed this year, for the first time ever, mandatory 
dedicated funding for Land and Water Conservation Fund programs, with 
full funding at $900 million annually beginning in 2015. Enactment of a 
mandatory LWCF program will ensure continued funding for this program, 
which is designed to make investments in conservation and recreation 
for the American people to balance the development of oil and gas 
resources. Protecting this balance through mandatory LWCF funding will 
reduce landscape fragmentation, making it more efficient to protect 
wildlife habitat, respond to wildfires and other natural disasters, and 
increase recreational access on the lands and waters that belong to 
every American.
    We recognize the challenges in establishing new mandatory programs 
in the current fiscal environment. That's why as part of the fiscal 
year 2014 Budget we have also identified a variety of mandatory savings 
proposals that, while justifiable on their own merits, could also be 
used to partially offset a mandatory LWCF proposal. Detailed 
descriptions of all of these proposals can be found at:
http://www.doi.gov/budget/appropriations/2014/highlights/upload/
overview.pdf.

    I would also note that our legislative proposal to reauthorize the 
Federal Land Transaction Facilitation Act, which expired in 2011, 
provides a unique opportunity to supplement our LWCF resources to 
protect additional high-value conservation lands by selling properties 
that have been identified as better suited to other purposes. The 
proposal would use the sales revenues to fund the acquisition of 
environmentally sensitive lands and to cover the administrative costs 
associated with conducting the sales. We believe this is a win-win 
proposal that we hope would have bipartisan support in this Committee.
    Our Nation's public lands that are managed by BLM include 
rangelands, forests, deserts, and mountains, all administered for 
multiple uses. They support a variety of resources and opportunities 
important to Americans such as resource development, forage for 
livestock, water storage and filtration, carbon sequestration, habitat 
for an abundance of wildlife, scenic beauty, and many forms of outdoor 
recreation.
    The National Landscape Conservation System, which includes 19 
national monuments, 21 national conservation (and similarly designated) 
areas, and 221 wilderness areas designated by Congress offer a 
different conservation model where many traditional uses are allowed. 
These spectacular lands provide a multitude of benefits including 
scientific and historical resources, critical habitat for a variety of 
species, and diverse recreational opportunities including hunting, 
fishing, and hiking that generate millions of dollars for local 
communities.
    The conservation and sustainable use of our rangelands is important 
to those who make their living on these landscapes--including public 
rangeland permittees, whose operations are important to the economic 
well-being and cultural identity of the West and to rural western 
communities. While significant workload and resource challenges exist, 
BLM is committed to reducing the backlog of grazing permit renewals and 
to issuing permits in the year they expire.
    BLM manages the timber on its Oregon and California (O&C) Grant 
Lands according to the principle of sustained yield. We are increasing 
support in 2014 for resource management on the O&C lands to implement 
the Western Oregon Strategy, as well as increased support for the BLM 
to continue its comprehensive effort to prepare new Resource Management 
Plans covering six BLM Districts in western Oregon.
Conserving America's Wildlife
    Healthy populations of fish, wildlife, and plants provide a 
multitude of benefits to Americans. They provide opportunities for 
hunting, fishing, wildlife viewing, and other forms of outdoor 
recreation, as well as support jobs in the outdoor recreation industry. 
Maintaining healthy populations is important to the health of the 
ecosystems in which they live, the public, and to our economy.
    The U.S. Fish and Wildlife Service is a leader in protecting and 
enhancing America's biological natural resources for Americans to enjoy 
today and in the future. Faced with escalating challenges such as 
urbanization, invasive species, water scarcity, and a range of other 
complex issues, all of which are further stressed by a changing 
climate, FWS is taking a strategic approach to conservation and is 
working collaboratively with other Federal agencies, tribes, State and 
local governments, and project proponents to help ensure healthy 
wildlife populations while facilitating the successful implementation 
of projects that are important to the economy.
    The Department's work to conserve wildlife is wide ranging. 
Highlights of recent accomplishments include bringing down an 
international rhino-horn smuggling ring in ``Operation Crash;'' 
expanding the historical commitment to conserving waterfowl breeding 
habitat in the prairie potholes; achieving voluntary conservation 
efforts from partners for species like the dune sagebrush lizard, 
lesser prairie chicken, and greater sage grouse; recovering wolves in 
the Northern Rocky Mountains and the Great Lakes; working as part of an 
integrated State-Federal team working to address invasive Asian carp; 
facilitating an important role in domestic energy project permitting; 
and using science to begin a process of refocusing our work on explicit 
biological goals that can best represent landscape conditions and 
habitat needs of larger groups of species.
    The Department also has a special role to play in working with 
Indian tribes to safeguard resources and to maintain fish and wildlife 
needed for subsistence harvests. These protections are especially 
critical for Native Alaskan populations given the rate of change 
observed in the State's climate.
Wildland Fire
    The Department's Office of Wildland Fire Coordination was before 
you just last week to discuss the outlook and planning for this fire 
season. In May, I had the opportunity to join with Secretary Vilsack to 
visit the National Interagency Fire Center in Boise to see this well-
coordinated operation firsthand and discuss the efforts the Federal 
Government is making to protect citizens and property from wildfire.
    I recently visited the Command Posts for the Yarnell and Dean Peak 
Fires in Arizona, and attended the heartbreaking memorial service for 
the 19 firefighters that died fighting the Yarnell fire on June 30. 
This tragedy represents the worst in Arizona's history and the worst 
loss of wildland firefighters for our country since 1933. Federal 
wildland fire assets responded at the onset of the Yarnell Fire, and we 
continue to support the incident today. I speak for all Americans when 
I say that our hearts go out to the families and friends who lost these 
fine men.
    After a decade of drought and the continued proliferation of non-
native plant species and accumulation of hazardous fuels in our forests 
and rangelands, the 2012 fire season was one of the worst on record for 
BLM rangelands and woodlands in the lower 48 States. The 2012 season 
also impacted the other three bureaus with resource responsibilities, 
and with the outlook for the 2013 season to be as severe throughout 
much of the West, there may be record fires this year. To be prepared 
we are working together with other Federal agencies, tribes, and local 
governments to ensure that we're doing everything we can with the 
resources that we have. Additionally we are working with our partners 
to reach the goals of the National Cohesive Wildland Fire Management 
Strategy to restore and maintain resilient landscapes, create fire-
adapted communities, and respond to wildfire.
    The complexity and intensity of fires over the past 10 years 
present enormous budgetary challenges for the Federal Government. 
Because of sequestration we absorbed an overall $37.5 million cut to 
the Department's fire program that resulted in a reduction of 
approximately 7 percent of the Department's firefighter seasonal 
workforce, with reduced lengths of employment for those hired. This 
reduces our capability and significantly constrains our work in fire 
response and in remediating land after fire damage.
Water Resources
    The Bureau of Reclamation is the largest wholesaler and manager of 
water in the 17 Western States and the Nation's second largest producer 
of hydroelectric power. Its projects and programs are critical to 
driving and maintaining economic growth in the Western States. 
Reclamation manages water for agricultural, municipal and industrial 
use, and provides flood control and recreation for millions of people. 
Reclamation activities, including recreation, have an economic 
contribution of $46 billion, and support nearly 312,000 jobs. As a 
result, Reclamation facilities eliminate the production of over 27 
million tons of carbon dioxide that would have been produced by fossil 
fuel power plants.
    Reclamation has a long-standing commitment to support the 
Secretary's goal to strengthen tribal nations, including through 
ecosystem restoration, rural water infrastructure, and the 
implementation of water rights settlements.
    Population growth, development, and a changing climate are creating 
growing challenges to the Nation's water supplies. In many areas of the 
Country, including the arid West, dwindling water supplies, lengthening 
droughts, and rising demand for water are forcing communities, 
stakeholders, and governments to explore new ideas and find new 
solutions to ensure stable, secure water supplies for the future. The 
Department is tackling America's water challenges by providing 
leadership and assistance to States, tribes, and local communities to 
address competing demands for water by helping improve conservation and 
increase water availability, restore watersheds, and resolve long 
standing water conflicts. Today, many of Reclamation's activities 
address drought through the use of enhanced water management that helps 
guard against and, to a certain extent, mitigate the devastating 
effects of drought. Water conservation by agricultural, residential and 
commercial users is a prime example.
    Through our national water conservation initiative, WaterSMART, we 
are finding better ways to stretch existing supplies and helping 
partners plan to meet future water demands. In 2012 the U.S. Geological 
Survey, a key partner in the WaterSMART initiative, began a 3 year 
study of three focus areas in the Delaware River Basin, the 
Apalachicola--Chattahoochee--Flint River Basin, and the Colorado River 
Basin. The study will contribute toward ongoing assessments of water 
availability in these large watersheds with potential water-use 
conflicts, provide opportunities to test and improve approaches to 
water availability assessment, and inform and ground truth the Water 
Census with local information. This is in addition to focusing on water 
availability, and investigating the components of a regional water 
budget to understand the amount entering and leaving each basin.
    This work also contributed to the Colorado River Basin Water Supply 
and Demand Study, the first of its kind, released by the Department in 
December 2012, which projects an average imbalance in future water 
supply and demand greater than 3.2 million acre-feet by 2060. The study 
projects the largest increase in demand will come from municipal and 
industrial users, owing to population growth, and estimates the number 
of people that rely on Colorado River Basin water could double to 
nearly 76 million people by 2060 under a rapid growth scenario. The 
Department, along with representatives from the seven Colorado River 
Basin States, the Ten Tribes Partnership, and conservation 
organizations, is facilitating a path for next steps to address these 
projected imbalances.
    I am committed to continuing to work with our stakeholders to 
assess the implications of water shortages, develop flexible 
operational plans that account for expected periods of drought, and 
support projects that conserve water and improve the efficiency of 
water delivery infrastructure.
            supporting tribes and alaska native communities
    Great progress has been made during this Administration, including 
passage of the Tribal Law and Order Act, the settlement of the Cobell 
case and tribal trust litigation and, more recently, the passage of the 
tribal criminal jurisdiction provisions in the Violence Against Women 
Act, all with the full support of the Obama Administration. As 
Secretary, I intend to carry on the Obama Administration's policy with 
respect to Indian Affairs. Let me mention several of a number of key 
priorities here.
Self-Determination
    The cornerstone of the Administration's policy continues to be 
promoting tribal self-governance and self-determination and recognizing 
the inherent right of tribal governments to make their own decisions to 
strengthen their communities.
    The Administration's commitment to advancing self-determination is 
further evidenced by the President's Executive order, signed on June 
26, establishing a White House Council on Native American Affairs, 
which I will chair as Secretary of the Interior and that will include 
the heads of more than 30 Federal departments and agencies. The intent 
is to improve interagency coordination, efficiency, and expand efforts 
to leverage Federal programs and resources available to tribal 
communities. It will convene at least three times a year and will work 
collaboratively toward advancing five priorities that mirror the issues 
tribal leaders have raised during previous White House Tribal Nations 
Conferences, including promoting sustainable economic development; 
supporting greater access to and control over healthcare; supporting 
the efforts to improve the effectiveness and efficiency of tribal 
justice systems; expanding and improving educational opportunities for 
Native American youth; and protecting and supporting the sustainable 
management of Native lands, environments, and natural resources.
    The Executive order also institutionalizes the White House Tribal 
Nations Conference as an annual event.
Honoring the Trust Relationship
    One way that the Obama Administration has sought to advance a 
nation-to-nation relationship with tribal governments and the long-
standing policy goals established in the Indian Reorganization Act is 
by protecting and restoring tribal homelands. Efforts to restore tribal 
homelands have been hindered by the U.S. Supreme Court decisions in 
Carcieri v. Salazar and Match-E-Be-Nash-She-Wish Band of Pottawatomi 
Indians v. Patchak.
    The Carcieri decision has placed substantial administrative burdens 
on the Department and tribes, and has significantly increased 
litigation risks. The historical inquiry into whether an Indian tribe 
was ``under Federal jurisdiction'' in 1934 is often fact-intensive and 
can make the Department's review process for acquiring land in trust 
under the IRA time consuming and costly for tribes and the Department. 
After the Department's decision is complete, it is not atypical for 
lawsuits to be filed challenging the acquisition. The Supreme Court's 
Patchak decision has exacerbated the problems created by the Carcieri 
decision. In Patchak, the Court held that, despite the Quiet Title Act, 
a plaintiff who was not claiming title to the land at issue could 
maintain a lawsuit under the Administrative Procedure Act against the 
Secretary's decision to acquire land in trust for tribes could be 
challenged even after the land at issue was actually held in trust by 
the United States.
    The Administration continues to support a legislative solution to 
address the negative impacts resulting from the Carcieri decision, and 
has included language in its fiscal year 2014 budget request that, if 
enacted, would resolve this issue. The Administration could also 
support a legislative solution to the Patchak decision that allows for 
judicial review of the Secretary's decisions to acquire land in trust, 
while also protecting the tribal land base after title to the land 
transfers to the United States in trust for a tribe.
Cobell Settlement Implementation
    Finalized on November 24, 2012, following the end of the appeal 
process, the $3.4 billion settlement of the Cobell litigation addresses 
the Federal Government's responsibility for trust accounts and trust 
assets maintained by the United States on behalf of more than 300,000 
individual Indians. Implementation of this settlement will ultimately 
serve to strengthen the relationship between Native Americans and the 
Federal Government.
    Most recently, after extensive consultation with American Indian 
leaders, the Department announced that efforts are underway to 
establish cooperative agreements with several tribal nations to 
facilitate the purchase of individual interests in highly fractionated 
trust lands for the purpose of consolidating ownership of these acres 
for the beneficial use of tribal nations. We have also established 
purchase ceilings to ensure that all qualifying tribes will have the 
opportunity to participate in the Land Buy-Back Program for tribal 
nations.
    I am pleased to continue to make implementation of this historic 
settlement a priority at the Department, and the Department is moving 
forward on this.
Education
    The education of Native American children is an issue of paramount 
concern. These children experience some of the highest levels of 
poverty in the United States, which not only affects the possibilities 
for their academic success but may also limit other possibilities for 
success later in life. The Administration is committed to ensuring 
Native American students receive an academically rigorous, culturally 
appropriate education that will prepare them to be productive citizens 
and leaders in their communities and help build safer, stronger, 
healthier, and more prosperous Indian communities. We are working in 
conjunction with the Department of Education to support these efforts.
Energy Development
    As the President has stated many times, our success depends in 
significant part on pursuing an energy strategy that reduces our 
reliance on foreign oil and secures our energy future. As a part of 
this strategy, the Department is committed to assisting tribes in 
expanding on Indian lands renewable, low cost, reliable, and secure 
energy supplies as well as safe and responsible oil and gas development 
in accordance with tribal objectives.
    The Department currently holds in trust 55 million surface acres 
and 57 million acres of subsurface mineral estate throughout Indian 
Country. The potential on Indian lands for the development of both 
conventional and renewable energy resources is significant.
    Implementing the President's all-of-the-above energy strategy in 
Indian Country will contribute to the goals of increasing our Nation's 
domestic energy supplies and of improving the economies of many Indian 
tribes and Alaska Native villages.
Regulatory Reform
    The Department's process for acknowledging an Indian tribe provides 
for the Assistant Secretary for Indian Affairs to make a decision on 
whether to acknowledge a petitioner's government-to-government 
relationship with the United States. Some have criticized the process 
as expensive, inefficient, burdensome, intrusive, less than transparent 
and unpredictable. The Department is aware of these critiques, and we 
are reviewing our existing regulations to consider ways to improve the 
process and address these criticisms and concerns.
    With this in mind, the Department is actively working to develop 
draft revised Federal Acknowledgement regulations and will be 
initiating the tribal consultation process soon. Pending the outcome of 
tribal consultation, the next step would be to release the proposed 
rule for public comment. While the current goal is to publish a final 
rule sometime in 2014, the timing for publication of a final rule 
depends upon the volume and complexity of comments and revisions 
necessary to address the comments received.
                         commitment to science
    The Department's mission requires a careful balance between 
development and conservation, achieved by working closely with our 
diverse stakeholders and partners to ensure our actions provide the 
greatest benefit to the American people. The development and use of 
scientific information to inform decisionmaking is a central component.
    Science at the Department promotes economic growth and innovation. 
At the Department, we use science to address critical challenges in 
energy and mineral production, ecosystem management, invasive species, 
oil spill restoration, climate adaptation, and Earth observation--such 
as satellite and airborne land imaging, and water and wildlife 
monitoring. And in support of the President's new Open Data Policy, the 
Department continues to make Federal data collected through these 
efforts publically accessible. For example, the Bureau of Ocean Energy 
Management and the U.S. Geological Survey have collectively contributed 
over 100 datasets to ocean.data.gov, to support regional efforts under 
the National Ocean Policy.
    Scientific monitoring, research, and development play a vital role 
in supporting Interior's missions and Interior maintains a robust 
science capability in the natural sciences, primarily in the USGS. An 
example of how this expertise is applied is USGS's work as part of an 
interagency collaboration on hydraulic fracturing, which is aimed at 
researching and producing decision-ready information and tools on the 
potential impacts of hydraulic fracturing on the environment, health, 
and safety, including water quality and inducement of seismic activity. 
The USGS is also a leader in resource assessments, and just recently 
published an updated assessment of the Bakken and Three Forks 
Formations, finding greater resource potential there than previously 
thought.
    The President has also made clear that climate change is an 
important issue for the Nation, especially as we face more frequent 
droughts, wildfires, and floods. Here at the Department, we are using 
the science expertise in our bureaus to assist our land managers to 
effectively prepare for and respond to the effects of climate change on 
the natural and cultural resources that we manage.
    While USGS provides exceptional support to Interior bureaus, other 
Departmental bureaus work collaboratively to bridge gaps in knowledge, 
leveraging the complementary skills and capacity to advance the use of 
science to support management decisionmaking, ensure independent review 
of key decisions and science integrity, and adaptively use data to 
assist States, tribes, and communities throughout the Nation.
                        impacts of sequestration
    Finally, I want to mention the impact sequestration and uncertainty 
about the future has had on the Department and its programs. The 
sequester was designed to be inflexible, damaging, and indiscriminate, 
and it is. The process put in place by the sequestration undermines the 
work we need to do on many fronts, and we will continue to see impacts 
across the country in all of our bureaus during the coming months.
    We are facing challenges across our bureaus to deal with the 
impacts of the sequester. We will survive these cuts this year by 
freezing hiring, eliminating seasonal positions, and cutting back on 
our programs and services, but these steps are not sustainable, as 
these actions which are eroding our workforce, shrinking our summer 
field season, and deferring important work cannot be continued in 
future years without further severe consequences to our mission.
                               conclusion
    Thank you again, Mr. Chairman, for inviting me to appear before 
your Committee. Achieving success in all of these important 
responsibilities on behalf of the American people is the Department's 
primary focus. I look forward to working with you as we advance these 
important issues.
                                 ______
                                 
    The Chairman. Thank you very much, Madam Secretary, for 
your statement, and again, for being here.
    Let me first make an observation with how the Department 
has been responding to the Committee's oversight requests.
    At the first meeting that you and I had a month ago, I 
discussed the frustration that the Committee's oversight 
requests would often go ignored for months. In fact, in the 10 
oversight requests that we have sent to the Department this 
year, the Department has not met one deadline for, and has not 
complied with, a single one of those 10 requests. Now, I know 
that overlaps between the time Secretary Salazar and you were 
here. Of those two requests were only partially responded to in 
the days leading up to this hearing, and one request from May 
has never been responded to at all.
    Now, at that meeting, I asked that our staffs get together. 
And I know in the weeks since our staffs have had several 
follow-up conversations to get updates on the overdue oversight 
requests. Although the Department staff has said that they are 
working expeditiously on the Committee's requests, they have 
refused to say when we can expect additional responses, or even 
whether it is withholding any of those documents.
    Now, from the standpoint of our responsibility for 
oversight, that, to me, does not make any sense. So it is my 
hope, as I mentioned to you when we first met, that under your 
leadership, the Department will have a better track record of 
complying with congressional oversight requests. But I want to 
stress, and I did this privately and I will do here publicly, 
that we are really running out of patience with the 
Department's delays. And the Committee will take whatever steps 
necessary, and that includes issuing subpoenas, to enforce 
these requests, overdue requests, for information.
    Now, you mentioned ESA, and I mentioned ESA in my opening 
remarks. And one of the frustrations that I have is that mega-
settlement, and then the deadlines that are ensuing from that 
mega-settlement. In my district, let me get personal, in my 
district, in Franklin County in central Washington, we recently 
had a public hearing on a plant subspecies called the 
bladderpod. Now, the deadlines that we see, that my 
constituency sees, is that there is going to be a decision 
made, not because of good science, but because of the 
deadlines.
    I mean, for example, in this issue of bladderpods, none of 
the private landholders were notified prior to the listing. And 
at the hearing, ironically, and meetings I have had 
subsequently with the private land owners that were impacted, 
they said, ``If they had contacted us earlier, we probably 
could have reached some sort of a settlement, but we knew 
nothing at all about it because of the settlement,'' of the 
mega-settlement.
    So, I guess my first question to you, as we move forward 
with ESA listings, do you think that deadlines should be a part 
of it? If you had a choice between deadlines and good science, 
what should be the driving decisionmaking process? Good science 
or deadlines?
    Secretary Jewell. Mr. Chairman, I want to respond on both 
comments that you made. First, on the document request. As I 
asked for an update, we have provided over 10,000 pages of 
documents. I know our teams have met multiple times. And I will 
renew my offer to you, which is, before you feel a need to 
submit a document request, I am very happy to have a one-on-one 
conversation with you to understand, I appreciate the role of 
oversight of this Committee and I am committed to upholding 
that. And if there is a way we can do it without having people 
go through laborious document requests and then your having to 
review those document requests, that would be great. Because I 
think we share a commitment to a transparent relationship.
    Second, on the ESA, we are bound by the laws. And the laws 
talk about using the best-available science. As I understand 
it, and I am coming into this relatively new, there were many, 
many requests for listings. It was very hard to keep up, and so 
there was a broad, multi----
    The Chairman. Mega.
    Secretary Jewell. Mega, whatever. There were a lot of 
species. And those provided timelines that at least stopped 
things from being forced into listings by buying us some time. 
So I don't think it is an either deadlines or science. The law 
is clear: we must use best-available science. We are upholding 
that law. But I think one of the challenges is we were being 
overwhelmed by the numbers, and the settlement enabled us to 
actually have some timelines out there. And I am not familiar 
with the bladderpods that you referenced, but I can certainly 
check on that specifically and get back to you.
    The Chairman. Well, the whole issue is making decisions 
based on deadlines, rather than good science. And it appears to 
be, at least in this case, and probably others, that deadlines 
are the driving force.
    I know Members want to ask questions, so I will quit, 
because I am over time, and I will recognize the Ranking 
Member.
    Mr. DeFazio. Mr. Chairman, I will take my turn a little bit 
later. So at this point I would recognize Mr. Pallone.
    Mr. Pallone. Thank you. Secretary Jewell, the Department of 
the Interior is currently deciding whether seismic air gun 
testing should be allowed to search for offshore oil and gas in 
the Atlantic Ocean. And I think you know I am staunchly opposed 
to drilling in the Atlantic, and believe that, rather than 
waste the time and money on seismic testing, the Department 
should be investing in the development and production of clean 
energy.
    With that being said, I am troubled by the process the 
Department has been taking in developing its environmental 
impact study for seismic testing in the Atlantic. And let me 
explain. The Department's draft EIS estimates that 138,500 
marine mammals will be injured or killed by this testing over 
the course of 8 years, and over 13 million more marine mammals 
disturbed. Yet NOAA is currently working on developing new 
acoustic guidelines for assessing the effects of sound on 
marine mammals that are likely to increase the current 
estimates for disturbances to vital behaviors of marine 
mammals. In other words, even more.
    It would seem that these new guidelines would be very 
relevant to the final EIS your Department is compiling. And 
since any final EIS that does not include these new acoustic 
guidelines would be severely flawed, will you commit to waiting 
until these new NOAA guidelines are published and finalized 
before issuing a final EIS on this matter?
    Secretary Jewell. Congressman, I am familiar that the EIS 
process is underway, and that we are trying to do our part to 
understand the resources that are available on Federal 
property. I am not specifically aware of the NOAA study.
    So, what I would like to do is look into that and better 
understand that and understand where it is in the process of 
the EIS, because I am not familiar with where they are in terms 
of receiving that information, but I know that we will use the 
best available information at the time we do that EIS, and 
certainly recognize the concern over marine mammals.
    Mr. Pallone. Well, let me ask you this. I understand that 
you are saying you can't make that decision now. But I just 
would ask, as you said, that you consider not proceeding with 
the final EIS until these new guidelines are published, and get 
back to me and tell me one way or another, whether you are 
going to hold off with the EIS until these guidelines come 
back. If you could, get back to me through the Chairman.
    Secretary Jewell. Absolutely.
    Mr. Pallone. Now, that is with regard to marine mammals. 
But with regard to fish, as opposed to marine mammals, 
commercial and recreational fishing off the Mid and Southeast 
Atlantic generates about $11 billion annually and supports over 
200,000 jobs. Meanwhile, air gun noise has been demonstrated to 
depress catch of several commercial fish species by some 40 to 
80 percent. And for this reason and others, the Mid-Atlantic 
Fisheries Management Council has formally objected to DOI's 
plans to open up the Atlantic to seismic exploration. And yet, 
there doesn't seem to be anything, there is really nothing, in 
the draft EIS to reduce harm from seismic exploration to fish 
and fisheries, as opposed to marine mammals.
    So, I mean, I just want you to understand it is really 
important to address this, not only for marine mammals, but for 
fishing as well, and focus on this. And I would ask that you do 
that, that the EIS not just look at marine mammals, but also 
focus on fisheries, and whether that is the right thing to do.
    Secretary Jewell. Happy to look into that, as well.
    Mr. Pallone. OK. And finally, I wanted to let you know that 
Sandy Hook, which is a national park at the Jersey Shore that 
is in my district and I care about a lot, is an important 
economic driver for New Jersey, and it needs attention from the 
Department. The park was hit very hard by Superstorm Sandy. And 
I have to commend the hard work of the National Park employees 
that got the park up and running again for this summer. But 
there are many aspects of Sandy Hook that need attention, such 
as Fort Hancock, which is a National Historic Landmark, which 
has been allowed to slowly degrade into really kind of a 
shameful sight.
    So, I would simply ask if you would ensure the Department 
gives Sandy Hook the attention it deserves, and also perhaps 
come and tour the park with me at some time in the near future.
    Secretary Jewell. Congressman, I have been to the area, not 
specifically to Sandy Hook. The damage is certainly devastating 
throughout that region. I know that we have secured $37 million 
for----
    Mr. Pallone. We did, and I appreciate that.
    Secretary Jewell. And I have been working alongside 
Director Jarvis on this program, and it is certainly something 
that we are interested in doing, and I would look forward to a 
visit to that region.
    Mr. Pallone. Thank you, very much. And thank you, Mr. 
Chairman, Mr. DeFazio.
    The Chairman. The gentleman yields back his time. We 
recognize the gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and welcome, 
Secretary. I want to first say how much I have appreciated the 
opportunity I had of meeting you in private. I realize you are 
having a difficult time kind of dealing with my sarcasm, but 
the Chairman has the same problem here as well. It will come in 
time.
    [Laughter.]
    Mr. Bishop. And I do want to thank you in those private 
meetings of your emphasis on the idea of collaboration and your 
willingness to assist us in some things we are doing, and 
emphasizing that, obviously, a legislative solution is far 
better than a rulemaking solution. So thank you very much for 
those efforts. I look forward to it.
    I have a couple of parochial issues that I want to ask you 
about. And part of it is based on a FOIA request, I just 
received information about it yesterday, that comes on the idea 
of sage-grouse from your national technical team on sage-grouse 
report. And I was actually concerned with a couple of things 
about the science of this report, as it says things within the 
FOIA request from the report like I don't feel like we really 
got into the correct science out there on the sage-grouse.
    Not sure we can say we did a review of existing literature, 
and I don't think so-and-so's group embarked on conservation 
science, they are just trying to fill holes for the citation.
    Some of the longer-term concerned comments were not 
addressed, and can be discussed later to address some of the 
science shortfalls brought up by the science team. They fear 
they will be challenged, ``blowback'' was the word they used, 
by outside groups.
    My favorite one is, because I don't understand it, is, ``I 
am missing something. Is this anthropogenic feature section 
worded poorly, or is this a misapplication of professional 
judgment on science?''
    So, here is my concern. Let me talk, first of all, about 
the Gunnison sage-grouse. Yesterday you received a letter, I 
think, from Senator Bennett and Udall and Representative 
Tipton, I don't know why Scott lowered himself to sign on to a 
letter with the Senators; you have got to fix that, about the 
substantial disagreement on the Gunnison. And you gave a 6-
month delay from Fish and Wildlife to making a final decision, 
which I appreciate you doing that. My concern is they tend to 
go over the border. And even though there is estimated about 
5,000 of these damn birds running around, 100 of them are in 
Utah. Does Utah also get that same 6-month delay as the 
Colorado section?
    Secretary Jewell. I don't know. I believe that it is the 
species, and not the State, so it would be the listing around 
the Gunnison, and so I would assume it applies, but I will 
check into that for you.
    Mr. Bishop. Thank you. And I hope it does, because that 
would be the obvious right thing to do.
    I do have a question, though, because San Juan County is 
the county that is impacted by Gunnison sage-grouse, and that 
is 95 percent federally owned. The 5 percent that is not is now 
covered by Fish and Wildlife in this sage-grouse proposal. They 
have planted fields, I am sorry, meadows, they have sold land 
for easement, they have done a lot to try and meet this 
situation. Can I get a guarantee that somebody from the 
Department will actually sit down with San Juan and review what 
they are doing before making a final decision?
    Secretary Jewell. I will ask my team to do that.
    Mr. Bishop. Thank you. Same thing deals with the greater 
sage-grouse for the State of Utah. We have a plan in the State 
of Utah that solves 90 percent of the problem. Fish and 
Wildlife has not endorsed it, nor have they given any feedback. 
Can I get a commitment that the State of Utah will be given a 
chance to actually go forward and let their plan succeed?
    Secretary Jewell. Congressman, I am not familiar with the 
exchange back and forth, but I do know this, that I have spent 
quite a bit of time on the greater sage-grouse issue, I have 
met with the western Governors when we last saw each other. 
Sage-grouse is a huge issue. It is a great illustration of 
States working together with the Federal Government and private 
land owners to try and address habitat so a listing does not 
become necessary for the species. And I know, from talking to 
my colleagues, they want to work very closely with the State. 
So I presume that that means a yes in the case of Utah's plans, 
that they want to know what you are doing and work alongside 
you to address that.
    Mr. Bishop. The State plan is a good plan. I want to have 
the chance of succeeding. And I do mention that some of these 
court sue-and-settle mandate dates that we have, like September 
2014, is not going to be a necessary effort to do that.
    Let me ask this one last thing, because I have obviously 
run way out of time. We had a hearing the other day about 
forest fires. I only got 40 seconds, and I am fumbling. See how 
bad this is? What we found out about then is that the budget 
for treatment and fire reduction has been cut by the 
Administration. But at the same time, the Secretary of 
Agriculture wants to spend $400,000 to buy more property, which 
is, to me, a gross misuse of funds, and exacerbates the 
problem.
    As we talk to the Forest Service, they don't have the legal 
authority of moving that money from land acquisition into 
forest fire suppression or fighting or treatment. Does the 
Department of the Interior have that same problem? Is there a 
legal impediment for moving land acquisition funds over into 
the fire-fighting process?
    Secretary Jewell. I believe that we are operating on a 
line-item-by-line-item budget. I am not aware of the ability to 
take a capital project like land acquisition and move it into 
an operational item like that, but I will check on that.
    Mr. Bishop. Thank you. Obviously, I think that is something 
we need to look at.
    I apologize for going 5 seconds over.
    The Chairman. Well, Pallone gave you a little bit, so you 
are OK there.
    I recognize the gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. Welcome, 
Secretary Jewell. I look forward to working with you. I have a 
whole host of questions. Some of them will be submitted for the 
record.
    Just on your statement about water on conserve and store, 
because of the drought issues, the climate change that we are 
facing, I would suggest that we start looking at water reuse, 
recycling, not only conservation but education. And that is 
just for starters.
    We know that your WaterSMART program has been cut by 53 
percent. That hits a lot of the programs that have been very, 
very successful in creating wet water. And we are hoping that 
we will be able to work to expand the program. I believe most 
of the programs have been zeroed out.
    The defunding by the appropriators of the Indian water 
rights settlement, and you talk about hydraulic fracturing, 
which uses a lot of water and leaves contaminated water, even 
in areas where there is drought, and I think that is a serious 
issue that we need to maybe look at.
    The San Joaquin Settlement under the WaterSMART, two 
decades of active litigation would probably be settled, or at 
least help to address those problems in California.
    And then, of course, the traditional construction budget 
that my colleagues on the other side support, yet we are taking 
money out of one part of Rec's budget, it has to come out from 
another part of your budget.
    Then the stream gauges, which are critical for farmers and 
for others, just continuing the support of those. Those are 
also things that we are very, very concerned about.
    I mean I could go on. There are programs and authorizations 
that were vetted by Congress, and yet we are defunding them. 
And I would like to hear what we can do to be able to help 
motivate those.
    And talk about energy projects that could be impacted by 
the permitting process.
    We talk also the Bureau of Indian Affairs that count for 
energy initiatives. We have NECA, Electrical Contractors 
Association, working with IBEW, the electrical workers, to work 
with tribes to set up and manufacture solar panels on Indian 
Reservations, issues that we need to continue to ensure that we 
do not over react, and cut budget for, because this not only 
means jobs, it is also dealing with our future of being able to 
continue promoting renewables.
    I would like to be able to hear anything that you might be 
able to help us out with. Yes, the Indian water rights 
settlement, of course, is one of the major ones that I have, 
zeroing out your funding for that.
    Secretary Jewell. Thanks, Congresswoman. As I understand, 
the budget includes close to $80 million, $78.7 million, for 
the implementation of four Indian water rights settlements. So 
it is not zeroed out, but it may be specific. I know that we 
are working with Reclamation to establish an Indian water 
rights settlement account that ensures continuity in the 
construction of the authorized projects.
    Mrs. Napolitano. Yes, but if it zeroes out funding for the 
settlement, why is it important we prioritize their water 
rights settlements.
    Secretary Jewell. Well, I think it is----
    Mrs. Napolitano. In the House.
    Secretary Jewell. We are making lots of difficult choices 
relative to the budget, overall. And I think it is very 
important that we prioritize water, overall.
    Mrs. Napolitano. Well, they have been ignored for decades, 
and that is one of the reasons why we think it is important.
    Secretary Jewell. OK. On the WaterSMART, there is no 
question that it is very important we try to conserve, that we 
don't waste water, that we reduce leaks, which Bureau of 
Reclamation has done, that we reduce evaporation. And the best 
drop of water is the one that people don't use to begin with, 
because of effective conservation. So I support the concepts 
you are discussing, and hope that we can get to a budget kind 
of situation that prioritizes these. Because, as you know, they 
are very extreme----
    Mrs. Napolitano. Well, one of the ideas that has been 
bounced around is creating a fund to be able to help small 
communities that cannot afford to institute some water saving 
or recycling or education projects, that we be able to help 
them, assist them in being able to help themselves. And that is 
something that I think we haven't looked at.
    And one other area that concerns me is that when we provide 
funding for any project, recycle water projects or otherwise, 
that we have some kind of oversight. There is a water basin in 
my area that is right now undergoing an FBI investigation 
because of possible abuse of Federal and State funds, a 
commingling of funds is fine, but they have been found to be 
not doing the best with the money that was given to them, which 
is taxpayer money, and I take great exception to that.
    Secretary Jewell. I certainly agree that we need to use 
taxpayer money in the most efficient, effective way possible. 
And I don't know the specifics of that circumstance, but if it 
involves Interior, very happy to look into that directly.
    Mrs. Napolitano. It does involve Interior. And thank you, 
Mr. Chair. Sorry I went over.
    The Chairman. I thank the gentlelady. The Chair recognizes 
the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And I wish you 
success in a difficult job. It is real important to our 
country. So thank you for taking this job. And I do have to 
bring up several difficult issues, given this opportunity I 
have to talk with you.
    In audio tapes uncovered by the House Natural Resources 
Committee investigation on the Stream Buffer Zone Rule, the 
Office of Surface Mining's own career staff was highly critical 
of the proposed rule because its costs so significantly 
outweigh its benefits. In fact, they were quoted saying, ``This 
will never sell to the public, Congress, or to anybody that, if 
we have this huge rule that we are only going to save, say, 15 
miles of stream, this is going to be a headline story.''
    Anyway, this Committee has continued to request information 
from the Department about this rule, and the Department 
continues to withhold information from us for no apparent 
reason. Just yesterday the Department produced a series of 
documents claiming to be responsive to this oversight request, 
including emails from 2009 that were entirely redacted. Here is 
an example up on the screen. And it took the Department 5 
months to produce these emails, which are 5 years old. And I 
just am very disappointed about the Department's lack of 
responsiveness.
    I know you have just gotten there, but do you condone this 
lack of responsiveness? And will you tell them to be more 
responsive, hopefully?
    Secretary Jewell. Congressman, as I said to the Chairman, I 
am committed to being responsive on requests, and also working 
with this Committee, hopefully outside of the need for 
requests, to understand what your concerns are and to address 
those concerns without doing it back and forth through FOIA 
requests. I know that there are legal issues, there are 
individual names, there are things that are not appropriate to 
provide in written form. What we want to do is get to the 
bottom of issues that are of concern to this Committee.
    And with regard to the Stream Buffer Zone Rule, I know that 
the team is working diligently on coming up with a way to both 
protect the resources and provide clarity to the industry. So, 
we will be publishing the rule once we have had all those 
inputs. And to the extent that there is additional information 
that we can provide that is helpful, we will be happy to do so.
    Mr. Lamborn. Well, I know there can be legitimate reasons 
for not disclosing certain isolated facts. But I hope that we 
don't see any cover-up just because things aren't going well 
and there has been some poor management.
    Secretary Jewell. That is certainly not my intent.
    Mr. Lamborn. OK, thank you. Changing the subject, last 
year's fire season burned a total of 9.3 million acres, 
including the Wild Oak Canyon fire in my district that 
destroyed 347 homes and killed 2 people. Also, this year there 
has been the Black Forest fire in my district that claimed 2 
lives and destroyed about 500 homes.
    However, the Administration's budget proposed cutting 
hazardous fuels reduction funding by 37 percent, that is $115 
million in a decrease. And, at the same time, ironically, 
proposing to acquire more land and increasing that funding by 
10 percent. So, I question that we are buying more land when we 
are not managing the land we already have very, very well.
    In light of the catastrophic fire season, do you support 
the President's desire to reduce funding by $115 million for 
hazardous fuels reduction?
    Secretary Jewell. Congressman, as I said in my opening 
statement, fire is a huge issue. I am bringing awareness to the 
Administration and working alongside Secretary Vilsack, trying 
to prioritize how we do our work, and spread the dollars as far 
as we can. And I am making the Administration aware of those 
things.
    I think that, as my colleague, Jim Douglas, I think, was 
before this Committee, explaining some of our work around fire, 
it is very important we raise awareness as we make hard 
decisions around the budget. And there have been many hard 
decisions made that I think nobody is going to be happy with, 
as we try and bring the budget down.
    So, as I influence the first budget I will have an 
opportunity to be involved with, which is 2015, I am certainly 
talking about these issues.
    Mr. Lamborn. OK, thank you. And last, there has been some 
talk, in fact, the Acting Ranking Member brought up the 
proposed BLM rule on fracking. The States are already doing a 
good job of that. And some people around here talk about 
science. And you are an engineer. So you know that the 
hydrology and geology of every State is not the same. I mean 
Alaska is not the same as Hawaii, for instance. Why not let the 
States, who know their own hydrology and geology better, do 
their own regulation, instead of a one-size-fits-all imposed 
fiat bureaucratic mandate from Washington? Why not let the 
States do what they are already doing a good job of?
    Secretary Jewell. Mr. Chairman, can I just take 10 seconds 
to respond?
    The Chairman. You can, very briefly, thank you, Madam 
Secretary.
    Secretary Jewell. OK, will do. As an engineer, I understand 
fracking. And I understand that there are baseline standards 
that apply, no matter the hydrology: wellbore integrity, 
flowback fluids, and what is in the fluids, themselves. 
Colorado does a nice job. Wyoming does a nice job. If the 
standards of the States meet or exceed the Federal standards, 
we are fully supportive of State or tribal standards. But some 
States do not have regulations and technologies moving into 
those States. So we are talking about baseline minimum 
standards on Federal lands.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. And welcome, Madam 
Secretary. Thank you for being here.
    If I may, my friend, Mr. Bishop, talked about having to get 
used to his sarcasm. After many years of serving with Mr. 
Bishop, let me assure you, Madam Secretary, it is an acquired 
taste, it is not something you can get used to.
    [Laughter.]
    Mr. Grijalva. Madam Secretary, the Wild Horse and Burro 
Program managed by BLM has been a persistent source of 
criticism, controversy, and, I believe, in need of serious 
reform and an overhaul. And much of that criticism that has 
been leveled at the program was reaffirmed by an independent 
review by the National Academy of Sciences.
    And so, in light of that independent review, do you see a 
need to restructure the program in order to both save money 
and, just as importantly, guarantee humane treatment of wild 
horses and burros in that program?
    Secretary Jewell. Congressman Grijalva, it is a very 
difficult situation. Yes, the National Academy of Sciences 
program validated one of the concerns that the BLM has had, 
which is a 20 percent-per-year reproduction rate of wild horses 
and burros, and the way the program is currently being handled 
is very expensive and very challenging.
    So, we are reviewing the report in detail. Things like 
contraception, figuring out what our options will be, and 
certainly the goal would be to address this in a way that is 
more effective than what has been done in the past. And I know 
the BLM is committed to doing that.
    Mr. Grijalva. I appreciate that, and thank you. Look, 
climate change is a serious challenge. Our constituents expect 
us to be proactive and manage that. And that is something that 
I don't believe we could ignore, pretend that it doesn't exist. 
I believe Senator Boxer is holding a hearing tomorrow entitled, 
``Climate Change: It is Happening Now.'' It is a message that 
isn't quite getting across to the Majority on this side of the 
Capitol.
    And I am happy that the Administration hasn't ignored the 
reality of the situation, and is managing our public lands to 
mitigate and to adapt to climate change. Can you discuss the 
importance of the role public lands have in the context of 
climate change adaptation?
    Secretary Jewell. Congressman, I will try and do that in a 
nutshell. Climate change is very real. Congressman DeFazio 
mentioned the ocean acidification, which is a big factor in the 
West. We see it in wildland droughts, we see it in water, as I 
had referenced to Congresswoman Napolitano.
    We have a major role to play. We must adapt our landscapes, 
and that means understanding what is going on. Building natural 
resilient infrastructure, for example, for hurricanes. Think 
about natural ecosystems, mangrove swamps, dunes, those kinds 
of things both bring green space into communities, and also 
help adapt them. But also we have a lot of resource potential 
and renewables, particularly in the desert Southwest. So we 
have identified zones for both wind and solar, as well as we 
have for conventional means.
    And so, it will be both supporting an energy future that 
fuels this economy, but does so in a less environmental 
impactful way, but also adapting our lands and waters for what 
is coming already, or what is upon us, with regard to changing 
climate conditions.
    Mr. Grijalva. Thank you. And one last question. 
Sequestration and its impact. As you mentioned several times, 
that is something that you are having to come to grips with and 
deal with as you try to balance priorities in the Department.
    One of the first areas hit the hardest was Indian country 
and the impact of sequestration. It hit the first Americans 
really hard. I think the story in the New York Times about Pine 
Ridge and the Oglala Tribe was a particularly important one, 
because 90 percent of their budget is Federal resources for 
social services, education, and health care. And I think, down 
the line, you can provide to the whole Committee, how we are 
going to mitigate that very, very harsh impact on Indian 
country down the road.
    I think the other question that continues to persist is the 
issue of consultation, it is a major component, the 
relationship between the nations and the Federal Government. I 
think the question is, what steps will the Administration take 
in order to uphold that trust responsibility of consultation?
    And also, not only as it impacts tribal land and their 
homelands, but may extend beyond the reservation in terms of 
sacred sites, religious, cultural sites. And those are long-
winded questions, and probably require a long-winded response. 
And I think the whole Committee would appreciate at some point 
something that we can disseminate among ourselves.
    With that, Mr. Chairman, I yield back.
    The Chairman. And if you could, Madam Secretary, respond to 
that in writing, that is a question I am sure that all of the 
Members would like to have.
    The gentleman from Virginia, Mr. Wittman, is recognized.
    Dr. Wittman. Thank you, Mr. Chairman. And Secretary Jewell, 
thank you, and welcome aboard. We are glad to have you here 
before us today.
    And I want to begin with asking you some questions about 
the 2012 and 2017 Outer Continental Shelf oil and gas leasing 
program. As you know, unfortunately, Virginia was not included 
in that. And the Department's exclusion of Virginia has an 
economic impact. It delays or puts off thousands of jobs that 
could be created, about $19.5 billion in revenue, both at the 
local, State, and Federal levels. And, as you know, the House 
recently passed the Offshore Energy and Jobs Act, which does 
include Virginia in that Outer Continental Shelf energy 
development program.
    And in your testimony before the Senate, you said 
explicitly that the Department doesn't plan on undertaking any 
additional studies before the 2017 time period, when the 
current plan expires for the Outer Continental Shelf. And I 
just wanted to get your perspective on that. Knowing that it 
takes a significant amount of time for that 5-year plan process 
to take place, to gather information, to go through the public 
comment period, knowing the amount of time that it takes for 
that to happen, when do you see the process beginning for 
developing the 2017 to 2022 5-year plan, and how long do you 
expect that process to take?
    And will you take into consideration in Virginia the broad, 
bipartisan support for energy development on the Outer 
Continental Shelf off of Virginia, understanding that both of 
our Senators and the vast majority of our Representatives, as 
well as the State body, are passionately in favor of developing 
our offshore energy resources?
    Secretary Jewell. Thank you very much, Congressman. Just to 
clarify, in the 5-year plan there is not a prohibition on 
studies. It is just that we would not start drilling on the 
Outer Continental Shelf in the Atlantic. Certainly, as was 
referenced in the exchange earlier around geological and 
geophysical surveys, there is a plan within the 5 years to do 
the G&G studies. It is obviously not non-controversial, just 
based on the earlier conversation.
    So, I think that the potential needs to be better 
understood. There have not been studies done on that for 
something like 30 years. We need to assess the potential.
    In terms of the timing to produce the study, I am not 
exactly sure how long it took to do the last 5-year study, and 
when that began. So that is something I will have to check into 
for you.
    Dr. Wittman. OK, very good. Let me ask you this. Do you see 
any inherent conflict between the development of the 5-year OCS 
lease plan, as mandated by the OCS Lands Act and the National 
Ocean Policy, and its call for regions to develop marine 
spacial plans that you, as Secretary, are subsequently bound to 
follow per the Executive order establishing National Ocean 
Policy. I am just wondering if you see any potential conflicts 
as the decisionmaking goes forward.
    Secretary Jewell. I am not familiar with the second thing 
you referenced, so I am going to have to look into that and get 
back to you with a response, if that is OK.
    Dr. Wittman. OK, that will be great, if you will take that 
for the record.
    And just in going forward, you know that, obviously, for 
Virginia, there has been a definitive direction that Virginia 
seeks to take with offshore energy development, both for our 
fossil fuels, and obviously, for our alternative and renewable 
sources of energy. And we would like to see, obviously, all of 
those efforts ongoing, and would love to have the Department as 
a partner with Virginia in trying to move this forward.
    Obviously, getting the developmental information there is 
important, but also making sure that is the conduit for making 
a decision about pursuing the development of those energy 
sources offshore, I think, is critical. I know from time to 
time issues come up with not just the Department of the 
Interior, but Department of Defense with those kinds of issues, 
and we want to make sure that conversation continues with all 
the different entities, to make sure that those energy 
resources in the Outer Continental Shelf continue to be 
developed, again, both the fossil fuels and the alternative and 
renewable sources of energy.
    So, I appreciate your time and consideration with that, and 
your continued effort to work with Virginia, who has a keen 
interest in making sure that these resources are developed.
    So, Madam Secretary, thank you. And, Mr. Chairman, I yield 
back.
    The Chairman. I thank the gentleman, and recognize the 
gentleman from California, Mr Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, and the 
Ranking Member, for this important hearing, getting a chance to 
meet the Secretary. Thank you, congratulations, Madam 
Secretary. You have a very important role in this 
Administration and a very diverse portfolio. I, like many of my 
other colleagues, have lots of areas that I would like to 
discuss with you, obviously, in 5 minutes you can't do it, from 
the Bay Delta Conservation Plan in California to the San 
Joaquin River restoration efforts, to the adoption of the new 
plan in Yosemite National Park, to dealing with the immediate 
drought conditions that we are facing in California.
    I have been trying to reach you over the last 6 weeks. It 
is disappointing that, in repeated efforts we have not been 
able to have contact. But I am very pleased today that we get a 
chance to have a face-to-face conversation.
    I want to put a human face on constituency I represent. As 
Tip O'Neill once said, ``All politics are local,'' but mine, I 
think, like many of our colleagues, impact much of America. I 
represent the San Joaquin Valley. It has been called the food 
basket of the world. Perhaps the most fertile agricultural 
soil. In the Valley we produce 13 percent of the Nation's food 
products on less than 1 percent of the land. We produce over 
half the Nation's fruits and vegetables, half the Nation's 
dairy products, 95 percent of the world's almonds, pistachios, 
and walnuts. It goes on and on and on.
    But we are facing some of the most significant water 
problems because of a broken water system that hasn't met the 
needs of a growing State. And, therefore, we have a conundrum. 
Of course, without water, you can't provide food for folks.
    Some communities all have 40 percent unemployment this 
year, as a result of lack of water. There are a lot of 
combinations of why that is occurring: lack of investment, 
challenges with the Endangered Species Act, focuses on just the 
regional differences that we have had in California for 
decades. And some people in this Committee, frankly, and we 
have a number of Californians on this Committee, prefer that we 
Californians not discuss the water issues in this Committee, 
because of the differences of opinion that exist.
    I would like to get a sense from you on, notwithstanding 
that fact, what you consider your role to be. You have some 
good people with Mike Connor and with the Bureau. You have some 
good people out in California. How are you going to try to 
provide efforts to work with Governor Brown and those that 
would like to fix the broken water system?
    Secretary Jewell. Thanks for the question. I am fully 
committed to continuing the momentum that has already been in 
place in terms of working with Governor Brown, with States, 
with your colleagues who have different points of view. I have 
done business in the San Joaquin Valley with agricultural 
producers. I appreciate and understand the issues and the 
importance of water, and also that there are efforts that 
people are making and need to make to make the water go farther 
that they use. But there is no question----
    Mr. Costa. We have some of the most innovative 
conservation----
    Secretary Jewell. Yes, you do.
    Mr. Costa [continuing]. Methods, 80 percent of the largest 
water district uses drip irrigation.
    Secretary Jewell. Right.
    Mr. Costa. Water is a very, very valuable resource. Costs a 
lot of money these days.
    Secretary Jewell. Yes.
    Mr. Costa. And when you have a 20 percent water allocation, 
as we have this year, and 20 percent up to 55 percent, you have 
got to use that water very, very effectively and efficiently.
    Secretary Jewell. Right.
    Mr. Costa. And so, I would like to invite you out to the 
Valley. David Rubinstein told me last night that he climbed to 
the top of the Washington Monument with you.
    Secretary Jewell. Yes.
    Mr. Costa. If it takes that, I will be happy to climb to 
the top of the Washington Monument with you to get you out to 
the San Joaquin Valley.
    Secretary Jewell. I would rather climb around the San 
Joaquin Valley, but I----
    Mr. Costa. Well, we will take you up to our mountains in 
the Sierra Nevada.
    Secretary Jewell. That sounds great.
    Mr. Costa. Mike Connor says you are a good hiker.
    Secretary Jewell. Mike is terrific at this. His team has 
been briefing me, and I will stay very engaged in making sure 
that we make progress and move these really difficult issues 
forward. We have to. And it is----
    Mr. Costa. We are living on borrowed time.
    Secretary Jewell. I get that. And we are part of the 
storage opportunity and issue, as well, within----
    Mr. Costa. Central Valley Project is----
    Secretary Jewell. Yes.
    Mr. Costa [continuing]. Incredibly significant in 
California, and we are going to have to continue to work on 
that with the State water project and the Governor and all of 
the parties, to reach some solutions.
    There are a host of other issues that I noted and I will 
send those questions to you. And hopefully this is the 
beginning of a collaboration and effort in which we will be 
seeing a lot more of each other.
    Secretary Jewell. Sounds great.
    Mr. Costa. Thank you.
    Secretary Jewell. Thank you very much, Congressman.
    The Chairman. I thank the gentleman. I recognize the 
gentleman from Louisiana, Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for visiting with us today.
    Secretary Salazar, your predecessor, testified before this 
Committee that, when asked, ``Has there ever been a human 
harmed or certainly killed by hydraulic fracturing or 
horizontal drilling, or even a groundwater contamination 
thereof, a documented case of either,'' he said no. Do you 
agree with Secretary Salazar?
    Secretary Jewell. I have not heard of any deaths associated 
with hydraulic fracturing. I will tell you, having done a large 
frac job myself, that there are certainly surface risks, so I 
can't say that hasn't ever happened at the surface, but----
    Dr. Fleming. Right.
    Secretary Jewell. Not a word.
    Dr. Fleming. And I am talking about documented cases, 
something----
    Secretary Jewell. Not a word.
    Dr. Fleming [continuing]. That would be evident to anyone. 
And with respect to groundwater contamination, do you also 
agree with Secretary Salazar that there has not been a 
documented case of that, as well?
    Secretary Jewell. I am not aware of documented cases. I 
will say that bad cement jobs cause communication between 
reservoirs that are exacerbated by fracks. And so, having 
wellbore integrity is absolutely essential.
    Dr. Fleming. Sure.
    Secretary Jewell. Having a good frac in the regulations 
help provide for that.
    Dr. Fleming. And as someone who is deep in the technology 
of this, you are aware that we have been fracturing for 60 
years or so, it seems amazing to many of us that we have been 
doing something which has actually improved, in terms of its 
technology, over the years. What we are doing today is very 
much better than we did 30 years ago. And of course, now we 
have horizontal drilling. And we have State regulations. And we 
don't have any documented case of any serious problems. So, 
obviously, wellbore integrity and all of those important issues 
are being dealt with.
    So, the question comes to, then, why do we need to put down 
an entire layer of regulation from BLM and also EPA, if we go 
to private lands, why do we need to do that when there appears 
to be no problem?
    Secretary Jewell. Congressman, the States vary in their 
ability and understanding of hydraulic fracturing in the oil 
and gas business. As you pointed out, technologies have moved 
us. Horizontal drilling, multiple fractures within a reservoir, 
much higher pressures than we have seen before. And these are 
things where minimum acceptable standards need to be out there, 
and part of my job is to make sure that we are watching over 
the Federal estate effectively.
    And so, if the State standards meet or exceed the Federal 
standards, we will be going with the State or tribal standards. 
In many cases the standards don't exist, or are very old within 
States. And so we felt that they needed to be modernized on 
Federal lands.
    Dr. Fleming. OK. Now, shifting the subject a little bit 
here, one of the things that I am getting a lot of complaints 
about from my district, the fourth district of Louisiana around 
Shreveport, Louisiana, the Haynesville Shale, which is one of 
the top natural gas plays, is that on Federal land it takes up 
to a year to get a permit. It is costly, ridden with 
bureaucracy, paperwork. On the other hand, they can get a 
permit in 3 days on private land and, boom, they are off and 
going. And so, adding even more regulations on Federal land 
obviously is going to make that disparity worse.
    The President boasts that, under his Administration, oil 
and gas production has gone up. And that is technically true. 
Unfortunately, production on Federal lands and offshore has 
actually gone down. So it is the private sector that has been 
out of reach of this Administration that is causing this very 
positive shift. And so, there is a definite disparity between 
what is happening on Federal and offshore and what is happening 
on private lands. It is really to the credit of the private 
sector that we are having such success.
    So, my question is again, why do we want to add even more 
regulations that are going to create even more bureaucracy and 
create more problems, when things are doing so well? Do we, in 
fact, lack problems in the Federal Government and other issues 
that we need to deal with, that we have got to go after things 
that we really haven't established there is really a problem 
for?
    Secretary Jewell. Congressman, there is a brief period of 
time to address your questions, but our job is to ensure the 
safe and responsible development on Federal public lands. There 
are more rigs operating in the Gulf of Mexico than there were 
at the time of the Deepwater Horizon spill. I think that 
highlighted the risk, of the industry, and we needed to address 
that. There is higher oil production offshore in 2012 than 
there was in 2008.
    We are working hard to make sure that Federal lands are 
accessible, and that we streamline permitting processes. But 
the American people expect a fair return on their lands, and 
they also expect us to do things in a safe and responsible way. 
And some degree of regulation is appropriate.
    I will agree that we have opportunities to streamline the 
process, and that is certainly something that my teammates, 
particularly BLM, are doing. And I think we have done a good 
job of offshore with the Bureau of Ocean Energy Management and 
the Bureau of Safety and Environmental Enforcement.
    Dr. Fleming. OK. I think I yield back, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from Massachusetts, Ms. 
Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you, 
Secretary Jewell, for testifying before the Committee today, 
and congratulations on your confirmation as our country's 51st 
Secretary of the Interior. We may have had 51, but you are only 
the second woman. So it is great to see you in this role.
    And, as you have heard here today from the questions of my 
colleagues, it is quite a portfolio of issues that you are 
charged with overseeing. And I appreciate the diversity of 
experiences that you are bringing to your role at the 
Department.
    As you well know, sequestration is having a very serious 
impact on our national parks, not something we have talked 
about too much here today. My district is the third of 
Massachusetts, is home to two national parks. In my home town 
of Lowell, the Lowell National Historical Park was the first 
urban national park of its kind in the United States, 
commemorating the catalytic role the city played in spawning 
our country's Industrial Revolution. But in so doing, it has 
been instrumental in preserving and protecting the historic 
landscape of the city, while also acting as a partner in the 
city's ongoing revitalization. It has been a real model across 
the country.
    Our second park is Minuteman National Historical Park in 
Concord, where visitors from around the globe see firsthand 
where the First Shot Heard Round the World was fired, and where 
the American Revolution began. It is a simple New England 
landscape that belies yet underscores the enormity of those 
nascent steps toward democracy. It is a remarkable place, very 
quiet, but very impactful.
    My district is also home to three national wildlife 
refuges, all of which protect essential wildlife habitats and 
provide access to beautiful outdoor recreational spaces, which 
REI has played a role in allowing people to experience. And I 
have to say, I have a daughter-in-law who has worked at REI on 
and off over the years.
    But when I talk with leaders of our national parks and 
wildlife refuges, they tell me the very same thing: 
sequestration is having a very serious impact on their 
operations, and must be resolved. They are experiencing 
staffing shortages, cutting back on facility hours, and will be 
limiting seasonal programming at a time of year when many 
Americans seek out our parks and seek to take advantage of 
them.
    This message is most certainly not unique to my district. 
In fact, the Democrats on this Committee, led by our former 
Ranking Member from Massachusetts, Ed Markey, compiled a report 
on the impacts of sequestration on the National Park System. 
This report specifically includes the many challenges facing 
the Lowell National Historical Park, as well as 22 other 
representative parks. And I have the report right here.
    So, my question is, could you speak a little on, as you 
have been there just this very short time, on how severely 
sequestration, and you have seen it undermine the mission of 
the National Park Service, as well as the Department of the 
Interior, as a whole, near term, but going forward, what you 
see as potentially happening down the road, should we not 
resolve it?
    Secretary Jewell. Thank you for the question. As I said in 
my opening statement, you would never run a business the way 
sequestration is forcing us to run our agencies. You would 
never make cross-the-board cuts in every category, whether it 
is in your firefighting line or your national park line, which 
is driving economic behavior in all of the areas which enjoy 
these natural resources.
    So, I would say this, that across the Department of the 
Interior, people are doing everything they can to minimize the 
impact of sequestration. They are not trying to highlight it, 
they are trying to address it. They are leveraging volunteer 
resources, they are pulling people off maintenance projects 
where they can to address the visitor experience. But there is 
an impact.
    If this persists, or if it gets worse, you take the things 
that you all care about, whether it is permitting on oil and 
gas wells, or it is taking care of our national parks, and all 
of them will be impacted, so it is very significant. Yet I am 
proud of my colleagues for working hard to try and minimize the 
impact on the visitor experience, and I think they are doing as 
good a job as they can with the limited resources that they 
have.
    Ms. Tsongas. Well, I know. I serve on the Armed Services 
Committee, where we have also heard from our bases, where it 
has come down to such things as, toward the end of the fiscal 
year, not picking up the garbage. So I am sure you are 
confronting those kinds of most basic aspects, as you try to 
find ways to move forward. I, for one, think we have to have a 
balanced approach that resolves this once and for all. Can't 
just be about cuts. We know we have ways to save money, but we 
have to bring revenue to the table and then engage in a 
thoughtful process as to how to go forward to protect our 
national parks, and to protect everything we all care about. 
Thank you, and I yield back.
    Secretary Jewell. Thank you. Can I just say one thing?
    The Chairman. Briefly.
    Secretary Jewell. It has been in the newspaper. We are not 
picking up garbage in a number of the parks around Washington, 
D.C. in part to have people pick up their own garbage and try 
and save money.
    The Chairman. The time of the gentlelady has expired. The 
gentlelady from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And welcome, Madam 
Secretary. I want you to know, first of all, that I have been 
pleasantly surprised by the response of stakeholders to your 
willingness to listen and your expertise. And so my compliments 
go out to you there. I hope that you will try to imbue the 
Department of the Interior with that same willingness to listen 
and communicate. That seems to have been missing of late. And 
so it is a welcome thing that you are doing.
    My first question is about fracking, but it is more 
specifically about the variance proposal in the BLM fracking 
rules. There is some concern within my State about how the 
variance from the BLM rules will be administered, if the State 
rules are equal or stronger. We don't know how or when a State 
or the operator will be required to prove its worthiness. Once 
for a State? Will it be multiple times? Will it be well-by-
well? Who receives the variance, the State or the operator? Who 
files for the variance?
    So, can you describe exactly how the variance process will 
work? Who will seek it and when? Will States be involved, and 
how?
    Secretary Jewell. I know that in this comment period what 
we are getting are lots of comments on how this is actually 
implemented. So I don't think that has been finalized yet.
    I will say that Wyoming is one of the States that leads, in 
terms of having sophisticated fracking regulations that are 
likely to meet or exceed the standards we are coming out with, 
and we will be working to accommodate those. So, as we take in 
this input, and it comes certainly from your State and people 
in the industry that are in the middle of this, we will be 
working to streamline that, to the extent that we can.
    Mrs. Lummis. So it will be at the State level, rather than 
the operator level?
    Secretary Jewell. I don't know the specifics, I will have 
to look into that.
    Mrs. Lummis. OK.
    Secretary Jewell. But I know that hasn't been finalized. It 
is during this comment period. So I will check into that and 
let you know.
    Mrs. Lummis. That would be great. And I would also be 
curious about the well-by-well, or will it be on a lease level, 
or--we are very curious, very concerned----
    Secretary Jewell. OK.
    Mrs. Lummis [continuing]. Because of the tendency, we 
believe, of the Federal Government not to recognize when a 
State has an aggressive, appropriate, and superior regulatory 
system.
    Secretary Jewell. I can assure you we understand that 
Wyoming has a great, sophisticated system. So I will check into 
the specifics for you.
    Mrs. Lummis. Thank you very much, Madam Secretary.
    Now, switching gears to the Endangered Species Act, that is 
a topic that many of us are concerned about. I would like you 
to just lay out for us your vision of how the Department can 
manage the Endangered Species Act, and especially the workload, 
in face of the continued influx of multi-species listing 
petitions, and pair it with the chronic litigation we are 
seeing over endangered species.
    I am very much in favor of a 21st century vision for 
conservation in this country. And litigation, as we have seen 
in the past, oh, 30 years develop more and more, has become the 
manner in which we conserve. So the money is going to lawyers, 
it is not going to on-the-ground conservation. It is going to 
Washington-based environmental groups, not to on-the-ground 
conservation. And I despair that where we have an area of 
agreement on conserving valuable lands, that we seem to suck 
all the money out of the Department of the Interior to pay 
lawyers and environmental groups who sue, rather than putting 
it on the ground for real on-the-ground conservation. Could you 
comment on that?
    Secretary Jewell. Happy to. I would say that probably one 
of the largest surprises for me walking in was the number of 
lawsuits that I face, and the fact they all go from ``v. 
Salazar'' to ``v. Jewell'' when I get sworn in. Lawsuits come 
at the Department from all sides. They are not unique to one 
particular group. And some of them have persisted for a long 
time. There is no question we would much prefer to spend our 
time out of court. We are abiding by the laws. The Endangered 
Species Act is an act passed by this body, the legislative 
branch, and we must uphold that law.
    And so, that is the job that I have to do. And if we can 
work together--sage-grouse is a very good example of working 
together with States. Wyoming has done a terrific job 
identifying areas and making sure that a listing does not 
become necessary. It is a model, I think, that we can learn 
from and follow. And to the extent we can stay out of court, 
that is better for all of us, and that is certainly my desire, 
as well.
    The Chairman. The time of the gentlelady has expired. The 
gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Thank you, Madam 
Secretary, for being here.
    As you are very well aware, since about the year 2009, when 
Carcieri vs. Salazar was decided by the United States Supreme 
Court, a fix to Carcieri has been probably the number one 
priority of the Native Americans. You have stated in your 
testimony about how time-consuming that decision is to 
determine, really, the role of whether a tribe is under Federal 
jurisdiction, and therefore, meeting the 1934 requirement of 
Carcieri. And we also had Director Washburn here, making his 
statement about that, as well.
    What was curious to me is in your testimony you said that 
language included in the fiscal year 2014 budget request, if 
enacted, would resolve this issue. Are you referring to the 
Carcieri decision itself, that there is some language that is 
in the budget document that would be a fix? So I would like an 
elaboration of your statement.
    Secretary Jewell. Happy to give you a quick one, and 
respond with more detail. There is Patchak and there is 
Carcieri.
    Ms. Hanabusa. Right, right.
    Secretary Jewell. There are things we can do 
administratively that we believe will help address Patchak. 
Carcieri is a legislative fix. And in the context of my 
response to Congresswoman Lummis, it keeps us in court, it 
takes a huge amount of time to prove up whether a tribe was, in 
fact, established in 1934, and that is something that I think 
we share a common interest in addressing legislatively.
    Ms. Hanabusa. So, when the statement in your testimony is, 
``The Administration continues to support a legislative 
solution to address the negative impacts resulting from the 
Carcieri decision, and has included language in its fiscal year 
2014 budget request that, if enacted, would resolve this 
issue,'' that is the statement that I was trying to get 
elaboration on----
    Secretary Jewell. OK.
    Ms. Hanabusa [continuing]. As to whether, in the fiscal 
year 2014 budget request, is there a request that we do a 
legislative fix, or is there language contained in there that 
you believe would, in and of itself, resolve this issue?
    Secretary Jewell. I don't think that there is language in 
and of itself that will resolve the issue, and I will check 
into that, specifically, and respond in writing to your 
question.
    Ms. Hanabusa. I appreciate that, because I went through it 
and I was looking for that specific language and I thought I 
must have missed it.
    Along the same line, we do know that Patchak is also going 
to be a difficult issue, as well, because that, of course, 
gives an Administrative Procedures Act challenge to a decision 
by, technically, you, as long as the person doesn't claim title 
to the land. So, how do you perceive a resolution of Patchak? 
Is that an administrative function? Or do you also envision 
that as requiring a legislative fix?
    Secretary Jewell. I think, as I understand it, and I am not 
a lawyer, nor an expert on these things, but as I understand 
it, there are things we can do administratively to help, but it 
would benefit from a legislative fix. And that is certainly 
something we would love to continue to work with the 
Subcommittee here and in the Senate on.
    Ms. Hanabusa. Thank you. If you could also provide whatever 
insight you have on that, in terms of whether or not it would 
be along the lines of an exemption from the Administrative 
Procedures Act, or what do you envision that or what the 
Department envisions that, I would appreciate that, as well.
    Secretary Jewell. I am going to have to defer to the 
lawyers in the Department that understand the details more than 
I do. So if you will allow me to respond in writing on that, I 
think that would be my preference.
    Ms. Hanabusa. That is fine.
    Secretary Jewell. Thank you.
    Ms. Hanabusa. Also in your testimony you refer to the 
Administration's commitment and an Executive order which was 
signed on June 26, which established a White House Council on 
Native American Affairs. You are the Chair. And I guess it 
includes about 30 different agencies, and it looks like an 
attempt to bring all the different relevant agencies together 
to deal with Native issues.
    Along that line, though it addresses the Native American 
affairs, is it anticipated that all indigenous or Native 
people, whether you are Native Alaskan or Native Hawaiian, 
would also be addressed by this specific council? Or is this 
Executive order, in your opinion, limited to Native American-
related matters?
    Secretary Jewell. I think that the tribal council has been 
designed predominantly around American Indian and Alaska Native 
issues. But to the extent that Native Hawaiian issues come to 
the fore and become a part of that, it would certainly be 
included. But I think that the focus has been on working across 
all the branches of the Federal Government to ensure that the 
American Indian and Alaska Native issues are brought to the 
fore in all of those various agencies and the roles that they 
play.
    Ms. Hanabusa. And--oh, I am out of time.
    The Chairman. Yes.
    Ms. Hanabusa. Can I submit one other question for the 
record?
    The Chairman. There is no problem with any Member asking 
questions afterwards. And, obviously, we would like a timely 
response from any of our witnesses on that. So, yes, you can do 
that.
    Ms. Hanabusa. Thank you, Mr. Chair.
    The Chairman. The gentleman from Michigan, Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. Welcome, Madam 
Secretary, it is a pleasure to have you here today.
    I represent northern Michigan and, you know, mining has 
been an industry in northern Michigan for over 100 years. And 
we don't have that much Federal land, I don't believe, that is 
mined. But, you know, I am concerned about the prolonged 
permitting timelines that are required for mining, maybe more 
out West than in Michigan. But in Michigan it is certainly a 
problem, as well.
    And I keep hearing time after time about permitting delays 
for mining projects. And, as I understand it, since 2005, out 
of the 25 major mining countries, the United States has been 
ranked at the bottom with Papua New Guinea for permitting 
timelines that run 7 to 10 years, or even longer. I understand 
that the Department has taken some steps to begin a process of 
streamlining and fast-tracking certain projects, based on some 
internally developed criteria.
    You believe that all the permitting and environmental laws 
should be enforced equally, right?
    Secretary Jewell. I would say, Congressman, that mines come 
in all shapes and sizes and complexities. And so it is 
certainly not one size fits all. And I support handling things 
in a rational way. If it is a one or two-person mining 
operation, and it is pretty straightforward, that should be 
done pretty quickly. If it is a very complicated mining 
operation, one would expect that might take a number of years 
because of the complexity.
    So, I think what is important is we don't try and lump 
these all into one, but we look at them on a case-by-case 
basis----
    Dr. Benishek. Well, of course, of course.
    Secretary Jewell. Yes.
    Dr. Benishek. But, I mean, amongst all the mining 
countries, we are apparently very slow in our process.
    And I guess my concern is that they developed a 
streamlined, fast-track ability within the Department for 
permitting. And when does the Department believe that a 
permitting strike team and special fast-tracking authorities 
are even necessary?
    Secretary Jewell. I am not sure. I think that we are trying 
to be responsive to industry in providing predictability and 
certainty to them, and don't know specifically the strike team 
you reference. But we have multiple strike teams that are in 
place when it appears that we are moving slower than people 
like to try and address that and accelerate that.
    You may compare us around the world, and having done a lot 
of business with mining companies, particularly as a banker, we 
also have a track record of making sure we are taking care of 
our natural resources, which is not the case across the world. 
So I think that we would all share a desire to make sure that 
our environment is not impacted adversely, and that mine lands 
are reclaimed when they are completed. And so perhaps that 
influences those international statistics.
    Dr. Benishek. How do you decide whether to fast-track a 
project or not?
    Secretary Jewell. I will speak in generalities. I am not 
familiar with the details. I would say, from what I have heard 
in talking to people, is if a project is very straightforward, 
then it has a chance of being fast-tracked, as opposed to being 
something that is new, where you have to make sure that you 
understand the circumstances better.
    Dr. Benishek. Well, I am just concerned that there is a 
political part to the fast-tracking of favorite projects by 
someone in the Department versus another issue. And apparently 
there is some evidence for that----
    Secretary Jewell. I have not seen any favoritism about some 
projects versus others, well, in any dimension. I mean I think 
we are trying to be responsive to business and industry by 
making Federal lands available for resource development and 
doing that in a safe and responsible way, and trying to not be 
a roadblock in doing our jobs. But beyond that, I am not sure I 
know what you are getting at----
    Dr. Benishek. Do you have any direct knowledge of this 
process, then, or are you just----
    Secretary Jewell. Are you talking about specifically for 
mining?
    Dr. Benishek. Right.
    Secretary Jewell. No. In terms of fast-tracking projects 
and specific items, I have not.
    Dr. Benishek. All right, OK.
    Secretary Jewell. No.
    Dr. Benishek. Thank you.
    The Chairman. The gentleman yields back his time. The 
gentleman from the Northern Marianas--I am sorry, Mr. DeFazio. 
I am sorry.
    Mr. DeFazio. OK. Thank you, Mr. Chairman. On our side we 
go--and I think on yours--in order of arrival. And obviously, 
people who were here at the beginning, by order of seniority.
    Anyway, I am going to move very quickly. Hopefully we can 
cover a few subjects here in a short period of time. There are 
160,000 estimated abandoned hardrock mines in the West, I know 
you have some familiarity with this issue. Thirty-three 
thousand have been identified as causing environmental issues, 
water pollution, other degradation. Do you have a budget to 
deal with these on Federal lands?
    Secretary Jewell. I understand that there is the Abandoned 
Mine Claims Act, or something like that, that does provide fees 
to support that----
    Mr. DeFazio. Try to find a responsible operator, and then 
extract funds from them----
    Secretary Jewell. Exactly, and apply that to----
    Mr. DeFazio [continuing]. No longer exist, so you don't 
have a substantial budget, though, to begin a major clean-up of 
these problems?
    Secretary Jewell. Not that I am aware of.
    Mr. DeFazio. OK. I would like to know if the Administration 
would support a proposal that the Federal Government join every 
other American and Native American land owner in most other 
countries in the world in assessing a royalty for the 
extraction of hardrock minerals.
    Secretary Jewell. That is certainly something I don't know 
much about, Congressman, but I would look forward to doing 
that. I share your concern about the abandoned mines and the 
impact on water quality.
    Mr. DeFazio. Right, and we could dedicate the funds raised 
for those reclamation projects. And at such a time if we ever 
finish that, then we could discuss whether we want to continue 
the royalty or defray the deficit with it. Thank you.
    Then I mentioned earlier in my opening statement about the 
fact that there is some controversy on the Committee. You did 
address the gentleman from Virginia on the east coast issue, 
mid-east coast, on opening up major new areas for offshore oil 
drilling in the lower 48 and off Alaska. While we have 55 
million acres, 25 terrestrial, 30 million in the oceans that 
are not developed, would you support a policy to provide more 
incentives to look at and utilize the existing leases before 
engaging in a broad, new leasing program?
    Secretary Jewell. There are many lands that are available 
for leasing, and I mean, that are available for development 
that have been leased, and we certainly are encouraging people 
to develop those lands, or to give up those leases if they no 
longer want them, so that we can put them back in the pool. And 
I think that there are lots of opportunities to develop what is 
currently leased before we lease other areas.
    Mr. DeFazio. OK. I would love to work with you on that.
    And then, there is a major mine proposed, at the moment I 
believe it is an EPA issue, but I think it will be an Interior 
issue, the Pebble Mine in Alaska. Sorry--oh, Don.
    Mr. Young. State land.
    Mr. DeFazio. Oh, is it State land?
    Mr. Young. State land.
    Mr. DeFazio. OK, all right. Well, then it will just be EPA. 
So, all right. I will just ask the EPA Administrator about it. 
Thank you, Don. Don is always good at correcting people. In any 
case, if there is jurisdiction, we will discuss it. Don says 
there isn't. I will believe him.
    Then, in the last Congress, this was the first Congress in 
which we did not pass a bill to create a single new acre of 
wilderness since the Wilderness Act. So, I know that there has 
been some criticism on that side of the aisle of the President 
using the Antiquities Act to protect some special areas. There 
were 24 bipartisan wilderness bills proposed in the last 
Congress. Do you think the President would rather continue to 
single out things with the Antiquities Act, or would he perhaps 
be amenable to signing bipartisan wilderness bills that are put 
forward by the Congress?
    Secretary Jewell. I think there is no question that the 
President would support Congress's desires as it relates to 
legislation on wilderness. And things that come up from your 
districts, from your States that are important to you, as it 
relates to wilderness, national parks, and otherwise, is 
certainly the course of action on that is the authority vested 
in the legislative branch.
    Mr. DeFazio. OK, thank you. One quick last one. We really 
haven't updated our fine structure for oil and gas companies 
who violate regulations. Do you support an update of that fine 
structure?
    Secretary Jewell. I am not familiar with the fine 
structure.
    Mr. DeFazio. Well, the--OK.
    Secretary Jewell. So----
    Mr. DeFazio. Well, we will be happy----
    Secretary Jewell [continuing]. I will have to look into 
that.
    Mr. DeFazio. We will be happy to share concerns and educate 
you.
    Secretary Jewell. Thank you.
    Mr. DeFazio. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman. The gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I just wanted to 
respond to the gentleman from New Jersey's comments about 
seismic testing in the Atlantic region. The environmental 
impact study will indeed account for potential impacts to 
marine mammals. But every single EIS conducted for geological 
and geophysical surveys in the Gulf of Mexico and Alaska for 
over the last 40 years have taken into consideration the impact 
of marine mammals.
    For four decades of worldwide seismic activity and 
scientific research related chiefly to marine mammals have 
shown no evidence that seismic activities have resulted in 
physical or auditory injury to any marine mammal species. 
Nevertheless, industry implements mitigation measures to 
further reduce the negligible risk of harm to marine mammals.
    It seems to me that the other side constantly tries to come 
up with ways to thwart activities relating to oil and natural 
gas, exploration and production, specifically in the Atlantic 
area. My State of South Carolina, and we heard from the 
gentleman from Virginia earlier, want to see those resources 
developed. The first stage of that is the seismic activity that 
will determine whether there are harvestable resources there or 
not.
    But the concern raised by the gentleman from New Jersey 
over damage possibly to marine mammals is alarming to me, 
especially when the other side and, Madam Secretary, this is 
not directed to you, but the other side of the aisle ignores 
the fact that when energy harms birds of prey and species under 
the Endangered Species Act, but yet prosecution does not take 
place for the companies within the wind energy that harms those 
animals, those birds of prey, eagles, golden eagles, and other 
birds that are listed under the ESA.
    And so, I am sitting here listening to the information 
especially when the gentleman from Virginia was talking about 
G&G activities, seismic activities, and I understand an 
environmental assessment needs to be done. An impact statement 
needs to be done. And for all these reasons you have previously 
indicated your desire to quickly obtain new seismic data in the 
Atlantic to better inform the future decisions, and I 
appreciate that.
    But we are still waiting on that environmental impact 
study. The initial work on the next 5-year plan for 2017 
through 2022 will likely begin in 2014. That is awful late to 
try to get the environmental impact study completed, and the 
seismic permitting that is required in order to get the guys 
out there into the Atlantic to actually do the seismic work so 
that we can include that offshore area in the next 5-year plan. 
We would love to see our area in the Atlantic included in the 
next 5-year plan. And so, I am concerned about the delay.
    So, can you respond? Let's just be honest. Do we think that 
for the Atlantic area, there will be an environmental impact 
study done? We think the areas in the Atlantic will be included 
in the next 5-year plan? Or should I go back home and tell my 
folks that it is going to be after 2022 before those areas are 
even considered?
    Secretary Jewell. Congressman, everyone that I have talked 
to about the Atlantic Seaboard believes that within this period 
of time, assuming there are no surprises in the environmental 
impact study, that there will be geological and geophysical 
assessments done to be able to include that area, if the oil 
and gas potential exists. So I haven't heard anything to 
suggest that, if the oil and gas potential is there, that it 
wouldn't be included in the next 5-year plan.
    Mr. Duncan. OK. In my limited time I want to shift gears. 
And on page five in your written testimony you state that, ``We 
look forward to working with the Committee and our counterparts 
in the Senate to finalize implementing legislation for the 
agreement between the United States and Mexico concerning the 
Transboundary Hydrocarbon Agreement.'' The House passed that 2 
weeks ago, sent it over to the Senate. And, as you may or may 
not know, the biggest issue on the other side was, A, conflict 
with Dodd-Frank language, and reporting of payments to a 
foreign government.
    The United States, I believe, I believe it is the court of 
appeals, but I could be wrong, one of the Federal courts just 
ruled recently that sharing information with another country is 
not a requirement. The API won a case against the SEC. So the 
whole argument from the other side that could thwart this 
implementing language, has been negated by the court.
    So, I ask you today. Will you work with the Senate 
colleagues to try to fast-track that Transboundary legislation 
that we passed out of the House 2 weeks ago?
    Secretary Jewell. Congressman, Getting the Transboundary 
Agreement with Mexico is certainly important. The Interior 
Department will work to make sure that importance is known on 
the Senate side. I think I am probably not the best witness to 
be able to do that. There are people that understand the detail 
more. But oil knows no boundaries, and I think it is important 
that, if the resource is developed, that it be fairly developed 
between the United States and Mexico, and both will get their 
fair share, and that is what this will do.
    So, we support the agreement with Mexico, and we will help 
in whatever way we can in making sure that happens.
    Mr. Duncan. Absolutely. Thank you so much. And, Mr. 
Chairman, I yield back.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And thank you, 
Secretary Jewell, for coming and joining us today.
    I hail from Pennsylvania. And I heard a statement earlier 
this morning from the gentleman from Louisiana about how there 
have been no spills, no accidents, no deaths. And if we have 
nothing wrong, why do we bother cooking up Federal regulations 
and safety rules, if nothing bad is happening?
    In July of 2012, in Bradford County, Pennsylvania, there 
was an explosion at a wellhead. And, as a result, 4,700 gallons 
of hydrochloric acid escaped. Were you aware of that incident?
    Secretary Jewell. Not specifically the hydrochloric acid 
spill, no.
    Mr. Cartwright. OK. In March of this year, in Wyoming 
County, Pennsylvania, there was an explosion at a hydro-
fracking gas wellhead. It resulted in a release of fracking 
fluid at a rate of 800 gallons per minute escaping. That is 
48,000 gallons per hour. And it took 24 hours to cap the 
situation. So the estimates of how much of the fracking fluid 
escaped range between 400,000 gallons and 1.15 million gallons, 
fracking fluid that contained all sorts of other additives, 
solvents, additives that we were not privy to. Were you aware 
of that incident?
    Secretary Jewell. I have been aware that there are 
incidents with flowback fluids, the management of that, and 
accidents associated with those, yes.
    Mr. Cartwright. OK. In January of 2013, there was a man 
from Deluth, Minnesota killed in a fracking accident in North 
Dakota. Were you aware of that one?
    Secretary Jewell. I was not.
    Mr. Cartwright. Well, Madam Secretary, all I ask is for you 
to be sure to conduct thorough and real research from 
disinterested sources, and not simply take at face value the 
glib comments of spectators to the fracking industry before 
making a decision on whether national rules for fracking safety 
are appropriate. Will you do that?
    Secretary Jewell. I will. And I believe my colleagues have 
been doing that throughout the process.
    Mr. Cartwright. Thank you for that. I also want to mention 
that the BLM's new draft fracking rule proposes to rely on the 
industry-funded FracFocus Web site as a mechanism for reporting 
to the public the chemicals that are used in fracking fluids on 
drilling projects on Federal lands. But the deficiencies of 
FracFocus as a mechanism for public disclosure of the millions 
of gallons of fracking fluids used each year on Federal lands 
is becoming increasingly apparent.
    For example, a recent report from Harvard University 
concluded that FracFocus ``creates obstacles to regulatory 
compliance'' and seems ``structurally skewed to delete 
records.''
    Another problem is that the rule does not require the 
disclosure of fluids prior to operations occurring on Federal 
lands, does not require the monitoring of groundwater in the 
vicinity of proposed fracking projects prior to operations 
commencing, and also allows the operator to exempt from 
disclosure chemicals and formulas based on trade secret claims.
    Madam Secretary, can you explain why these weaknesses 
remain in the BLM's proposal?
    Secretary Jewell. I will take a high-level shot at it in 
the few seconds I have. And if you want additional information, 
I am happy to submit that.
    We are talking about minimum Federal standards. And they 
are out for comment. We don't believe it is practical in all 
cases to get advanced notice on what is in the frac fluid. But 
in the case of trade secrets, we reserve the right to request 
that information. And the operators are required to provide 
that to us.
    We are certainly not going to stand in the way of States 
that want to be more stringent in their regulation. Having 
fracked wells myself, there are basics that you must have, and 
this is what the standards do. Marcellus Shale is predominantly 
on private lands. I think that States may choose to implement 
higher standards as those apply.
    I would also note that we are coming up with standards that 
we believe are going to work effectively for the lion's share 
of the lands under our management. And we certainly are 
committed to working with States and tribes on customizing that 
and making it more stringent, if appropriate, and State 
regulations, and supporting those State regulations, if that is 
appropriate.
    The Chairman. The time of the gentleman has expired.
    Mr. Cartwright. Thank you. I yield back.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you, Madam 
Secretary. I appreciate your being here today.
    I know there has been a lot of discussion about hydraulic 
fracking, including the previous questions. When Secretary 
Salazar was here, I had to ask him several times to finally get 
a direct answer was he aware of a single scientific study that 
showed that hydraulic fracking had polluted any groundwater, 
any drinking water. And finally, after several times of being 
asked, he finally had to say no, he was not, because there was 
not one.
    And so, I am interested to look into the well in 
Pennsylvania. I am not aware of fracking used in that kind of--
acid in those amounts. So I will be interested to see if this 
is another situation where the first report, as the EPA has 
done a number of times, they have shut down wells, saying it is 
polluting water, and when they get the study back, turned out 
it did not. It came from things that were not a part of the 
hydraulic fracking process.
    I appreciated your comments. You have no problem with 
States that, if they want to be more restrictive in their 
requirements for fracking or anything else, that is why Jeff 
Sessions in the Senate, and I and several other lawmakers are 
pushing to just let States be the ones who oversee the 
hydraulic fracking process, because the EPA has not been, I 
don't believe, terribly accurate or proper in their exercise of 
oversight.
    And, in fact, one thing I have to take very great exception 
to on page three of your written statement, you are talking 
about the proposed hydraulic fracking rule, and you say this 
rule proposes common sense. And from what I have seen in 
dealing with the EPA, ``common'' has nothing to do with their 
sense. It is just not common there. And so, I know you are new 
in this position, but I think you will find that as you go 
along.
    But I wanted to shift gears. I am sure, you have such an 
amazing background, you are aware of the origination of the 
agreement between the Federal Government and local governments 
that say look, OK, we are going to take these Federal lands, we 
are going to have national forests, national parks, and we are 
going to utilize what we know to be renewable resources, called 
timber, and we are going to share the proceeds of that locally, 
because by us taking it you will never tax. Otherwise, if we 
didn't share the proceeds of revenue off that land, your 
schools would suffer, the children locally won't get a good 
education, because there isn't money. So we will share the 
proceeds. And I am sure, as you get more into it, that you will 
be even more acutely aware those schools have suffered. The 
local governments have suffered as time has gone on. Timber has 
not been harvested, not been replanted.
    And so, there are some that think, look, if we are not 
going to be sharing revenue, because there isn't any, of these 
lands, perhaps we ought to do an inventory and figure out what 
we don't need, and let's return it to the State or local 
government, so we don't continue to punish children who are 
trying to get an education, and the schools don't have proper 
money, or the local government, to have law enforcement. Your 
thoughts on that?
    Secretary Jewell. Congressman, I know that the PILT 
payments are very important, the payment in lieu of taxes, to 
rural communities where there are a lot of Federal lands, the 
Secure Rural Schools program, particularly in some of the 
Western States.
    Mr. Gohmert. I am glad you are aware of----
    Secretary Jewell. I am aware of those things. I will also 
say, leaning into my most recent job, that recreation on public 
lands also drives revenue to local economies, and they are all 
important. So the fact that you are not extracting resources 
doesn't necessarily mean that those public lands aren't 
actually driving activity----
    Mr. Gohmert. But you know on national forests they don't 
have a lot of recreation revenue come from them.
    Secretary Jewell. No, they don't have a lot of revenue, but 
they have a lot of people that are coming to them to recreate, 
supporting local towns and cities. So, it--you know----
    Mr. Gohmert. Not in my district. There are just not that 
many people that come to the national forests.
    Secretary Jewell. OK, I am not familiar specifically with 
your district. But I do know that we are very interested in 
permanent solutions on things like PILT. You may not like this, 
but I am advocating for full funding on the Land and Water 
Conservation Fund, and also tying that together with consistent 
funding for PILT and Secure Rural Schools. I think that they do 
go hand in hand, and I think that is important, that we 
continue to advocate for, and that is certainly my intent.
    Mr. Gohmert. Well, thank you, Secretary. And it is the 
children that suffer, and I hope that we can get a permanent 
solution.
    Thank you, Mr. Chairman, for----
    The Chairman. The time of the gentleman has expired. The 
gentleman from California, Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman, and thank you, 
Secretary Jewell, for being here to testify before us. I first 
also want to congratulate you on your nomination and your 
confirmation. I believe, after listening to you, you have 
excellent conservation, technical, and business background to 
really do your job and to excel at your position.
    I, too, want to continue on in the discussion about 
fracking, hydraulic fracking, and the BLM's current rulemaking. 
I want to be clear that I do not believe that hydraulic 
fracking is inherently bad. However, we need to be creating 
rules, I think, to make sure that it is done correctly. The 
public needs to be absolutely sure that fracking is done in a 
way that protects their health and their safety and the health 
of our ecosystem.
    I am concerned about some of the things that are in the 
BLM's revised draft rule. You have touched on these, so I may 
be repeating some things, but I really want to be clear on 
these.
    One, the first thing is the public disclosure of the toxic 
materials used in the fracking fluid. As you know, the 
disclosure of fracking chemicals was the top recommendation of 
the Energy Department's Shale Gas Subcommittee, which said that 
disclosure should include all chemicals, not just those that 
appear on the material safety data sheets, and that the 
chemicals should be reported on a well-to-well basis, and 
posted on a publicly available Web site that includes tools for 
searching and aggregating the data by chemical, by well, by 
company, and by geography.
    Second, the blue ribbon panel went on to say that the bar 
for trade secret protection should be very high.
    And finally, the Department of Energy Shale Gas 
Subcommittee notes that the industry's Web site, FracFocus, did 
not meet the Subcommittee's disclosure criteria, and needs to 
be upgraded.
    So, this is all very concerning. I believe that the BLM is 
putting all of its confidence in the problematic industry Web 
site, FracFocus, for the disclosure of fracking materials. It 
is very lenient about trade secrets.
    And so, the questions that I have for you are, one, how can 
the BLM guarantee that FracFocus and its data will exist in 
perpetuity if it is really a private Web site?
    How can the BLM ensure that FracFocus has all the proper 
data search and aggregation tools that we have heard from other 
witnesses before this Committee? Members of this Committee are 
concerned that it still does not have the proper data search 
and aggregation tools.
    And, finally, given these problems, how does the public or 
Congress have any real oversight over the chemical disclosure 
process, if a company can sign an affidavit asserting that 
their chemicals are all trade secrets? How is there any cross-
check on whether these chemicals are, in fact, trade secrets? 
What mechanism does BLM entertain that will allow it to 
internally verify that the chemicals are, in fact, trade 
secrets? And will this completely leave Congress out and the 
public out?
    Secretary Jewell. The industry plays a role in this. And I 
think that, as I have met with industry leaders and actually 
visited an industry-related trade show, I talked specifically 
about frac fluids. They had an example of the frac fluid I 
would have used, which was Guar, when I was an engineer 30 
years ago. And they had their new formulation. And it was all 
organic substances. And I said, ``Then why the argument about 
disclosing? Why don't you just say what is in there?''
    Dr. Lowenthal. Right.
    Secretary Jewell. And I think that you will find that we 
will continue to encourage industry to be open.
    We do have, in the fracking rules, regulation proposal, 
that we can ask for that proprietary information and get it. 
And if we feel that there are things in there that are of 
concern to the public, we have the opportunity to change the 
regulation to address that.
    On FracFocus, yes, it is imperfect. The Harvard study 
pointed that out. It is also being updated. It is, you say, 
industry sponsored, but we are looking at cost-efficient, 
effective ways to do this, and believe that it is a tool that 
takes information and displays it without influencing it. If we 
find that it is not, in fact, a tool to display that 
information in an accurate, transparent way, then we will look 
at other alternatives to do that.
    It is new. We are trying to find cost-effective solutions 
to address what you can hear already in this Committee are very 
different points of view to do the best job we can to carry our 
responsibilities out in a safe and responsible but also a 
predictable and cost-effective way.
    Dr. Lowenthal. Well, I hope that we continue this 
discussion as it goes forward. I thank you and I yield back my 
time.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for taking the time to be here.
    I would like to visit with you a little bit on Blueways. 
During your oral testimony you commented that you were taking a 
pause on Blueways. Does this mean that you fundamentally think 
that it is flawed?
    Secretary Jewell. Congressman, I am just beginning to 
understand what it is, and I think that there is still further 
definition. Blueways, as I understand it, and I have asked 
questions and read about it, is intended to be a bottoms-up, 
community focus to bring recognition to its rivers. There are 
no restrictions that are put on that by a Blueways designation. 
It is really an opportunity for a community to market its 
natural assets to drive tourism.
    But, as you probably are aware, we had a request to 
designate a river in Arkansas as a Blueway, and then a 
subsequent request to remove that. So it is clear that there 
is----
    Mr. Tipton. Yes, there is a lot of concern.
    Secretary Jewell [continuing]. A lack of understanding. And 
that is why I put it on pause.
    Mr. Tipton. In fact, members of the Committee, we had sent 
a letter to you in regards to some concerns that we have on 
Blueways.
    When you talk about a specific example, you had rescinded 
the Blueways designation on the White River. Is that going to 
be permanent?
    Secretary Jewell. At this point in time I am not going to 
be doing any other designations until we figure out the future 
of the program.
    Mr. Tipton. So will that one be permanent?
    Secretary Jewell. If the program continues, and the 
community says that they want it back on, I guess I would 
reconsider it. But at this point I am responding to community 
demands.
    Mr. Tipton. When we are talking about the community, can we 
drill down on that just a little bit? Do you think it is 
appropriate for non-local groups to be able to submit rivers 
for designation?
    Secretary Jewell. I get letters from all over the country 
about things that are outside of people's area----
    Mr. Tipton. Is that appropriate?
    Secretary Jewell. I will----
    Mr. Tipton. When we are talking about the local community.
    Secretary Jewell. I think local communities are local 
communities. They are communities along these waterways.
    Mr. Tipton. So we shouldn't allow people that are outside 
of the area to be able to submit designation.
    Secretary Jewell. Congressman, I don't mind people 
submitting comments. I will tell you that when I talk about 
local community input, I mean local communities, and that is 
where you want these things to come from, and that is my 
understanding of the program.
    Mr. Tipton. Great. When we are talking about the West, and 
you are familiar with it, does source-to-mouth on non-navigable 
rivers, does that really even make sense, in terms of 
designation, given what you know about the West?
    Secretary Jewell. I am not familiar with the details of the 
program. I think that if communities from the source to the 
mouth of a river together decided they wanted to highlight that 
river, that is OK.
    Mr. Tipton. And talking about local communities, you 
believe, you have grown up in the West, you have lived out 
there. Should we respect private property rights?
    Secretary Jewell. Of course we respect private property 
rights.
    Mr. Tipton. And should we respect State law?
    Secretary Jewell. Of course.
    Mr. Tipton. And so, with the Blueways designation, with the 
State of Colorado as an example, a big part of my district out 
there, you would support us in the position of being able to 
protect private property rights because private property rights 
include water in the State of Colorado and for most of the 
West. Also, we have State laws, priority-based systems. You 
will stand with us to make sure that those are protected?
    Secretary Jewell. Of course.
    Mr. Tipton. Great. I certainly appreciate that. I would 
like to go ahead and move on to the sage-grouse issue. We had 
Congressman Bishop bring it up. southern Utah, western 
Colorado. We have got a lot of programs that are going on and 
being very effective, in terms of recovery of the sage-grouse. 
We had sent you a letter, and I know you are probably being 
deluged with them, to be able to come out.
    But we have had the suspension out of Fish and Wildlife for 
6 months on the designation. In that 6-month period of time, 
would you be willing to come to western Colorado to be able to 
see what we are doing at that local level, where we love the 
land the most, and want to be able to preserve it?
    Secretary Jewell. I have a tricky schedule. I will 
certainly endeavor to try and get out there in the next 6 
months. I know I actually will be in Colorado later this week, 
in the Denver area, dealing with some other things. But I do 
know, having been recently in Utah with the western Governors 
and talking about sage-grouse, that there is a lot of really 
great stuff going on.
    Mr. Tipton. There is. And we would love and will try and 
work with your office to be able to do that.
    One area that I do think is important, and I would ask you 
to look at it, the broad-brush stroke to where we have recovery 
in specific areas, and you know the geography, they will never 
come out from under designation. Let's get it localized. Let's 
use some common-sense business principles to be able to apply 
that.
    And when we are talking about business principles that you 
had talked on in regards to line item budgets, you said with 
regards to sequestration, ``trying to prioritize funds.'' Is it 
a priority, given the forest fires that we are having right now 
in the West, to be able to spend $60 million out of the Forest 
Service to acquire new lands, when we say that we can't even 
manage the lands we have?
    Secretary Jewell. I would not put the two in the same 
sentence. I think that they are different, and I don't know the 
specifics of what the Forest Service is looking to acquire. But 
I do know that sometimes land acquisitions don't cost more, 
they cost less, because you are removing checkerboards, you are 
doing sensible things around land management. So I wouldn't 
actually equate the two.
    The Chairman. The time of the gentleman has expired. The 
gentleman from California, Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chair. And welcome, Secretary 
Jewell, to the Committee. It is good to have you, it is an 
honor to have you. I hope that, as you proceed with this time 
out on the Blueways program, that you listen to all the 
stakeholders. It strikes me as interesting that for years we 
have heard from my colleagues across the aisle that instead of 
command-and-control regulation, that we ought to be encouraging 
voluntary collaborations and best practices and watershed-wide 
voluntary associations. And now that the Department has tried 
to do that, there are new conspiracy theories about a program 
that creates no new regulatory authority, that doesn't affect 
private property interests, and certainly doesn't affect water 
rights. But I think all of that will probably become quite 
evident as you proceed, and I am hoping that you can continue 
to support those type of collaborations throughout watersheds.
    I want to ask you about California water, because I 
represent the north coast of California. And my colleague, Mr. 
Costa, from the Central Valley, invited you down to the San 
Joaquin Valley. I hope you will go to the San Joaquin Valley, 
but I hope you will look holistically at the various interests 
and stakeholders in the California water challenge. Even in the 
San Joaquin Valley, where perhaps one junior contractor may be 
getting a 20 percent allocation in a dry year like this, if you 
look around the Valley while you are there, you will see right 
next door there are contractors from the same Federal water 
project drawing water from the same Federal facility getting 
100 percent of their allocation, getting it for free, each and 
every year, and irrigating with it at very lavish levels, 
without the kind of cutting-edge conservation that we like to 
see, and that we have seen in other areas that are driven by 
scarcity.
    So, there is a lot to see while you are there, and I hope 
you will talk to everyone. I hope you will also consider the 
downstream interests, because this is not a one-dimensional 
situation, from the perspective of upstream diverters 
downstream. And I represent a district that is directly 
affected by the need for flows to come into the Delta ecosystem 
to sustain fisheries and provide clean water values. There are 
also commercial interests, recreational interests. The salmon 
that go into the Bay Delta system sustain commercial and sport 
fishing interests up and down the California Coast and into the 
State of Oregon.
    So, there are a lot of perspectives, and I hope you will 
come to my district, too, and hear about how we have a very 
direct stake in the careful stewardship of these resources.
    And then, last, I just want to flag for you another north 
coast issue that is related, and that is the Klamath River. 
Because we are, as you have heard and as you know, heading into 
a dry year. We are expecting, fortunately, a good salmon 
return. And yet, we may, if flows aren't managed carefully, 
experience the kind of fishkill that we saw previously because 
we didn't carefully manage these public resources.
    My district includes Humboldt County, which has a statutory 
and contractual right to 50,000 acre-feet of water on demand 
from the Trinity River system. And this is a stakeholder that 
would like to use that water to prevent a fishkill this year. 
And yet, its inquiries to the Bureau of Reclamation have gone 
unanswered about whether that water will be made available so 
that we can avoid a horrific fishkill.
    So, I would invite you to comment on that, and also perhaps 
speak to what you are doing to reach out to and include all the 
different stakeholders in these challenging water issues. Thank 
you, and I yield back.
    The Chairman. I thank the gentleman, the gentleman----
    Secretary Jewell. You want me to respond now, or----
    Mr. Huffman. Sorry, I should not have yielded back, Mr. 
Chairman.
    The Chairman. Well, go ahead. I didn't know if you wanted a 
response, but----
    Mr. Huffman. I would.
    The Chairman. Go ahead, Madam Secretary.
    Secretary Jewell. Well, I will give you a broad response. 
And I appreciated our meeting with some of your colleagues.
    The water issues of the West are extraordinarily 
complicated. And you brought up Klamath. We were personally 
impacted with Crater Lake National Park recently, and it is 
very, very tricky. I certainly will be in the region. I am very 
proud of the commitment of Mike Connor, head of the Bureau of 
Reclamation, his knowledge base, his depth of understanding, 
and a number of his colleagues that are working through these 
issues.
    I appreciate the importance of agriculture throughout, and 
know that there are ways, and I have talked to Mike Connor 
about this, to bring incentives to reduce waste of water. Just 
because you have it doesn't mean you have to use it, if you can 
use it more sensibly. So we are certainly willing to do that.
    Specifically on the release of the water for Humboldt 
County, I will have to look into that. I am not sure where that 
is in the process. So I will ask my team to take a look at that 
and we will get back to you. Thank you.
    The Chairman. I thank the gentleman. This is kind of a 
programming note, Madam Secretary, but very kind with your 
time, and your staff says that maybe you can stretch it a 
little bit. The Members here obviously want to ask questions. 
And if we could confine the questions to just the Members that 
are here, it will go slightly beyond 12:30. If that is OK with 
you, we will try to work with that.
    All right. In that case, we are freezing right now any 
questions except those Members that are here. And we will start 
with Mr. Southerland from Florida.
    Mr. Southerland. Thank you, Mr. Chair. Secretary Jewell, 
thank you very much for coming. I appreciate the spirit in 
which you have answered many of your questions today.
    In your written testimony I just want to highlight some 
things that you have claimed, or stated. You said that healthy 
populations of fish provide a multitude of benefits to 
Americans. They provide opportunities for fishing and other 
forms of outdoor recreation, as well as support jobs and the 
outdoor recreation industry. Maintaining healthy populations is 
important to the health of the ecosystems in which they live, 
the public, and to our economy. I could not agree more.
    My colleague from California just made reference to 
horrific fishkills. Nothing seems to be more horrific than the 
fishkills that we are observing in the Gulf of Mexico related 
to idle iron, which are oil rigs on the western side of the 
gulf, and when the Department, which you now have the privilege 
of overseeing, issues the permits and gives the OK for the idle 
iron.
    Back in March we sent a letter to your predecessor asking 
questions regard`ing idle iron. We did receive a response in 
May. Unfortunately, I did not find the answers in that letter 
to be satisfactory.
    One of the things I appreciate you doing today, first of 
all, is, as the Chairman acknowledged, that you have met with 
the Chairman, you have committed to meet with him again. And I 
think I understood you that you opened up that invitation to 
us, as Members. I would like to take you up on that, and like 
to address this issue, because I would like to make sure you 
see news stories that are broadcast through the television 
stations along the gulf coast, to see the horrific devastation 
to the red snapper population, floating dead fish, while NOAA 
and the National Marine Fisheries are continuing to put 
downward pressure on those who make their living in the Gulf of 
Mexico and enjoy fishing in the Gulf of Mexico, both 
recreational, as well as headboats and commercial fishermen.
    And so, when you talk about horrific fishkills, these are 
avoidable. And so, even though I know you work hand in hand 
with NOAA on these, I find that the impact studies, we are not 
dealing with those, we are not recognizing the devastation, 
while yet continuing to tell fishermen that we have to continue 
to put less days on their fishing season, while we, the 
Department, are rubber-stamping the execution of our fisheries.
    So I just want to ask you a question or two. And I know 
this may be a new issue to you. And, if so, I want to be fair. 
Would you agree that the recreational fisheries in the Gulf of 
Mexico are valuable economic activity?
    Secretary Jewell. Certainly.
    Mr. Southerland. OK. Would you agree that the Department of 
the Interior should make every effort to help maintain, or at 
least not diminish, the valuable economic activity?
    Secretary Jewell. We are balancing a lot of interests 
there. We certainly have no interest in diminishing the 
economic activity.
    Mr. Southerland. Right, OK. Would you agree that the DOI 
should make every effort to lessen that impact on the red 
snapper as a particular resource?
    Secretary Jewell. I--we are getting detailed, and I don't--
you know, I----
    Mr. Southerland. Well, the red snapper, clearly, is the 
fish in the Gulf of Mexico that has the highest economic value, 
both to commercial as well as to the recreational fishermen. So 
that is----
    Secretary Jewell. Congressman, what I don't understand, and 
I need to look into this, I haven't got a deep background on 
this, is the impact of idle iron on red snapper. Because, as I 
understood, we were permitting some wells to be abandoned, 
which encouraged fish habitat, which was good for fish habitat. 
So it sounds like you are saying the opposite, and I think I 
need to better understand----
    Mr. Southerland. Well, what happens here, just for your 
background knowledge, when there is idle iron, after decades 
and decades of that reef being in place, or that rig being in 
place, it becomes a habitat. It becomes a reef. And so, what 
they are doing, the Department, in the past, are having those 
rigs removed by dynamite and explosives. And so they are 
killing tens of thousands of fish. And, by the way, NOAA says 
it is OK to do that, as long as people don't collect the fish. 
So there are some inconsistencies there.
    And here is what I would like to do in my closing seconds. 
Would you, in the spirit of your offer to the Committee this 
morning, would you agree to meet with me over, say, the next 90 
days, to where you and I can just have a conversation so I can 
tell you what is going on in the gulf, and we could work 
together to solve this problem?
    Secretary Jewell. I will do my best to work that into my 
schedule. But I also would say I would not come without 
experts. And so----
    Mr. Southerland. That is fine.
    Secretary Jewell. You know, the Bureau of Safety and 
Energy----
    Mr. Southerland. No, that is fine.
    Secretary Jewell [continuing]. Environmental Enforcement is 
evaluating this. So if you would accept that if I am not 
available the person closest to that could come and meet with 
you----
    Mr. Southerland. How about 120 days to get you.
    [Laughter.]
    Mr. Southerland. I mean you offered it.
    Secretary Jewell. I will do my best.
    Mr. Southerland. So----
    Secretary Jewell. I will do my best.
    Mr. Southerland. With that, I yield back.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman, and welcome, 
Madam Secretary, and congratulations. I apologize that I came a 
little late for this. But I have your written testimony and I 
will read it. I will also submit some questions, and I would 
like to soon get some answers.
    But, Madam Secretary, I represent the Northern Mariana 
Islands. And obviously, in the territories, there are almost 4 
million Americans. The Department of the Interior has oversight 
relationship with the Territories of Guam, American Samoa, the 
U.S. Virgin Islands, and the Northern Mariana Islands. And you 
have presently an Acting Assistant Secretary for Insular 
Affairs, and she has been doing a commendable job taking care 
of some of the issues that have come to us.
    But, obviously, I stand ready to support the 
Administration's nominee for an Assistant Secretary. When that 
comes up we just like to try and urge that it come up soon, 
because if you can imagine here in Congress, for example, where 
we have five delegates or six delegates, including D.C. and the 
resident commissioner, we are here in this Committee, the 
territories, we have to compete with the interests such as the 
red snappers in the Gulf of Mexico or the Asian carp in the 
Mississippi River. The Madagascar wood that comes in here, used 
for gifts and guitars. So it really is difficult sometimes, to 
get our issues here. Can you just imagine in the 
Administration, the huge bureaucracy involved throughout the 
Administration? So the importance of getting a permanent 
Assistant Secretary for that office is really important.
    And also, as you may know, I am sorry that I will not 
promise to walk up the stairs of the Washington Monument with 
you, like the gentleman from California offered. But I would 
like to invite you to visit, actually, America's most newest 
marine national monument. And you are going to have to come to 
my district to do that. And I say that in all sincerity, 
because your Department has an ongoing development of a 15-year 
management plan for the Marianas Trench Marine National 
Monument. And I will have a question asking you to explain what 
your agency intends to take, or currently undertaking to 
support the monument. Because we just named it. It is huge, and 
we like to make sure that we all work together and have a plan 
on how to promote this monument, that belongs to our Nation, 
but is presently in the Northern Mariana Islands.
    I am very grateful Madam Secretary, that you were able to 
join Secretary of Defense Chuck Hagel and Secretary of State 
John Kerry in sending a letter to the Senate, Senate President 
Joe Biden and Speaker Boehner, in support of the ratification 
of the Compact Review agreement, because the people of Palau 
are very patient people, but they have been waiting quite some 
time for that.
    Mr. Chairman, I will submit questions for the record. But, 
Madam Secretary, I really like to eventually, we will work with 
your Office of Insular Affairs, but there will be times when we 
need to come to you and talk with you on issues that are truly 
important to us.
    But again, congratulations, and I hope the opportunity will 
arise when you would be able to come out and visit, and I 
understand you like the outdoors. And you can't be farther into 
the wild than it is to come to the Northern Mariana Islands. I 
promise you that, Madam Secretary. So, I look forward to 
welcoming you to the Northern Mariana Islands. And before you 
go to his 120 days, maybe we can make it in the next 90.
    Secretary Jewell. Just if I could make a quick response, I 
have been to Guam. My brother flew for Air Mike. Haven't been 
to Saipan or Tinian or Rota, but he has many times. I am a 
diver, I know that some of the best diving in the world is 
there. And certainly that helps drive the local economy.
    I also have intervened and spoken with Secretary Sebelius 
about some issues around hospitals, the hospital in CNMI. And 
we are in the process of working through a permanent Assistant 
Secretary. So I just want to reassure you that I am aware of 
the issues, and it won't fall off my radar, even though it is 
not as highly recognized a part of the Interior, perhaps, as 
some of the others. But thank you.
    The Chairman. The time of the gentleman has expired. If 
there is any consolation, he has asked me, too.
    So, the gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Secretary Jewell, 
thank you for joining us. Before I start a dialog with you I 
would like to say that Mr. Cartwright went through a litany of 
accidents, and none of those were related to hydraulic 
fracturing, itself. And so, even though he was trying to create 
his own Gasland movie here in this hearing to cause hysteria, I 
want to correct the facts here and let everybody know those 
didn't come from hydraulic fracturing operations.
    On page 17 of your written testimony you referred to 
national ocean policy. And I wanted to spend a few minutes to 
talk about that. The President signed Executive Order 13547 
that sets out a scheme for ocean and special planning. He did 
that, even though the 108th, 109th, 110th, and 111th Congresses 
looked at this particular issues and made decisions to do 
nothing. In other words, the intent of Congress is to not have 
ocean zoning, if you will.
    Mr. Wittman asked a question a few minutes ago and you 
weren't familiar with what the Department is doing on ocean 
zoning, and I do want to follow up on that by asking you some 
questions. I know you won't be able to answer them, and that is 
OK, but would like to have supplemental information from you 
about it.
    The first thing is we had hearings in this Committee that 
talked about this issue from multiple stakeholders, from 
recreational fishing to commercial fishing to many other 
stakeholders that could be affected by ocean zoning. And to a 
organization, to a person, none of them said that they had 
requested that the Federal Government come in and deconflict 
the ocean, that there was no Federal call to do that at this 
point in time. So, that, I think, is the reason those four 
congresses elected to do nothing.
    The questions that we have asked in past hearings from your 
predecessor include the following. Number one is, what is the 
statutory authority for this process to be done, with respect 
to your Department?
    The second thing is where is the spending coming from? 
Because I can tell you there have been no congressional 
appropriations for this purpose, whatsoever, over the past 
several years. So we need to find out where those precious tax 
dollars are coming from that are being used to do this. It 
might make the impact of sequestration a little easier on your 
Department if you would stop that and put it toward Congress' 
intent for that money to be spent.
    How many personnel in the Department of the Interior are 
being tasked to work on this particular project?
    And then, last, and possibly most importantly, where is the 
economic analysis of the impact of this process, should it go 
to its ultimate extension, as envisioned by the President?
    So I know that you are not familiar with that at this 
point, based on the response of Mr. Wittman, but if you would 
supplementally respond, that would be great.
    The other thing that I would say is that in your comments 
you talked about America the Beautiful, in the written 
comments. And it refers to President Obama's Great Outdoors 
campaign or initiative. And I would say this. High gasoline 
prices and high energy prices make it difficult for families 
and American youth to reconnect with nature. So I would urge 
you to do all you can to expand the energy footprint of this 
Nation on our public lands and on our offshore areas, so that 
we can have abundant supplies of clean and safe American 
energy.
    The last thing is that you talked about the impact of 
sequestration on your budget. I agree, that has been difficult. 
I agree sequestration is an inappropriate way, it is a very 
club-handed way to cut costs across the board. But on the 
revenue side, we heard some comments about balanced approaches 
from the other side. One of the ways to grow our revenues is to 
have expanded access to leasing, expanded access for energy 
purposes, expanded royalty income. Those are ways I think we 
can help your Department deal with these sequestration issues, 
so you can self-generate the revenue you need so that you can 
get the boots on the ground that you can help to produce this 
energy in a safe and effective manner.
    Given the shortness of our time, I will yield back, and I 
will look forward to receiving your written responses. Thank 
you.
    Secretary Jewell. If I can just add one comment, we have a 
lease sale 233 planned in the western Gulf of Mexico. It is an 
additional 21 million acres. So that is coming. And the rest of 
them I will look for in the record. Thank you.
    The Chairman. OK. I thank the gentleman for yielding back.
    The gentleman from Florida, Mr. Garcia.
    Mr. Garcia. Madam Secretary, I will invite you back to the 
Everglades. But I want to note to all my colleagues and create 
as much envy as possible that the first national park you 
visited was our park, the Florida Everglades, and in my 
district. So I am very appreciative. I couldn't go out with you 
on that day, but I am glad you made it back safely from the 
wilds of our park.
    I want to point out that, as you well know, this is one of 
the largest investments we made in our Nation, to restore this 
incredible and amazing place. And so there are a lot of little 
tricky things that go on as we go forward. Obviously, the flow-
ways that were working, and I would love to know what our next 
plans are, as we try to keep what I think is a very good 
coalition together as we move forward on this. And as you do 
it, obviously, since I represent most of the southern 
Everglades, would love to continue to work with your office.
    I also want to point out, I have had the Miccosukee Tribe 
also live in my district. But they have been having a great 
deal of problems with--we are holding back a great amount of 
water in their part of the reserve, as opposed to the park. 
Clearly, the park is functioning much better, we are having 
record catches of redfish. And this is from people who have 
been fishing there their entire life, that they are just amazed 
at how strongly Florida Bay is coming back. But clearly, I want 
to try to work with you because they have some very good issues 
about, that impact on their historic way of life. And I think 
they are part of the attraction and part of the lure of the 
Everglades, is the tribe.
    Second thing I wanted to speak to you about is the use of 
technology, right? Your director of the park there is doing a 
fantastic job, and we are trying to figure out a way to 
preserve the historic grasses there. And he is trying to work 
with us on a plan that makes sense, and he has been just 
wonderful in getting public input, something that my colleagues 
in the past may complain about, but I just find that he has 
been very helpful.
    But the idea of trying to use technology when you visit the 
park, one of the great problems of Florida Bay and the lower 
Everglades is that you really don't know where you are. There 
are no markers. And so, when I go out with the experienced 
guides, they know exactly where they are, ``See that PVC pipe 
that is bent over there? That is the entrance to a channel.'' 
But we need to mark the park better, because I think we would 
be able to protect it better.
    But one of the things that we can do is virtual marking, 
right? Think of an app. There is not a boater out there who 
doesn't have an app. There is a service throughout the park, 
and I think it would help us, right? To identify the fish that 
are caught on the app so that we can do research from the 
pictures, where they are caught, where you are in the park in 
relation to what you are doing, where you shouldn't be in the 
park, and we should let you know if we figure out that you are 
in the wrong place. And I think it could raise some revenue, at 
least to pay for itself, and it would help on the research 
side. And this is something suggested to me by commercial 
fishermen, not computer wonks.
    And then, finally, if you could address, and I know 
everybody has talked about it, sequestration and how it is 
affecting us in Everglades National Park and national parks 
broadly. And, again, thank you.
    Secretary Jewell. Thank you very much. I will try and do 
those in rapid succession.
    I am very committed to keeping the Everglades restoration 
going. I think that, first, bridging on the Tamiami Trail that 
has happened, already see the benefits. Did get the opportunity 
to fly over the region as I was there, as well as going out in 
an air boat. So I am committed to doing that.
    The Miccosukee Tribe tribal issue, we are proving up what 
can happen when you allow water to flow in the Everglades, and 
it is just a great illustration between the Fish and Wildlife 
Service, the Park Service, the State, the tribe, local 
communities, working together to restore and recognize the 
importance of this ecosystem. So I will be supporting those 
efforts. And these are big-dollar projects, and will need 
legislative action, most likely, to make sure that they 
continue.
    Use of technology. I have been a proponent of that for a 
long time. I think that the ability to use your device that is 
GPS-enabled to figure out where you are is something we have 
seen pilots of in different parks. It is a great tool that 
doesn't weather and age over time. You can know exactly where 
you are, and there are private apps that can certainly help us 
do that. And I see that being leveraged, and will encourage 
that development.
    Last, the sequestration. As Congresswoman Tsongas was 
talking about, it certainly has impacted park operations, I 
think specific to the Everglades, reduced hours, visitors 
centers, reduced law enforcement, which also reduces the amount 
of time we can keep trails open safely for people. And, of 
course, you have the invasive species issues. I did hold on to 
a gigantic boa constrictor, even though it was a relatively 
small one. There are big issues that require resources to 
support. So we will need your support to be able to maintain 
those efforts.
    Mr. Garcia. Thank you, Madam Secretary, and I yield back 
the balance of my time.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Oklahoma, Mr. Mullin.
    Mr. Mullin. Thank you. How is that? That work? Ma'am, thank 
you for taking the time to join us today, and thank you for 
taking the opportunity to visit with us, because you are in 
quite a hot seat. And I don't envy you at all, where you are 
sitting. But thank you, anyways, for making yourself available 
to us.
    You lived in Oklahoma, and you have been part of the 
private sector industry. You made reference to that, and that 
is great. And I am glad to hear this Administration is taking 
on someone like yourself. The idea that you have been in the 
private sector, you understand about leadership, and you 
understand how important leadership is. But what we continue to 
see from the President and his type of leadership is that he is 
literally blindly leading his ideals down the road with the 
idea of trying to say that he has got the interest of the low-
income individuals, the middle-class individuals, and jobs on 
mind every day.
    And he constantly reiterates this over and over and over 
again. He says, ``I have job packages, I have job packages,'' 
but yet his war on coal is going to punish exactly those people 
that he says on one side of his mouth he is trying to protect. 
And you, being part of the Administration, I find it 
hypocritical that they are going to punish the coal industry 
because of an ideological idea that he has. He is going to take 
jobs away from that sector, he is going to punish those States. 
And that loss is going to be passed on to every individual that 
lives in this country through either paying energy in their 
house, or the products that we are already struggling to 
compete with other countries to make, they--I don't know, the 
mic is on.
    Is it on? Off? Someone is trying to kick me out of here. 
Anyways--it may be my wife; I was supposed to have lunch with 
her an hour ago. So--but my question--let me--OK.
    Secretary Jewell. I can hear you.
    Mr. Mullin. I appreciate that. But the people watching this 
on CSPAN can't, and that is what is important.
    The question that I have, is where do you fit in this 
Administration? I mean knowing that you come from the private 
sector, understanding that this price is going to be passed on 
to the consumer, knowing that we have to compete with the other 
countries, at the end of the day, if we destroy coal and we 
take it out of all of our power plants, and our energy starts 
going through the roof, and we are 100 percent dependent on, 
let's say, natural gas, and the price fluctuation that happens 
with natural gas, how can we deliver consistency across the 
board?
    Secretary Jewell. Well, Congressman, no question in my mind 
that I am working for a leader, and I am working for a leader 
that appreciates my background in business. And he has talked 
consistently with me about that. He knows that I employed 
11,000 people in my prior job at REI, and also----
    Mr. Mullin. But with all due respect, this President hasn't 
employed anybody. And so I don't know if he understands the 
ripple effect that is going to happen. Or, if he does, he is 
not being honest with the American people.
    Secretary Jewell. Well, Congressman, he is elected to his 
position, and he chooses his team. He chose me to be on his 
team as a business person with a lot of experience in the 
private sector, and the breadth of experience that I expressed 
earlier.
    The President and I believe in an all-of-the-above energy 
strategy. Coal is part of that. Oil and gas is part of that. 
Renewables are part of it.
    Mr. Mullin. Ma'am, when we say ``all-of-the-above energy,'' 
we are attacking coal, so I don't buy that. It is all of the 
above as long as it is green, as long as it is his idea. 
Because all the other sectors are fighting it along the way. So 
those are just empty words that actions don't back up.
    Now, I am going to switch on to fracking, because my time 
is running a little bit low, but maybe I will get a few extra 
minutes, or a few extra seconds here. We had talked about 
FracFocus several times in here, and I have heard you reply to 
it as not being perfect. Is that correct? Can you give me any 
branch of the government that is perfect?
    Secretary Jewell. FracFocus is not a branch of government.
    Mr. Mullin. I know that, but we are wanting to put it 
underneath government regulations, and we are saying that 
FracFocus isn't perfect. But I have, in my experience, every 
time the government gets involved in it they seem to make it a 
lot worse. And the way I like to deliver it in Oklahoma, they 
``screw things up.''
    Secretary Jewell. Congressman, in the private sector I have 
never worked for a perfect business. I have never met a perfect 
person.
    Mr. Mullin. No, absolutely not. But we handle things better 
in the private world than they do in the government world.
    Now, going on down that road, being that you are from 
Oklahoma, you lived in Oklahoma, you have worked in the oil 
industry, you know that Oklahoma has been fracking since 1949. 
We have over 193,000 current wells, 10,000 permits issued just 
last year alone. And we do a pretty good job regulating 
ourselves. And we haven't had one incident or anybody in the 
country that we can show that has contaminated any water. Can 
you show me or tell me any State that is not doing a good job 
regulating the industry?
    Secretary Jewell. Congressman----
    The Chairman. Real briefly, go ahead.
    Secretary Jewell. OK. There are States that don't have 
regulations at all for fracking because it hasn't been done----
    Mr. Mullin. Because they are not fracking in that State 
yet.
    Secretary Jewell. Because it hasn't been done in the past, 
but it is something that is happening now, because of changes 
in technology. And they are asking for our support.
    Mr. Mullin. But if we put a one-size-fits-all across the 
board----
    The Chairman. The time of the gentleman has expired.
    Mr. Mullin. OK. Thank you, ma'am. Thank you, sir.
    The Chairman. The gentleman from Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Madam Secretary, for being with us. 
I know it has been a long 2\1/2\ hours or so for you.
    I was a B-1 pilot for a lot of years, and we would go out 
and do a combat exercise, and sometimes I felt like everyone in 
the world was firing missiles at me. You might feel that way 
this afternoon. And we appreciate your patience. And having 
said that, now I have got a couple of missiles, if I could.
    And, Madam Secretary, maybe these aren't big issues for 
you. I hope that they are, and I think they probably would be, 
but I can promise you they are big issues for tens of thousands 
of good people in my district. And if we could, just discuss 
two things very quickly.
    The Utah prairie dog is listed as an endangered species 
under ESA. And the Federal Government regularly counts these 
prairie dogs, but they only count them on Federal lands. They 
don't count any of those prairie dogs that are existing on 
private lands. And surely you can see that doesn't make any 
sense. These prairie dogs are not like Occupy Wall Street 
individuals. They are not hanging out in public parks and in 
public lands. They like to be where you and I are. They like to 
be where there is water, where there is cover, where there is 
grass, where there are green things. And yet, the Federal 
Government doesn't count those prairie dogs. And again, it just 
simply doesn't make any sense. We can't delist them if we are 
not accurately counting them.
    And so, very quickly, mindful of your time, would you be 
willing to commit to work with my office to resolve this 
problem so that we can count all of the prairie dogs, not just 
those that are existing on public lands right now?
    Secretary Jewell. Congressman, my understanding is that 
when we do Endangered Species Act assessments we count all 
animals on private or public lands, because we have many 
endangered species that are on private lands. So I will look 
into that with the Department.
    Mr. Stewart. Please do. Because your response is the 
response that makes sense. But that is not what is happening in 
this case. And again, it simply is beyond reason, why they 
wouldn't do that. And I appreciate your response because, 
knowing that is your frame of mind, that makes me hopeful that 
we could have a more reasonable response on this.
    The second thing, if I could, recently, March 20, the U.S. 
district court in Utah ruled that the State of Utah had 
established title to 15 roads that had crossed public lands, 
lands that were owned by the United States. The State of Utah 
had asserted that these roads were public highways under R.S. 
2477, which I know you are very familiar with.
    The troubling thing about that now, is we are hearing 
rumors that the Federal Government may take extraordinary 
measures, even perhaps the right of eminent domain, in order to 
close these public lands. And if that were to be the case, you 
could see the resentment and the frustration that many of these 
folks living in these rural counties would feel. They went 
through the court process. They had their day in court, and the 
courts found for them. And then, to feel like the heavy hand of 
the government had come in and said, ``Well, we are simply 
going to claim eminent domain and shut these roads anyway,'' 
and it is just not healthy. It is not healthy for the 
relationship between any of us for people to be so distrustful 
and frustrated with their Federal Government.
    Again, would you pledge to work with us to come to an 
outcome that didn't lead to that type of heavy-handed 
government claim?
    Secretary Jewell. It is my commitment to ensure that the 
decisions we make take into account the issues on the ground at 
a local level, and encourage the people that work for me across 
the country to work with local communities to understand what 
those issues are, while also upholding the laws that I am 
required to uphold.
    Mr. Stewart. Yes.
    Secretary Jewell. Because, of course, if I don't, there is 
a lawsuit that results, and that doesn't help any of us. So----
    Mr. Stewart. Exactly----
    Secretary Jewell [continuing]. Certainly support working 
with people on the ground.
    Mr. Stewart. Thank you, Madam Secretary. And there are two 
things that you said that are very important. One of them is 
working with the people on the ground, because the local 
community really have a voice in this. They are the ones who 
are impacted by this.
    And again, you talk about upholding the laws of the land. 
This has been through the court system. The Federal courts have 
ruled on this. And they ruled in favor of the local people who 
wanted access through these public roads. And it would seem to 
be completely beyond what you just expressed there to just say, 
well, we are going to disregard the court rulings and we are 
just going to claim eminent domain.
    So, thank you, Madam, for being willing to work with us on 
that.
    Secretary Jewell. Again, I am not familiar with that 
specific issue----
    Mr. Stewart. I understand. And I didn't expect that you 
would be. Heavens, you are new to this job, and there are 8 
billion things coming at you at any given time. I understand. 
But this is important and, again, we hope to follow up with you 
with that.
    So, with that, Mr. Chairman, I yield back the remainder of 
my time.
    The Chairman. I appreciate the gentleman yielding back his 
time. The gentleman from Missouri, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, Madam Secretary. You 
and I are both apparently some of the newest folks around here. 
I have been here 42 days, and I think you have been here just 
over 3 months.
    One of the issues that has been one of the most important 
issues in my district is the Blueways. As you know, I sent you 
a letter on June 13th asking for it to be rescinded. And I want 
to thank you for rescinding it on July 3rd. Fourteen of my 
counties are affected in the White River designation with the 
Blueway.
    Who is the lead individual in your agency that is in charge 
of the Blueways? You said that you are still learning about it, 
but who is the lead person that I could talk with?
    Secretary Jewell. Well, the program is under consideration 
right now. I think the lead person has been Rebecca Wodder, who 
has been involved in the program. It is being reviewed right 
now, and we will get back to you with the name of the right 
contact for you.
    Mr. Smith. But Rebecca Wodder has been the person in the 
past?
    Secretary Jewell. She has been involved in it in the past.
    Mr. Smith. OK. We are having a Subcommittee hearing today 
at 2 p.m. Are you sending anyone from your agency to testify in 
regards to the Blueways program?
    Secretary Jewell. Turn to my staff. No.
    Mr. Smith. Why is that?
    Secretary Jewell. I didn't know there was a hearing, so I 
will have to check in with the staff.
    Mr. Smith. We actually, our staff, requested Ms. Rebecca 
Wodder to be present, and you said, someone responded back and 
said that she wasn't able to testify. I really hope that maybe 
at 2 p.m. someone from your agency can be at that Subcommittee, 
because there are a lot of questions that need to be addressed 
in regards to the Blueways and how it affects the 14 counties 
that I serve. I was hoping to ask you today, but maybe someone 
on your staff can answer those.
    Secretary Jewell. Well, Congressman, I put the program on 
pause, as I referenced. So I hope that helps address some of 
the concerns that you are bringing up. And if you have specific 
items that you think will help advise me in this process, I 
would be happy to hear them.
    Mr. Smith. I was quite concerned. I felt good about you 
rescinding the designation for the White River Blueways, until 
the Congressman, I think Mr. Tipton, asked you if it was a 
permanent rescinding, and you couldn't answer that.
    And that causes great concern to me, because your 
definition of a local shareholder, I really don't understand 
what it is. Because in your Executive order rescinding the 
designation you said letters from June 28 and July 2 of the 
local stakeholders is why they requested for it to be 
rescinded. You didn't note in there on June 13 that a local 
Congressman that represents 14 of the counties wanted it 
rescinded, or 3 of the Senators that represent Arkansas and 
Missouri wanted it rescinded. So I am wondering who the local 
stakeholders are. Can you tell me who that is, in your 
Executive order that you signed on July 3rd?
    Secretary Jewell. I don't have the specific names with me, 
but I am happy to get those to you.
    Mr. Smith. I would love to have those. And you know, I 
cannot express enough how big of an issue this is to the folks 
that I represent, and the fact that we don't want a part of it. 
I am the Congressman for 14 counties in Missouri where there 
were no public meetings, no open, transparent comments of 
whether we wanted to be in this designation or not. And I am 
telling you right now we do not want a Blueways designation 
that affects our 14 counties. So, as a local stakeholder that 
represents 14 counties, we do not want it in our area.
    Another question in regards to the National Park Service 
management plan. Do you know when that is going to be released 
that is affecting the Ozark National Park Service riverways?
    Secretary Jewell. I don't know specifically, but we. again, 
can get back to you with an answer on that.
    Mr. Smith. I would love to. And in regards to that, 
representing the fine folks of the Eighth Congressional 
District, I want to pass on to you any proposal that limits 
access points along our national riverways, any points that 
closes horse trails or other trails, or changes the horsepower, 
or even promotes wilderness areas, we cannot support in the 
Eighth Congressional District. That river is the life blood for 
the Eighth Congressional District, and is the life blood for 
the western portion of that area. And I am asking in the 
general management plan for none of that to be included. Thank 
you, Mr. Chairman.
    The Chairman. OK, the gentleman yields back his time, and 
the Chair recognizes the gentleman from Nevada, Mr. Amodei.
    Mr. Amodei. Since it is just you and Don Young, you want to 
go to lunch somewhere and kind of knock this out?
    [Laughter.]
    Mr. Amodei. My Committee dues must be in arrears, or 
something like that.
    First of all, Madam Secretary, thank you for coming. As a 
guy who represents a State that you are the landlord of, well 
over 80 percent is federally owned, Neil Kornze is probably the 
portfolio manager, and Amy Lueders is the property manager, so 
it is a big deal, and it is a pleasure to be able to speak with 
you.
    I also want to say that your predecessor was very good 
about maintaining the policy of the Department, the groundwater 
of individual States was within State jurisdiction. We 
appreciated that; I hope to see that continue.
    I want to talk with you about just three issues, real 
quick. And there is going to be a question in there, but it is 
not going to be one that requires you to be nimble after what 
you have gone through. And I respect you staying over.
    And the first one is, obviously, permitting. And as we look 
at the permitting process, and you have talked about some of 
the issues already in terms of energy and stuff like that, I 
would just submit to you that the permitting process, 
especially when you control upwards of 4 out of every 5 acres 
in my State, that timeliness. You will never hear somebody say 
you ought to be granting permits, or you will always hear 
people say you ought to be granting them or denying them, but 
the timeliness.
    And so, those efforts to provide some stability and 
predictability to the length of time in the permitting process, 
not that you get a nice, crisp no; sometimes it is appropriate 
you get a nice, crisp no, but when you look at NEPA to try to 
find authority for indeterminable amounts of time where 
administrative siege is laid, I would just submit to you that 
it undermines the credibility of the process from everybody. 
And I would also submit to you that your Federal land managers 
need the tool as much as applicants do, in terms of being able 
to say to everybody, ``Here is the road map. If you want to 
play, here is when your opportunities are to play. Let's do it 
in a reasonable amount of time.''
    I would also say that the recent stuff that was done that 
picked winners and losers in energy, as far as designating 
solar areas, I listened to your comments on energy and all-of-
the-above, and I appreciate that, and I agree with all-of-the-
above. But when we pick winners and losers, permitting-wise, 
then it tends to be harmful for the C-word, credibility. So, 
just food for thought on that, as we go forward.
    Land disposal. Interesting to hear you bring up 
checkerboard when you talk about there are times when 
checkerboard is something that should be addressed in terms of 
how you manage or turn that over to the private sector. I would 
also submit that in other opportunities in those resource 
management plans, when we identify areas for disposal, 
especially in a State where you have the absolute super-
majority of control of it, that it ought to be something that, 
with no disrespect to you, Mr. Chairman, that a person 
shouldn't have to bring a bill in the U.S. Congress to transfer 
60 acres of land to a tribe, or something like that.
    So, there are going to be some opportunities to play on 
that in this Congress. I hope there is constructive input from 
the Bureau and the Department and things like that, and 
hopefully we will go from there.
    Finally, when we talk about, and you talked about a little 
bit, wildland fire. Some of the other Members have talked to 
you about sage-hen. We call it sage-hen in Nevada. I know 
grouse is the official term. And we talk about regimens of 
regulatory. In Nevada it is 85 percent fire. So when we talk 
about fire, I know that your land managers are capable of doing 
the mining, the ag, all the recreational stuff, all that. But 
when they go to your folks at Fish and Wildlife, and we haven't 
talked about what we do before the fire starts or what we can 
do after it is over, it scares the heck out of me to think. 
Because if I am them, it is like, ``Hey, guess what? You are 
listed.'' Because there are days when, quite frankly, no 
disrespect, you can't manage fire.
    And so, when I hear about the fuels management stuff and 
where it has gone, my question is this. I would really 
appreciate the contact of your budget person that I can go sit 
down with them, I am not going to ask you to come to a park or 
get on your schedule, but I would really like to get on that 
person's schedule and say, ``Help me understand how those 
decisions are made,'' when we talk about climate, when we talk 
about warming, when we talk about an ESA designation in a State 
that, quite frankly, it is the Federal Government's yard work 
because we own so much of it. To sit there and say, and no 
disrespect to you, and I know you got to deal in generalities, 
but just, ``Hey, we have had to make some tough decisions in a 
tough budgetary climate,'' I would really like the opportunity 
to sit down with whoever the person is at Interior and 
understand how those are made.
    Thank you. Hope to get that information from you, and I 
yield back 2 seconds. Mr. Chairman, thank you for your 
patience.
    The Chairman. Thank you. Do you want to respond at all, or 
leave him hanging? And I would recommend you leave him hanging, 
but no, go ahead, if you would like to.
    Secretary Jewell. Well, I just want to say that I, we are 
working hard to streamline the permitting process. I have got 
some statistics, I won't go through them, but it has been 
improving, and it will continue to improve, and I am committed 
to doing that.
    I won't touch the disposal of properties and congressional 
approval, because I am less familiar with that than you all 
are.
    Sage-grouse, Nevada is a very important State for that. I 
was just there a couple of weeks ago. Fire has a big impact on 
sage-grouse habitat. It is something that we talk a lot about 
within the agency, and must work together effectively. 
Cheatgrass is also a problem, an invasive species that comes in 
after fire. So post-fire remediation is also something that is 
critical.
    So, we are working hard on the future for managing fire. I 
know that my colleague, Jim Douglas, addressed this Committee 
on that. He is a great focal point on fire for us, and happy to 
take input from you on what we could be doing in that regard.
    The Chairman. Madam Secretary, you have been very kind with 
your time. The last questioner is somebody that you may not 
know, but he is a gentleman from Alaska, Mr. Young. He used to 
chair this Committee, he is very kind, however. So I will 
recognize the gentleman from Alaska.
    Mr. Young. Thank you, Mr. Chairman. Madam Secretary, 
condolences. Everybody is congratulating you. I have a series 
of questions that I will not ask at this time, but submit to 
you.
    But I would make a suggestion that you read the Alaska 
National Interest Lands Conservation Act. Under that act there 
is some requirements you have to meet. If a State makes a 
proposal, you have to respond. We will be watching this very 
closely. Because if you don't, you will be breaking the law. 
And you know, this is not the correct way to handle things. 
This is utilization of lands on Federal lands and how you 
develop them.
    Second, I make a suggestion you get a hit man. You listen 
to all these programs here, and a lot of your lesser 
secretaries under you, they won't pay any attention to you. I 
have been under, I think, 16 Secretaries of the Interior since 
I have been in Congress. Fish and Wildlife, Park Service, you 
know, BLM, they will do as they damn well please.
    So, I want to suggest you have somebody by your side to 
make sure that you don't get yourself in a hot seat down the 
line because maybe you weren't aware of something. And they 
have done things, very frankly, against the wishes of the 
people, against the wishes of the State, and done it without 
any consultation. And you can't know all these things. So you 
have some staff in the back of the room, and they know what I 
am talking about. And I don't know how many people you have got 
working in the Department of the Interior now, but you can't 
fire them. That is the sad part. Only those political 
appointees. So I am just making that suggestion.
    I would like to be your travel agent. Everybody is 
requesting you. You have made a commitment to Senator Murkowski 
about going up and seeing the road in King Cove. What is your 
timeframe on that?
    Secretary Jewell. September.
    Mr. Young. September? Not too late in September. On the 
other hand, end of September is just right.
    Secretary Jewell. They wanted the fishermen to be back in 
town. I have been working with the Senator's office on the 
right timing for that region.
    Mr. Young. I want you there when that northwest wind comes 
in. I want you to have to ride across that body of water. I 
want you to have the experience. I really think you will enjoy 
it.
    I yield back the balance of my time.
    The Chairman. I thank the gentleman for yielding back. And, 
Madam Secretary, you really have been very, very kind with your 
time. And let me say that you have heard a diverse view of 
observations and questions. Those questions that you are going 
to follow up in writing, make that to the whole Committee, if 
you would. And be prepared, there may be some follow-up 
questions from other Members. Typically what happens is, gee, I 
didn't bring this up, and so those questions will also be 
forthcoming.
    But once again, I sincerely thank you, and you have been 
more than generous with your time. And that does not go 
unnoticed. So thank you very much.
    If there is no further business to come before the 
Committee, the Committee stands adjourned.
    [Whereupon, at 12:53 p.m., the Committee was adjourned.]
   Questions Submitted for the Record to The Honorable Sally Jewell, 
               Secretary, U.S. Department of the Interior
Questions Submitted for the Record by The Honorable Peter A. DeFazio, a 
          Representative in Congress From the State of Oregon
                            drilling safety
    Question. Secretary Jewell, in February 2012, the House Natural 
Resources Committee Democratic staff released a report that examined 
safety and environmental violations that occurred relating to oil and 
gas drilling on Federal lands over a decade beginning in the late 
1990s. The report indicated that significant and potentially dangerous 
activities were occurring on Federal lands without consistent or 
adequate Federal oversight and enforcement. Since this report was 
issued what policies has the Department put in place to strengthen the 
inspection, oversight and enforcement program for onshore oil and gas 
activities?
    Answer. The Bureau of Land Management places a high priority on the 
oil and gas Inspection and Enforcement program. In July 2012, the BLM 
issued policy and guidance requiring additional oversight of the 
inspection and enforcement program. The BLM's fiscal year 2013 oil and 
gas inspection and enforcement strategy uses a risk-based system that 
identifies high priority drilling wells for technical inspection. In 
addition, the BLM is drafting comprehensive replacement regulations for 
Onshore Oil and Gas Orders 3 (site security), and 4 (oil measurement). 
The replacement regulations will update the minimum operating 
requirements as consistent with current law, technologies, and industry 
best management practices. Additionally the BLM is preparing a new 
Onshore Oil and Gas Order 9 (waste prevention) to establish standards 
to minimize the amount of venting and flaring of natural gas that takes 
place on oil and gas production facilities on Federal and Indian lands. 
The BLM is also updating internal automation technologies, increasing 
the effectiveness and efficiency of inspection staff. In addition, the 
BLM is drafting a final rule regulating hydraulic fracturing that will 
establish a baseline standard for safety and environmental protection 
across all Federal and Indian trust lands throughout the country.
    Question. Secretary Jewell, the report indicated that monetary 
penalties for safety violations were almost never issued, and when they 
were issued, they were issued inconsistently and amounted to very 
little. Over the 13 year period evaluated in the report the average 
fine was only $135 per violation for an industry where the top 5 
companies made $119 billion last year. That is not a real deterrent for 
these companies.
    The fines that BLM can levy on oil and gas companies who violate 
regulations are set by a 30 year old law that has not been updated. The 
Interior Department and the American Petroleum Institute have both 
agreed that these low fines are not a sufficient financial deterrent 
for companies who violate the law. Former BLM Director Bob Abbey agreed 
that fine amounts are too low, and former Secretary Salazar committed 
to reviewing and evaluating ways the Department could increase the 
dollar amounts of fines. Do you agree that these fines are too low and 
has the DOI instituted any changes to provide additional deterrents for 
bad behavior?
    Answer. The BLM shares your concern over safety violations. The BLM 
has demonstrated a commitment to levy major fines for non-compliance. 
For example, in April 2011 the BLM announced the largest civil penalty 
settlement in the bureau's history, a $2.1 million settlement by Berry 
Petroleum Company that resolved a proposed civil penalty the BLM had 
issued in July 2009. BLM is also always looking for opportunities to 
enhance accountability and make greater use of best management 
practices. While the dollar amount of civil penalties is set under the 
Federal Oil and Gas Royalty Management Act and, thus, any change would 
require amendment to that law, the BLM plans to evaluate increasing the 
dollar amount of assessments under its regulations and expanding the 
categories of violations that result in automatic assessments.
                             fracking rule
    Question. Secretary Jewell, isn't it true that there is currently a 
wide variety in the stringency and efficacy of State regulations with 
respect to drilling or hydraulic fracturing on State lands? For 
example:
    Wyoming requires pre-fracking disclosures of all hydraulic 
fracturing chemicals, no other State requires pre-frack disclosure of 
everything (some States have more limited disclosure requirements).
    Colorado and West Virginia require advanced notice of fracking to 
landowners and/or residents, no other State has this requirement.
    Wyoming has strong rules for surface casing setting depth and 
protecting drinking water and Texas has good rules for intermediate and 
production casing cementing. Other States do not have these 
prescriptive requirements. Furthermore, the existence of these 
requirements hasn't hindered oil and gas development in Colorado and 
Texas.
    Colorado and New Mexico have tight restrictions on the use of 
wastewater pits, New York has proposed rules require that all flowback 
be collected in tanks rather than pits. Other States do not have these 
requirements.
    Despite the claims of the Majority, isn't it true that the revised 
draft proposed BLM hydraulic fracturing rule would not be a duplicative 
layer of regulation but would rather be implemented by individual State 
BLM offices in a way that dovetails with existing State standards not 
on top of them?
    Answer. The BLM's proposed regulations are expected to integrate 
with existing State standards for hydraulic fracturing by establishing 
consistent standards for wellbore integrity, chemical disclosure, and 
flowback fluid management on public lands. While certain states have an 
established regulatory framework addressing hydraulic fracturing, a 
number of States with Federal oil and gas leases do not. The revised 
proposed rule would allow for variances to allow the use of an 
alternative standard, technology, or process that meets or exceeds the 
hydraulic fracturing rule's protections of the public's resources and 
lands, but variances are not necessary in many of the situations where 
a State's regulation meets or exceeds standards in the hydraulic 
fracturing rule. If an operator, through compliance with State rules, 
is automatically meeting the requirements of the hydraulic fracturing 
rule, no variance is necessary. BLM is coordinating with the 
appropriate State regulatory agencies to minimize duplication and 
redundancy in the regulatory processes and to provide clarity to the 
industry.
    Question. Secretary Jewell, the discrepancies in State standards 
are why a Federal standard, to act as a floor, is needed. But the 
revised draft rule BLM recently issued is weaker in a number of 
important ways that the draft rule issued last year. For example:
    In the revised draft rule, cement evaluations don't have to be 
submitted until after the well is fracked (vs before in the last rule).
    In the revised draft rule, operators don't have to provide BLM with 
information (depth, volume of fluids, chemicals, water source, size of 
fracturing) about each well and instead can just use one packet of 
generic information to be submitted for all ``similar wells.''
    In the revised draft rule, disclosure of fracking chemicals would 
not have to be disclosed until after a well is drilled and could be 
done using the Web site FracFocus, which, while it is undergoing 
changes, remains a data base not run by the Federal Government that has 
been criticized for preventing easy access, aggregation, and download 
of data.
    The waiver provisions (called variances) have been expanded to 
allow entire areas or States to be exempt from some requirements.
    I am concerned that despite the fact that a number of Democratic 
Members wrote to then-Secretary Salazar calling for the initial draft 
rule to be strengthened, the revised draft rule appears to have been 
weakened in these critical ways. I would hope that as you continue to 
work through this rulemaking process you incorporate suggestions of 
members of this Committee and the public to strengthen the rule to 
protect public health and the environment.
    Answer. The Department and the BLM have made clear that it is 
important that the public has confidence that the right safety and 
environmental protections are in place. The revised proposed rule will 
modernize BLM's management of hydraulic fracturing operations and help 
to establish baseline environmental safeguards for these operations 
across all public and Indian lands.
    BLM believes that the post-fracturing disclosures and 
certifications contained in the revised proposal would provide adequate 
assurances that fracking operations protect public health and safety 
and protect Federal and Indian resources, and will ensure that the 
public is informed about the specifics of the actual fracking 
operations which are ultimately performed.
    The BLM proposed for comment that where the cement evaluation log 
(CEL) data for a ``type well'' shows no indications of cement problems, 
the operator could construct the other wells in an approved group 
within the same field using the same well design and construction 
without getting prior approval for the other wells. However, the 
operator would be required--for all wells--to monitor and record the 
flowrate, density, and treating pressure, when cementing well casings 
and to submit a cement operation monitoring report to the BLM. The 
required monitoring data would provide important indications of 
problems with the cementing of casings and would help to verify the 
results of a CEL and for wells where no CEL is required and will 
provide the primary assurance that cementing operations conformed to 
those of a proven type well. If the monitoring information provides 
indications of an inadequate cement job, the operator would also be 
required to notify the BLM within 24 hours, submit a written report 
within 48 hours, and to certify that the inadequate cement job had been 
corrected and that usable water zone isolation had been achieved prior 
to starting hydraulic fracturing operations.
    The BLM took comment on all aspects of the rule including whether 
this approach is sufficient to determine adequate cementing to protect 
usable water aquifers.
    Regarding the use of FracFocus, BLM recognized and understood that 
FracFocus is in the process of improving the data base with enhanced 
search capabilities to allow for easier reporting of information when 
including submission of data through this system. Moreover, information 
submitted to the BLM through FracFocus will still be required to comply 
with this Federal rule, including its requirements that the operator 
must certify the information submitted is correct. For operators and 
the public, FracFocus provides a consistent venue that allows for ease 
of reporting and accessing data.
    Finally, as noted in the question, the revised proposed rule would 
allow the BLM to approve a variance that would apply to all lands 
within a field, a basin, a State or within Indian lands and that would 
be based on the BLM's determination that it will meet or exceed the 
objectives of the regulation. The variance process would allow the BLM 
to work with States or tribes to appropriately adapt the regulatory 
requirements to the unique geology of an area or defer to a standard, 
technology, or process required or allowed by State or tribal 
government, as long as application of the standard, technology, or 
process meets or exceeds the objectives of the hydraulic fracturing 
rule. The BLM would issue the variance in cooperation with the State or 
tribe. The variance would apply only to the requirements of the 
hydraulic fracturing regulations, and all requirements of the Mineral 
Leasing Act, or the Mineral Leasing Act for Acquired Lands, other 
Federal statutes and all other regulations, would continue to apply to 
all lessees and operators.
                             mining reform
    Question. As you know, the Mining Law of 1872--a law signed into 
law by President Ulysses S. Grant--allows free hardrock mining on 
Federal public lands.
    Oil and gas companies have to pay the American taxpayers a royalty 
when extracting oil and gas from Federal lands. Coal companies have to 
pay a royalty when mining coal on Federal lands. But if you are mining 
for gold, silver, copper, uranium and other valuable hardrock 
minerals--you pay nothing.
    Of course, States, tribal nations, and private landowners aren't 
foolish enough to give away their hardrock minerals for free--they all 
charge a royalty--some as high as 12 percent.
    We also have the issue of abandoned hardrock mines. According to 
the GAO there are more than 160,000 abandoned mines in the West alone--
some estimates put that total as high as 500 mines--and each can cost 
tens of millions of dollars to clean up.
    Secretary Jewell, would your department support--and will you 
commit to working with this Committee on--real mining reform that 
includes royalties as a source of income for the U.S. Treasury and 
abandoned mine reclamation?
    Answer. Yes, the Department looks forwarding to working with the 
Congress on reform of the mining law. The Administration supports 
legislative efforts to address the problem of abandoned hardrock mine 
lands, and has proposed creating a program similar to that for coal 
mines for abandoned hardrock sites. The Administration also supports 
efforts to provide a fair return to the taxpayer from hardrock 
production on Federal lands, and has proposed developing a leasing 
program under the Mineral Leasing Act of 1920 for certain hardrock 
minerals including gold, silver, lead, zinc, copper, uranium, and 
molybdenum, currently covered by the General Mining Law of 1872.
                        oil and gas development
    Question. The Majority has brought a number of bills to the floor 
to require new oil and gas leases on lands under your jurisdiction. 
These efforts have included bills to require leasing off the west 
coast, Atlantic coast, and in sensitive areas like Bristol Bay--home of 
the most productive salmon fishery on the planet.
    But the truth is that a substantial portion of Federal lands--both 
onshore and offshore--are already under lease for oil and gas 
development. As I mentioned in my opening statement, there are 
currently 25 million acres onshore and 30 million acres offshore--for a 
total of 55 million acres--already under lease that are not producing a 
drop of oil and gas.
    Would your Department and President Obama support legislative 
action to incentivize the development of existing oil and gas leases? 
In other words, do you believe we should be pushing the industry to use 
what it already has--55 million acres--or giving them access to more 
access to Federal land?
    Answer. Yes. The Administration has proposed legislative reforms to 
bolster and backstop administrative actions being taken to reform the 
management of Interior's onshore and offshore oil and gas programs, 
with a key focus on improving the return to taxpayers from the sale of 
these Federal resources. This includes proposals to encourage the 
diligent development of oil and gas leases (e.g., requirements for 
shorter primary lease terms, stricter enforcement of lease terms, and 
monetary incentives to get leases into production).
                              pebble mine
    Question. As you know, a Canadian mining corporation is proposing 
to develop ``Pebble Mine,'' which would be the largest open pit gold-
copper mine in North America in the headwaters of two of the most 
critical wild salmon producing drainages in the world that help support 
a $2 billion per year sustainable fishery.
    Although the Department of the Interior is not directly involved in 
the approval process of the proposed mining operation, I would strongly 
encourage you to engage with the EPA and to get involved in this issue. 
The sheer size of the mine has implications for BLM holdings along the 
potentially impacted rivers and tributaries of the region as well as 
the fish and wildlife--like moose, caribou, ducks, geese, and other 
migratory birds.
    And, if the native salmon populations are impacted you potentially 
have repercussions for the many wildlife species in the food change 
that salmon support. If you haven't already, I would encourage you to 
have a conversation with Gina McCarthy--if and when the Senate does its 
job and confirms her--and stay active on this issue.
    Answer. This is an important issue for the Department. While the 
proposed development is on land owned and managed by the State of 
Alaska and the watershed assessment is being carried out by the 
Environmental Protection Agency, the assessment does include some lands 
managed by departmental agencies. As such, the Department and its 
agencies will continue to monitor the process closely.
                        public lands/wilderness
    Question. In 2011 DOI issued a report highlighting 18 backcountry 
areas deserving congressional protection as Conservation Lands or 
Wilderness, including 2 of my bills in Oregon--the Rogue Wilderness 
Area Expansion Act and Devil's Staircase Wilderness Act.
    At that time, former Secretary Salazar noted the local and 
bipartisan support for these proposals and challenged the 112th 
Congress to pass them, stressing the importance of balancing land 
conservation with energy development. Unfortunately, not a single one 
of these bills passed either the House or the Senate--the first time 
Congress failed to protect a single acre of wilderness in seven 
decades.
    The Obama Administration has been under pressure from the Majority 
over its use of the Antiquities Act. But I assume the President would 
much prefer to sign bipartisan conservation bills--passed by Congress--
into law instead of using the Antiquities Act as the sole means 
available in the last 2 years to preserve and protect sensitive areas 
and landscapes.
    Answer. The Administration has testified in support of both the 
Devil's Staircase and Rogue Wilderness Expansion Acts, and we encourage 
the Congress to move these bills forward. The Administration is 
committed to engaging local citizens and getting public input; to 
understanding how communities feel; and to connecting with local 
communities in an effective way so that local sentiments about these 
spectacular places inform decisions about recognizing American 
treasures. The monument designations the President has made under 
Antiquities Act authority have followed this community-based approach. 
It is also worth noting that the Antiquities Act has been used by 16 
Presidents, from both parties, to recognize the importance of such 
areas as the Grand Canyon and the Statue of Liberty.
                           endangered species
    Question. I am concerned about the Fish and Wildlife Service's 
proposal to delist the gray wolf from the Endangered Species list 
throughout the United States. Before the proposal was released, I 
organized a letter signed by more than 50 of my House colleagues to 
Service Director Dan Ashe urging him to keep protections for wolves in 
place as they continue to rebound. The lack of sound scientific 
evidence to support the Service's claim that the wolf is recovered, 
even though it only exists in a small portion of its historic range, 
indicates that a decision has been made to shift the goalposts and 
declare a victory. What are you doing to review this decision? Will you 
require the Service to produce additional scientific evidence to prove 
that wolves no longer warrant protection under the ESA?
    Answer. The Fish and Wildlife Service evaluated the classification 
status of gray wolves currently listed in the contiguous United States 
and Mexico under the Endangered Species Act. Based on that evaluation, 
and consistent with the ESA, the FWS published two proposed rules on 
June 13, 2013, to remove the gray wolf from the List of Threatened and 
Endangered Wildlife but to maintain endangered status for the Mexican 
wolf by listing it as a subspecies. These actions are proposed because 
the best available scientific and commercial information indicates that 
the currently listed entity is not a valid species under the ESA and 
that the Mexican wolf is an endangered subspecies.
    On September 30, 2013, the FWS announced that it has reinitiated a 
scientific peer review process to obtain an independent and objective 
peer review of the science behind the proposal. The peer review process 
will be sponsored and conducted by the National Center for Ecological 
Analysis and Synthesis, a respected interdisciplinary research center 
at the University of California--Santa Barbara. The center will vet 
prospective reviewers to verify that they are able to provide an 
objective review and have no conflict of interest, culminating in the 
selection of 5 or 6 well-qualified scientists with professional 
qualifications and relevant experience.
    The Department recognizes the significant public interest in this 
issue and is focused on ensuring that all interested parties have the 
opportunity to provide comments concerning the proposed rule. With that 
in mind, FWS extended the public comment period on the proposed rule 
for a second time. In addition, to provide a forum for additional 
stakeholder input, the FWS also held five public hearings on the 
proposal, including in Sacramento, CA, Denver, CO, Albuquerque, NM, 
Pinetop, AZ, and Washington, DC.
    Additional details of the proposed rules and public hearings, and 
links to submit comments to the public record can be found here: 
www.fws.gov/graywolfrecovery062013.html.
                                 ______
                                 
   Questions Submitted for the Record by The Honorable Don Young, a 
          Representative in Congress From the State of Alaska
    Question. As you know, the State of Alaska recently submitted a 
very comprehensive Exploration Plan and Special Use Permit Application 
to the Department pursuant to section 1002(e) of the Alaska National 
Interest Lands Conservation Act or ``ANILCA.'' Section 1002(e) is very 
clear on what must happen when such a plan is submitted, including a 
requirement that the Secretary of the Interior ``shall promptly publish 
notice of the application and the text of the plan in the Federal 
Register and newspapers of general circulation in the State.'' When do 
you anticipate publishing this notice?
    Section 1002(e) also states that ``the Secretary shall hold at 
least one public hearing in the State for purposes of receiving the 
comments and views of the public on the plan.'' When do you anticipate 
holding such a hearing (or hearings)?
    Answer. Based on long-standing legal interpretation, FWS has found 
that the underlying statute and its 1983-84 implementing regulations 
bar the Service from considering the exploration plan and permit 
application.
    Question. In June 2013, during a speech, former Deputy Secretary, 
David Hayes, announced that the Interior Department will soon be asking 
the general public to identify areas that should and should not be open 
to oil and gas leasing. While listening and receiving feedback from the 
public is important, without access to extensive data and teams of 
biologists, geophysicists, engineers, and geologists, what level of 
importance will be placed on an individual's suggestions in determining 
where is most appropriate for oil and gas leasing? Can you provide more 
information regarding this change in policy?
    Answer. The Department, as steward of our public lands and waters 
and through rigorous dialog with stakeholders, must strike the right 
balance of meeting the interests of local communities and public owners 
of the resources as the President's ``all of the above'' energy 
strategy is advanced. The Department's management actions will continue 
to be developed and implemented in accordance with applicable law and 
regulations and supported by the best available science.
                                 ______
                                 
  Question Submitted for the Record by The Honorable Doug Lamborn, a 
         Representative in Congress From the State of Colorado
    Question. In reviewing permits, the U.S. Fish and Wildlife 
duplicate the efforts of State agencies. Shouldn't Federal Fish and 
Wildlife avoid duplication and waste of taxpayer resources by 
delegating permit review to State agencies? State Fish and Wildlife 
agencies are in the best position to understand what is appropriate for 
their State.
    Answer. The U.S. Fish and Wildlife Service's permit issuance and 
review is carried out in accordance with Federal laws and therefore in 
most cases cannot be delegated to States. The FWS works closely with 
local, State, and Federal Government partners to ensure that review 
processes are conducted in a timely manner, making the best use of 
taxpayer resources. The Department agrees that it is important to seek 
ways to increase efficiencies, including by institutionalizing best 
practices and strengthening collaboration with local and State 
stakeholders, as well as tribes.
                                 ______
                                 
Questions Submitted for the Record by The Honorable Robert J. Wittman, 
        a Representative in Congress From the State of Virginia
    Question. Do you see any inherent conflict between the development 
of the 5-year OCS leasing plan as mandated by the OCS Lands Act and the 
National Ocean Policy (NOP) and its call for regions to develop marine 
spatial plans that you as Secretary are subsequently bound to follow 
per the Executive order establishing National Ocean Policy? What impact 
would NOP have on permitted activities like energy development?
    Answer. Neither the National Ocean Policy nor marine planning 
creates or changes existing regulations or statutory authorities under 
which the Department's bureaus operate. The final Implementation Plan 
for the NOP was developed with extensive stakeholder input and gives 
States and communities greater input in Federal decisions, among other 
things. The Implementation Plan supports voluntary regional marine 
planning, which will bring together ocean users to share information to 
plan how we use, sustain and better understand our ocean resources.
    Question. Do you support the goal of wetland restoration and would 
you support continued authorization of the North American Wetlands 
Conservation Act?
    Answer. The Department supports the goal of wetland restoration and 
reauthorization of the North American Wetlands Conservation Act. The 
Department testified in strong support of H.R. 2208, the North American 
Wetlands Conservation Extension Act, at a hearing before the House 
Natural Resources Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs, on August 2, 2013. The Department also supports 
legislation to increase the price of the Federal Duck Stamp, funding 
from which is also critical to protecting wetlands that offer breeding, 
feeding, and resting areas for migratory waterfowl.
    Question. In June the Wildlife and Hunting Heritage Conservation 
Council (WHHCC) Federal advisory council sent a letter to you asking 
for the creation of a dedicated spot for hunting and recreational 
shooting on the Bureau of Land Management Resource Advisory Councils 
(RACs). What is your position on providing sportsmen with this 
opportunity to have a dedicated voice in policy decision impact Federal 
lands?
    Answer. The Bureau of Land Management takes seriously the work of 
the Resource Advisory Councils, which provide an opportunity for 
individuals from a wide-range of backgrounds and interests to have a 
voice in the management of public lands. Under BLM regulations, each 
RAC must include balanced representation of the following three broad 
categories: Commercial/commodity interests; Environmental/historical 
groups (including wild horse and burro and dispersed recreation); and 
State and local government, Indian tribes, and the public at large. 
Hunting and recreational shooting interests may be represented in any 
of the three categories (as noted on the RAC application):

  <bullet> Category 1: Developed outdoor recreation, off-highway 
        vehicle users, or commercial recreation activities
  <bullet> Category 2: Dispersed recreation interests
  <bullet> Category 3: Public at large

    One-third of RAC member positions become open each year, generally 
between January and March. The BLM's senior management will continue to 
consider changes to categories or the addition of special subcategories 
for interests like hunting and shooting sports. The Department 
recognizes that sportsmen and women care deeply about the public lands 
and we encourage them to apply for RAC appointments.
                                 ______
                                 
 Question Submitted for the Record by The Honorable Tom McClintock, a 
         Representative in Congress for the State of California
    Question. Madam Secretary, you may be aware that FWS recently 
proposed a rule for Categorical Exemption from NEPA mandates regarding 
``Injurious Wildlife Listings'' under the Lacey Act. This Committee 
understands well the challenges in dealing with invasive species, 
however, I am concerned that exempting the FWS from addressing the 
environmental, economic and social impacts of proposed additions to the 
list could be extremely damaging to small business; as several of the 
species FWS seems to be targeting are widely traded and would have a 
significant economic impact. I'd like your commitment to look into this 
matter and get back to me before the service finalizes their rulemaking 
on this issue. Do I have that commitment?
    Answer. A final determination on this proposed rule will be made 
once the public comments received are analyzed and addressed. 
Regardless of whether or not a categorical exclusion is finalized and 
applied to the listing of injurious wildlife under the Lacey Act, the 
Fish and Wildlife Service will continue to carry out the analysis 
required under the National Environmental Policy Act and other laws 
applicable to Federal regulatory action, including the Lacey Act 
itself, the Administrative Procedures Act, the Regulatory Flexibility 
Act, and Executive Order 12866, Regulatory Planning and Review. These 
laws account for much of the analyses made when carrying out the 
regulatory listing process.
    The proposed categorical exclusion would give FWS the flexibility 
to forego the preparation of an Environmental Assessment under NEPA 
when, absent extraordinary circumstances, listing a species as 
injurious under the Lacey Act. The proposed categorical exclusion meets 
the Council on Environmental Quality guidelines, which provide that a 
categorical exclusion may apply to actions that are administrative and 
repetitive in nature and for which Environmental Assessments 
continually result in ``Findings of No Significant Impact.''
                                 ______
                                 
 Questions Submitted for the Record by the Honorable Paul A. Gosar, a 
          Representative in Congress From the State of Arizona
                         grand canyon air tours
    Question. The 1 year anniversary of the passage of the Moving Ahead 
for Progress in the 21st Century Act (MAP-21, Pub. L. 112-141), 
recently passed. Senator McCain and I have inquired several times about 
the delay in the implementation of the law as it pertains to the quiet 
technology incentive requirements of the act. As of March of this year, 
we were told that the National Park Service and the FAA were still 
working to identify options to implement these incentives. I believe a 
year is more than enough time. Coming from the private sector, I am 
sure you would not have stood for this type of delay. I know I wouldn't 
have in my dental practice.
    Can you please tell me when my colleagues and I can expect to hear 
from the NPS and the FAA that the incentives are ready for 
implementation? We have been very patient but our patience is running 
thin. These incentives are critical to the long term economic health of 
Northern Arizona and Southern Nevada.
    Answer. Effective January 1, 2014, the NPS has implemented air tour 
fee adjustments as an initial incentive for operators conducting air 
tours at Grand Canyon National Park to convert to the use of quiet 
technology aircraft. These fee adjustments will also be made available 
to air tour operators who already have converted to the use of quiet 
technology aircraft. The FAA plans to announce a second incentive that 
would release FAA held allocations for the use of quiet technology 
aircraft in time for the busy part of 2014 tourist season. The NPS and 
FAA are continuing to work together on additional incentives that will 
require noise analysis to ensure compliance with the mandate set forth 
in MAP-21 that the impact of increased operations resulting from the 
incentives does not increase noise at Grand Canyon National Park.
 long-term experimental and management plan (ltemp) for glen canyon dam
    Question. My question is about the Long-Term Experimental and 
Management Plan (LTEMP) for Glen Canyon Dam that is being undertaken by 
the Bureau of Reclamation and the National Park Service as co-lead 
agencies.
    My understanding is that Reclamation currently has 10 years of NEPA 
compliance for Glen Canyon operations--from two Environmental 
Assessments and Findings of No Significant Impact issued just last 
year. Given this, and given that the endangered humpback chub 
population in the Grand Canyon is continuing to increase and currently 
exceeds recovery goal requirements . . . why is the Department 
proceeding with another EIS at this time?
    Answer. The 2012 Environmental Assessments and associated Findings 
of No Significant Impact focused on specific aspects of the operations 
of Glen Canyon Dam, including high flow experiments and nonnative fish 
management through 2020. In contrast, the Long Term Experimental and 
Management Plan Environmental Impact Statement (LTEMP) announced by the 
Secretary in December 2009 will update a 1996 Record of Decision and 
considers potential modification of many aspects of Glen Canyon Dam 
operations beyond those considered in the 2012 Environmental 
Assessments. The LTEMP will incorporate scientific information 
developed by the Glen Canyon Dam Adaptive Management Program. The 
resulting Record of Decision from the LTEMP will allow the Secretary to 
meet statutory responsibilities for protecting and improving Glen 
Canyon National Recreation Area and Grand Canyon National Park 
resources and values, as well as statutory responsibilities under the 
Law of the River and the Endangered Species Act.
    Question. The President's budget contains $3.5 million for the Glen 
Canyon Dam LTEMP EIS. Given today's fiscal struggles, why would 
Interior spend $3.5 million on an EIS that basically is unnecessary 
since (1) BOR has NEPA compliance for the next 10 years; (2) USFWS has 
issued a fresh biological opinion showing current Glen Canyon 
operations are not jeopardizing the endangered Humpback Chub?
    Answer. As noted in the response to the previous question, the 
LTEMP EIS is a separate process focused on a different aspect of Glen 
Canyon Dam operations.
national monument designations via antiquities act authority in arizona
    Question.I want to quickly ask about National Monuments. While I am 
not opposed to monuments, I firmly believe any designation should go 
through a public process and ultimately be codified by Congress.
    I have introduced legislation, the Arizona Land Sovereignty Act, 
which would ensure a public process for monument designations. I know 
there are groups in my State urging the department to declare parts of 
my district as monuments. Does the Administration have any plans or are 
you considering any proposals to designate a National Monument in 
Arizona, under Antiquities Act authority?
    Answer. At a hearing in June 2013, the Administration strongly 
opposed efforts to weaken Antiquities Act authority, which has been 
used by 16 Presidents from both parties to recognize the importance of 
such areas as the Grand Canyon and the Statue of Liberty. While there 
are no current plans to designate monuments in Arizona under this 
authority, it is worth noting that this Administration is committed to 
engaging local citizens and getting public input; to understanding how 
communities feel; and to connecting with local communities in an 
effective way so that local sentiments about these spectacular places 
inform decisions about recognizing American treasures. The monument 
designations the President has made under Antiquities Act authority 
have followed this community-based approach.
                                 ______
                                 
  Questions Submitted for the Record by The Honorable Steve Daines, a 
          Representative in Congress From the State of Montana
                sage grouse and resource management plans
    Question. As you know, Montana is heavily reliant on our resource 
management pretty heavily--for economic development, including for 
resource extraction, and outdoor recreation and tourism. I share your 
vision that these two goals (resource development and outdoor 
recreation) can co-exist. Another vital piece component of land 
management in Montana is local involvement. Land management decisions 
are best made right at home in Montana instead of here in Washington.
    As you know, recently, the Bureau of Land Management issued three 
Resource Management Plans for public comment. The comment periods for 
these plans--Billings, Miles City, and the Hi-Line--were short. Both of 
our Montana Senators and I requested an extension of the comment 
period, as well as many of our constituents, due to the serious 
implications for resource management outlined in the RMPs, especially 
on Greater Sage Grouse conservation planning, outlined in the RMPs. 
Much of the proposed boundaries for priority concern and the Bureau's 
restrictions on activities in these areas have potential to impact the 
livelihoods of many Montanans. We're learning development is projected 
to increase and bring more economic benefits to our communities and 
grazing continues to be a central part of life throughout proposed 
Greater Sage Grouse habitat. Conserving this species is a high priority 
for our State and local communities. They have a lot to say about it 
and have much to contribute to your Department's planning process.
    On May 22, 2013, I sent a letter to you requesting a 120 day 
extension on the comment period for the Billings-Pompeys Pillar, Hi-
Line, and Miles City Resource Management Plans on May 22, 2013. And did 
not receive a response until later in the day on July 17. Why is that?
    Can you explain why the Bureau refused to extend the comment 
period?
    Answer. The Department and the BLM apologize for the delay in the 
response. We appreciate the importance of these plans as they relate to 
the economies of local communities and States. For this reason, the BLM 
has emphasized participation by the public, partners, and other 
agencies. In accordance with planning regulations, all of the draft 
plans were made available for public review and comment for a full 90 
days, with administrative review copies available to cooperating 
agencies at various times throughout the planning process. While we 
acknowledge the large scope of the documents, the 90-day public comment 
period could not be extended without jeopardizing the BLM's commitment 
to addressing greater sage-grouse habitat conservation in the time-
frame necessary to inform the U.S. Fish and Wildlife Service's 
Endangered Species Act listing decision which must be completed by the 
court-mandated date of September 30, 2015.
    In addition to the formal 90-day comment period, the BLM held 34 
formal public scoping meetings, conducted 5 community economic 
workshops, and provided numerous briefings for cooperating agencies, 
user groups, environmental organizations, industries, county 
commissions, tribes, congressional staffs, other agencies, and the 
BLM's Resource Advisory Councils. Collectively, the Montana plan 
revisions involved 57 cooperating agencies, including counties, State 
and Federal agencies, tribes and grazing/conservation districts. Our 
managers and planning teams addressed and incorporated public scoping 
comments and issues submitted throughout the planning process and have 
provided newsletters and Web site updates to keep our stakeholders 
informed of our progress. We value public input and will continue to 
accept substantive comments throughout the process.
    Question. In the mega-settlement which you had referenced in a 
response letter to my constituents as the reason you could not extend 
the comment period, was just only the timing of the listing of the GSG 
species agreed to in that settlement? Or was the timing and issuance of 
proposed RMPs part of the settlement?
    Answer. The issuance of the proposed RMPs was not specifically part 
of the settlement of the ESA Deadline Multi-District Litigation filed 
against the Fish and Wildlife Service, but it is a critical component 
in the larger effort to conserve greater sage-grouse and potentially 
avoid the need for a listing at the time of the required decision.
    Question. Moving forward with Sage Grouse conservation in Montana, 
how closely is the BLM going to rely on State data?
    Answer. Sage-grouse conservation in Montana and the Dakotas is a 
multi-jurisdictional challenge due to fragmented land ownership 
patterns across large portions of sage-grouse habitat, making a 
collaborative approach essential. The BLM has been working with State 
fish and wildlife agencies, local working groups, and other 
organizations throughout the BLM's National Greater Sage-Grouse 
Planning Strategy process. The BLM has a long history of working 
cooperatively with the State of Montana, including using their data and 
mapping of sage-grouse habitat in the BLM plans. The Montana/Dakotas 
BLM is also involved in the Montana Governor's Greater Sage-Grouse 
Habitat Conservation Advisory Council, and we will consider the final 
State management plan when we formulate our proposed management actions 
for each land use plan.
                    sage grouse and hard rock mining
    Question. Madame Secretary: I have a quote from the HiLine Draft 
Resource Management Plan and this is what it says:
    ``The management of wildlife resources and habitat outside of 
special designations would seldom prevent locatable mineral 
development, but in order to avoid significant impact to wildlife, 
special conditions and possible relocation of exploration or mining 
development could occur. This relocation, as well as any additional 
mitigation, would create time delays and further expenses for locatable 
mineral development if not closing the area to mineral entry through 
withdrawal.''
    It's my understanding that the determining factor in the location 
of mineral deposits is the geology of an area. So if that's the case 
how do you propose to relocate [mineral] ``exploration or mining 
development'' in a manner that's practical and consistent with that 
does not seem like a practical solution to me nor does it seem to be 
consistent with the Federal Land Policy and Management Act of 1976?
    Did you have any economic (mining) geologist or mining engineers 
work on this document? If there had been, I don't understand how doubt 
the precedings type of statement could would have been included in the 
Resource Management Plan.
    Answer. The BLM uses an interdisciplinary team, including solid 
minerals specialists, in the development of its RMP revisions and 
amendments. Information in the RMP is used to guide activities on BLM 
lands. When a Notice or Plan of Operations for a mine is filed with the 
BLM, the proposed exploration or mining of locatable minerals is 
reviewed to confirm that the operations conducted will comply with the 
RMP and not cause unnecessary or undue environmental degradation. If 
necessary, conditions or mitigating measures may be applied. Such 
measures, as referenced in the RMPs, could include relocation of 
infrastructure such as access routes, power lines, tailings 
impoundments, or leach pads. As analyzed in the quoted RMP section, 
these conditions of approval or modifications may be more likely in 
areas identified as valued wildlife habitat. Therefore, mineral 
development in wildlife habitat may be delayed or modified to include 
more prescriptive mitigation measures.
                                 ______
                                 
  Questions Submitted for the Record by The Honorable Kevin Cramer, a 
       Representative in Congress From the State of North Dakota
    Question. Secretary Jewell, as you know, the development of oil and 
gas is important for our energy security and high standard of living, 
not just in North Dakota, but the entire Nation. Many of my 
constituents are justifiably concerned about the Interior Department's 
actions relating to the greater sage grouse, which would affect more 
than 800 square miles in three southwestern counties in North Dakota. I 
am greatly concerned about the Bureau of Land Management amending 
resource management plans to include ``priority habitat areas'' in 
resource management plans, which have a statutory responsibility to 
ensure multiple use activities, including mining, grazing, energy 
development, and agriculture. I understand that the BLM has already 
delayed or canceled many projects tin several Western States as a 
result of this process. Can you assure me that your Department will 
follow its multiple-use mandates under the Federal Land Policy and 
Management Act and the Multiple-Use and Sustained Yield Act with regard 
to sage grouse under other ESA activities?
    Answer. The Department and the Bureau of Land Management are fully 
committed to sustainably managing public lands for multiple uses both 
now and in the future. The Federal Land Policy and Management Act of 
1976 defines multiple-use as ``the management of the public lands and 
their various resource values so that they are utilized in the 
combination that will best meet the present and future needs of the 
American people.'' Conservation of fish and wildlife habitat are 
important uses for which the Bureau of Land Management manages the 
public lands, as are mining, grazing, energy development, and many 
other uses. The land use planning process helps us determine the best 
use of resources on a local level.
    The BLM, the U.S. Fish and Wildlife Service, and the U.S. Forest 
Service are currently working through the unprecedented task of 
amending resource management plans in several Western States to 
identify and incorporate appropriate conservation measures to conserve, 
enhance, and restore greater sage-grouse habitat by reducing, 
eliminating, or minimizing threats to habitat. In North Dakota, the BLM 
is working in close cooperation with the North Dakota Game and Fish 
Department in developing the draft Environmental Impact Statement 
covering sage-grouse population areas within the State. The goals of 
this effort are to provide better protections for greater sage-grouse 
while continuing to support the use of public lands for mineral 
extraction, recreation, and other uses.
    Question. Secretary Jewell, within the Endangered Species Act ``The 
Secretary may exclude any area from critical habitat if he determines 
that the benefits from such exclusion outweigh the benefits of 
specifying such area as part of the critical habitat, unless he 
determines, based on the best scientific and commercial data available, 
that the failure to designate such area as critical habitat will result 
in the extinction of the species concerned.'' In making a determination 
to exclude certain areas as critical habitat will you give considerable 
weight to not only private landowner interests, but the interests of 
individuals and employees of industries utilizing our Nation's vast 
resources? Will you take this ability to exclude certain areas 
seriously?
    Answer. Under the Endangered Species Act, the FWS and the National 
Oceanic Atmospheric Administration's Fisheries Service designate 
critical habitat for each listed species; these are areas that are 
needed for the species' conservation and recovery. Critical habitat 
does not create a refuge nor necessarily restrict development. It only 
affects Federal lands or lands where there is a Federal nexus such as 
the issuance of a permit or Federal funding. Along with the benefits to 
listed species, the Services must also consider the economic impacts, 
the impacts on national security, and other relevant potential impacts 
in making designations of critical habitat. Probable economic impacts 
resulting from the designation of critical habitat are assessed in an 
economic analysis.
    On August 28, 2013, the Services published a final rule to revise 
the regulations implementing the ESA so that a draft economic analysis 
of the probable impacts of a critical habitat designation is completed 
and made available for public comment at the same time the critical 
habitat proposal itself is published. Publishing a proposed critical 
habitat rule and making available the associated economic analysis at 
the same time means that public stakeholders will have more information 
at the time they are reviewing critical habitat proposals.
    Under the new regulations, a summary of each economic analysis will 
be published in the Federal Register along with the proposed critical 
habitat designation, while the analysis itself will be made available 
on the Web (www.regulations.gov and other appropriate venues). The 
final rule also codifies standard Services' practices for assessing the 
likely impacts of proposed critical habitat designations.
    The Services are also planning to publish a proposal in the near 
future that will provide more clarity on the process for excluding 
lands from critical habitat designation. We recognize that 
understanding this process is important for the public, and we will 
request public input on the proposal. This proposal represents one 
important part of our efforts to improve the implementation of the ESA.
    Question. Secretary Jewell, on June 13, 2013, the Fish and Wildlife 
Service issued a Federal Register notice proposing to de-list (remove 
from the Endangered Species Act list) the gray wolf in most areas of 
the United States, an action I agree with--and I want to confirm you 
stand by this action. Do you? I understand this rule is expected to be 
finalized in September, correct? If the Fish and Wildlife Service is 
sued by environmentalists, will you defend the agency's actions on this 
delisting?
    Answer. The actions that were published in June 2013--to remove the 
gray wolf from the List of Threatened and Endangered Wildlife but to 
maintain endangered status for the Mexican wolf by listing it as a 
subspecies--were proposed because the best available scientific and 
commercial information indicates that the currently listed entity is 
not a valid species under the ESA and that the Mexican wolf is an 
endangered subspecies.
    The Department is committed to ensuring that the public is well 
informed about the agency's actions related to the gray wolf and has 
the opportunity to provide comments regarding the proposed rule. On 
September 30, 2013, the FWS announced that it has reinitiated a 
scientific peer review process to obtain an independent and objective 
peer review of the science behind the proposal. The peer review process 
will be sponsored and conducted by the National Center for Ecological 
Analysis and Synthesis, a respected interdisciplinary research center 
at the University of California--Santa Barbara. The center will vet 
prospective reviewers to verify that they are able to provide an 
objective review and have no conflict of interest, culminating in the 
selection of five or six well-qualified scientists with professional 
qualifications and relevant experience.
    Because of the significant public interest in this issue, it is 
important to ensure that all interested parties have the opportunity to 
provide comments concerning the proposed rule. With that in mind, FWS 
extended the public comment period on the proposed rule for a second 
time. In addition, to provide a forum for additional stakeholder input, 
the FWS also held five public hearings on the proposal, including in 
Denver, CO, Albuquerque, NM, Pinetop, AZ, and Washington, DC.
    Question. On April 2, 2013, OSM Director Joe Pizarchik responded to 
a letter from Chairman Hastings stating that since 2009 OSM has spent 
approximately $8.6 million in developing a new stream buffer zone rule. 
The 2008 rule that has yet to be implemented took 5 years to complete, 
including 40,000 public comments, 2 proposed rules, and 5,000 pages of 
environmental analysis from 5 different agencies. Is such a 
comprehensive rewrite of OSM regulations justified or warranted at this 
time?
    Answer. While the Surface Mining Control and Reclamation Act of 
1977 has resulted in significant improvements in contemporary mining, 
recent studies have substantiated that adverse environmental impacts 
continue in certain situations long after mine reclamation has been 
completed. Streams have been adversely affected biologically from 
continuing water-quality discharges from reclaimed mines. In some 
cases, streams have been dewatered due to underground mining 
activities. Forest lands that sustain water quality and habitat have 
been fragmented or lost. Therefore, the Department, through the Office 
of Surface Mining Reclamation and Enforcement, has undertaken this 
rulemaking initiative, which is using the best science to modernize the 
bureau's rules in order to better protect streams from adverse effects 
of surface coal mining. OSM is currently developing a Draft 
Environmental Impact Statement for the rule that will analyze 
alternatives to address the impacts of burying and mining through 
streams, including the protection of aquatic communities in streams 
located on, adjacent to, and downstream from coal mining operations. 
The draft will also analyze alternatives to provide for the restoration 
of native forests eliminated during future mining. Finally, it will 
consider alternatives to further enhance restoration of mined lands to 
their approximate original contour in accordance with SMCRA.
    Question. The 2008 stream buffer rule has never been implemented 
nationwide since OSM agreed to rewrite the rule as part of a settlement 
agreement. A legal challenge to OSM's existing rule was recently 
reinstituted. Do you plan to defend OSM's existing rule against legal 
challenge, or allow anti-coal groups to ``sue and settle'' the case as 
they did in 2010?
    Answer. The Federal Government has filed motions for summary 
judgment in this litigation (National Parks Conservation Ass'n v. 
Jewell and Coal River Mountain Watch et al. v. Jewell), requesting, 
among other things, that the court vacate the 2008 Stream Buffer Zone 
Rule, reinstate the prior regulations, and remand the matter for 
further rulemaking because the defendants confessed legal error in 
failing to conduct consultation with the U.S. Fish and Wildlife Service 
under section 7 of the Endangered Species Act.
    Question. In BLM's proposed rule governing the use of hydraulic 
fracturing on public lands, trade secret information can be withheld 
from disclosure rather than being submitted to BLM. However, the rule 
requires operators to make trade secret claims and provide the required 
justification for those claims. The rule even indicates that one of the 
tests for determining whether something is a trade secret is whether 
the disclosure of the information would harm the operator's competitive 
position. In fact, isn't it true that typically it is the service 
companies actually performing a hydraulic fracturing job that would 
hold the trade secret information, rather than the operators? Why did 
the BLM choose not to give service companies or other trade secret 
holders the opportunity to make and support their own claims? Does the 
BLM care about harm to a service company's competitive position? States 
like Colorado, upon which BLM based its rule, allow service companies 
to make and substantiate their own trade secret claims.
    Answer. The BLM holds the operator as the responsible party for any 
of the oil and gas operations and activities approved and permitted by 
the BLM in its name. The personnel and service companies that the 
operator chooses for their operation have to meet the same conditions 
of the permit. The operator as the permitted party is responsible to 
fulfill the terms of the permit, but may claim trade secret protection 
on behalf of its suppliers and subcontractors, assuming that the 
information constitutes a trade secret.
    Question. In its cost-benefit analysis for the hydraulic fracturing 
rule, BLM estimates the likelihood of an incident resulting from a 
fracturing operation is 0.03 percent for a major incident and 2.70 
percent for a minor incident. BLM does not indicate what it considers 
to be ``major'' or ``minor'' incidents. Would you be able to clarify in 
order to help us to determine whether these estimates are consistent 
with the findings of other organizations, such as the Groundwater 
Protection Council and the American Petroleum Institute that have also 
studied the environmental risks from fracturing operations?
    Answer. The BLM used those figures to illustrate the likelihood of 
possible risks associated with hydraulic fracturing. The BLM reviewed 
an Energy Institute survey of violations that occurred on shale wells 
and tight sands and shales in Louisiana, Michigan, New Mexico, and 
Texas. According to the BLM, data in the Energy Institute survey do not 
distinguish between minor versus major impacts across the hydraulic 
fracturing risks that the BLM's rule is intended to address. 
Nonetheless, the BLM looked at the violations classified as surface 
spills of fracturing fluids, casing and cementing, fracturing, 
groundwater contamination complaints, and characterized them as minor 
or major incidents. For purposes of the BLM rule, a major incident 
means noncompliance which causes or threatens immediate, substantial, 
and adverse impacts on public health and safety, the environment, 
production accountability, or royalty income. A minor incident means 
noncompliance which does not rise to the level of a major violation. 
The agency will continue to examine impacts cited by other groups, 
including the Groundwater Protection Council and the American Petroleum 
Institute.
                                 ______
                                 
     Questions Submitted for the Record by the Honorable Grace F. 
 Napolitano, a Representative in Congress From the State of California
    Question. Madam Secretary, last week the House passed its version 
of the Energy and Water Appropriations. As you know, the legislation 
guts the WaterSMART program by 53 percent, including the elimination of 
all funding for WaterSMART grants. These grants have helped conserve 
over 600,000 acre-feet in the past 3 years.
    Where does the money go? Why is WaterSMART a priority for the 
department, and what would the cuts, if enacted, mean to program?
    Answer. As competition for water resources grows for crop 
irrigation, growing cities and communities, energy production, and the 
environment, the need for information and tools to aid water resource 
and land managers grows. WaterSMART is a Department of the Interior 
initiative that leverages and directs existing expertise and resources 
within the USGS and the Bureau of Reclamation toward addressing 
complex, national and regional-scale water challenges. WaterSMART uses 
scientific and financial tools to promote collaborative efforts to help 
balance water supply and demand. Specific examples of projects under 
the WaterSmart grant program include the installation of injection 
wells to facilitate groundwater recharge, lining of irrigation canals 
to reduce seepage, replacement of open ditches with closed pipes to 
reduce seepage and evaporation, installation of water meters, 
installation of energy efficient water pumps, and the installation of 
high-efficiency water delivery products. Completed WaterSMART grant 
projects, along with other conservation activities, are saving an 
estimated 616,000 acre-feet per year--enough water for more than 2.4 
million people--and our current goal is to save 790,000 acre-feet per 
year by the end of 2014.
    Over the last 3 years, the WaterSMART program has enabled the 
Department to act aggressively in response to near term and immediate 
water shortages and apply scientific findings to plan for longer term 
needs. Funded at $35.4 million, WaterSMART promotes sustainable 
solutions and economic productivity in the Western United States. It 
addresses current and future water shortages; degraded water quality; 
increased demands for water from growing populations and energy needs; 
amplified recognition of environmental water requirements; and the 
potential for decreased water supply availability due to drought and 
climate change.
    Cuts of that magnitude would significantly hinder actions under the 
WaterSMART program that could help address water supply shortages in 
the Colorado River Basin and elsewhere, and would undermine the 
Government's ability to partner with local communities on improving 
resilience against climate-related impacts that threaten a range of 
economic and environmental interests.
    Question. The Natural Resources Committee is the authorizing 
committee for the Department of the Interior. As part of the Energy and 
Water Debate, programs and authorizations that were vetted by House and 
enacted into law are now being defunded by the appropriators despite 
being requested by the Administration.
    Energy and Water zeros out funding for Indian Water Rights 
Settlements. Why is it important that we prioritize Indian Water Rights 
Settlements?
    Answer. Water settlements secure tribal water rights helping to 
fulfill the United States' promise to tribes that Indian reservations 
will provide Indian people with permanent homelands. Indian water 
rights settlements are also consistent with the general Federal trust 
responsibility to American Indians and with Federal policy promoting 
Indian self-determination and economic self-sufficiency. The certainty 
that Indian water settlements provide is, in the words of the Western 
Governors Association, ``a crucial element of effective water supply 
planning and management in the West.'' Achieving certainty through 
negotiated settlement is far superior to decades of expensive and 
disruptive litigation. Congress has agreed with tribes, States and non-
Indian water users about the value of Indian water rights settlements 
by enacting 23 settlements spanning a period of over 30 years.
    Question. What would be the effects of zeroing out the San Joaquin 
``Settlement''?
    Answer. The Settlement's two primary goals are to restore and 
maintain fish populations and restore and avoid adverse water impacts. 
Eliminating funding for the Settlement creates an uncertain future for 
more than just river restoration but also for traditional water 
delivery operations from Friant Dam and the San Joaquin River. The 
Settlement effectively ended 18 years of litigation associated with 
water deliveries from the San Joaquin River, and if funding is 
eliminated the parties to the Settlement could be encouraged to return 
to court to pursue other avenues that could disrupt the underlying 
long-term goals of restoring the San Joaquin River according to the 
processes and timelines spelled out in the Settlement.
    Question. What do these cuts mean for Reclamation's traditional 
construction budget, which majority claims to support?
    Answer. The elimination of funding for the Indian Water Rights 
Settlements and the San Joaquin Settlement would jeopardize ongoing 
construction activities, including the construction of seepage 
mitigation projects on the San Joaquin River or the construction of 
water supply projects to tribes who have settled long-standing disputes 
through negotiated settlement.
    Question. As part of the sequestration, several of USGS's 
streamgages have been discontinued. Why is it important that we support 
the streamgage system?
    Answer. Streamgages are critical and vital for meeting Federal 
responsibilities associated with forecasting floods, tracking flows in 
major river basins, and assessing long-term climatic, land-use, and 
human impacts on streamflow and water quality. Increasing the number of 
streamgages is a high priority for the USGS. We look forward to working 
with you to explore possibilities for restoring recently discontinued 
USGS streamgages throughout the Nation and to take steps to help make 
the network more stable so that water-resource managers have the 
streamflow information they need to make informed decisions.
                                 ______
                                 
Questions Submitted for the Record by The Honorable Raul M. Grijalva, a 
          Representative in Congress From the State of Arizona
    Question. The New York Times recently repoared that one of the 
poorest tribes in the country, the Oglala Sioux Tribe of the Pine Ridge 
Indian reservation, is ending its low income housing program due to 
sequestration cuts even though over 1,500 tribal families are in need 
of and awaiting basic housing on the reservation. The tribe is cutting 
back on Headstart, healthcare and programs for the elderly. Ninety 
percent of the tribe's annual budget is comprised Federal funds, so the 
mandatory cuts due to sequestration are indeed devastating to this 
tribe. But this is just one example of many real stories about 
sequestration's impacts on the First Americans
    When you hear about Oglala and other tribes struggling to survive 
sequestration, do you believe that this Administration is doing 
everything in its power to fulfill the fiduciary obligations it has to 
tribal nations? Furthermore, what steps are you and this Administration 
going to take to address the increasing cuts in the country's already 
poorest areas, including tribal reservations?
    Answer. Poor communities often suffer worse when tightening the 
fiscal belt. The sequestration's impacts are indiscriminate as applied 
under the law. Indian Country already experiences needs that exceed the 
ability to meet them, and these communities are arguably the least 
equipped to absorb the losses sequestration is imposing. At the 
Department we are trying to prioritize and find a way forward. 
President Obama also signed Executive Order 13647 in June establishing 
the White House Council on Native American Affairs, which will be 
chaired by the Secretary of the Interior and will include more than 30 
Federal departments and agencies.
    The Council will work across governments and executive departments, 
agencies, and offices to develop policy recommendations and expand 
efforts to leverage Federal programs and resources available to tribal 
communities. The goal is that the Council, through this improved 
coordination and use of resources will focus on key activities, such as 
promoting sustainable economic development; supporting greater access 
to and control over healthcare; improving the effectiveness and 
efficiency of tribal justice systems; expanding and improving 
educational opportunities for Native American youth; and protecting and 
supporting the sustainable management of Native lands, environments, 
and natural resources, will have a positive impact on issues of 
importance to tribes.
    Question. The Department of the Interior is one several Federal 
agencies that entered into an MOU with the Advisory Council on Historic 
Preservation to improve the protection of and tribal access to Indian 
sacred sites through enhanced interagency coordination. What role is 
the DOI taking in order to enforce the goals of this MOU? Beyond this 
MOU, what steps, if any, are being taken by this administration to 
support tribal nations in their efforts to protect and preserve their 
sacred sites and objects?
    Answer. The Departments of the Interior, Energy, Defense, and 
Agriculture, and the Advisory Council on Historic Preservation entered 
into a Memorandum of Understanding on November 30, 2012. This action 
was in response to tribal requests to improve the protection of and 
tribal access to Indian sacred sites through improved interdepartmental 
coordination and collaboration. Implementation of the MOU is through a 
three-tiered group approach: an interagency executive group, a core 
group of interagency staff coordinating work, and five subgroups of 
subject-matter experts that work on different aspects of implementing 
the MOU. During the first 2 years of this MOU, the Department of the 
Interior is the chair of both the core working group and the subgroup 
working on confidentiality standards for sacred sites.
    The agencies are working together on strategies for sacred sites 
protection, including the creation of: a training program for Federal 
staff; guidance for best practices, a public outreach plan, and 
recommendations for the confidentiality of and tribal access to sacred 
sites. The agencies are also working to establish mechanisms for the 
collaborative stewardship of sacred sites with tribes; identifying 
impediments and making recommendations to address the protection of 
sacred sites; and building tribal capacity. This interagency effort is 
being accomplished using the existing resources within each of the 
agencies.
    Question. Tribal consultation is a major component in the 
relationship between tribal nations and the Federal Government. What 
steps is this administration taking in order to uphold their 
responsibility in consulting with tribes for any Federal, State, and 
corporate initiatives that will impact tribes and their homelands which 
may extend beyond reservation borders?
    Answer. This Administration has taken its responsibility to ensure 
consultation with Indian tribal governments on policies that have 
tribal implications seriously. Early in the Administration, the 
President signed a Presidential Memorandum on tribal consultation that 
made the importance of meaningful and regular consultation clear and 
directed agencies to submit a plan for implementing the policies and 
directives contained in Executive Order 13175, on Consultation and 
Coordination with Indian Tribal Governments.
    The Department's official consultation policy was announced in 
December 2011, and it was developed in close coordination with tribal 
leaders. It sets out detailed requirements and guidelines for Interior 
officials and managers to follow to ensure they are using the best 
practices and most innovative methods to achieve meaningful 
consultation with tribes. And, as indicated in a previous response, in 
June the President signed Executive Order 13647, establishing the White 
House Council on Native American Affairs, which will be chaired by the 
Secretary of the Interior. The intent of the Council is to improve 
interagency coordination, efficiency, and expand efforts to leverage 
Federal programs and resources available to tribal communities. In 
signing the Executive order, the President noted that greater 
engagement and meaningful consultation with tribes is of paramount 
importance in developing any policies affecting tribal nations.
                                 ______
                                 
   Questions Submitted for the Record by The Honorable Madeleine Z. 
      Bordallo, a Delegate in Congress from the Territory of Guam
    Question. Given the current fiscal climate, priorities need to be 
made. In general, where do you place invasive species prevention and 
mitigation in your list of priorities? Specifically, the brown tree 
snake is responsible for many bird extinctions, loss of pollinating 
bats and increased power outages on our island. In response, the Refuge 
has installed the Multispecies Barrier Fence to keep out them out of 
125 acres of the refuge. Unfortunately, with only six full time refuge 
staff we cannot do any intensive invasive species removal inside the 
fence. The refuge's Comprehensive Conservation Plan entails removal of 
the brown tree snake and eventual reintroduction of our birds. Do you 
foresee continued funding and support for brown tree snake mitigation?
    Answer. Addressing invasive species is a high priority for the 
Department. The Department's fiscal year 2014 Budget Request sought an 
overall increase of about $23 million for invasive species prevention, 
management, control, and coordination. The USGS requested an increase 
of $500,000 to address the highest priority needs for control and 
management of brown tree snake, including research on the development 
of landscape scale methods to suppress or eradicate snakes on Guam and 
to detect and eradicate incipient populations of snakes accidentally 
transported to other islands such as Hawaii and the Northern Mariana 
Islands.
    While the budget request reduces FWS's invasive species control and 
management funding by $507,000, the FWS will dedicate a small portion 
of Aquatic Invasive Species funding to continue to support the program. 
We intend to continue to provide funding for this effort, but 
priorities have shifted with growing concerns about the spread of 
continental aquatic invasive species, such as Asian carp.
    The FWS also continues to work closely with the U.S. Department of 
Agriculture's Wildlife Services' brown tree snake program on Guam. 
Since its implementation, the rate of snake captures associated with 
cargo shipped to Hawaii has declined dramatically. The growth in U.S. 
military presence on Guam is causing increased air and sea traffic 
between Guam and other regions in the Pacific, including the 
continental United States. As a result, the Department of Defense's 
responsibility for brown tree snake control and interdiction at 
military and commercial facilities related to the military buildup on 
Guam was a component of a recently completed ESA section 7 consultation 
with the FWS.
    Question. Guam is a beautiful island for both residents and our 
many tourists. It is also strategically important for the U.S. 
military. Recently, the Interior announced the Sentinel Landscape 
Partnership, a Public-Private collaboration aimed at preserving 
agricultural lands, assisting military readiness and protecting 
wildlife habitat. I believe Guam may be a prime candidate for the 
program and am very interested in seeing how the pilot program fares at 
Base Lewis-McChord. Is this integrated approach something we may see 
more of from the Interior and what is the timeline for expansion of the 
program?
    Answer. This pilot program is a great example of coordination and 
collaboration between Federal and local governments while showing how 
Farm Bill programs help support agriculture, rural America, the 
environment and national defense. Military readiness and wildlife 
habitat protection can go hand-in-hand with interagency, local 
government and private collaboration. The Sentinel Landscapes pilot 
will preserve the land's natural character and permanently protect 
critical habitat for declining species that could be listed under the 
Endangered Species Act, which is important for national defense, local 
economies and the conservation of natural resources. The goal is to 
restore and permanently protect critical habitat for three species that 
are proposed for listing under the Endangered Species Act, protect 
private and agricultural lands from development, and enable DOD's 
training mission to continue. The partnership holds great promise. The 
Department, DOD, and Department of Agriculture signed a memorandum of 
understanding late last year to expand the program, and DOD is already 
looking at potential next locations. The Department and USDA have 
committed to providing their input to determine which places will meet 
the program's three goals: providing important buffers for our 
military's operations, keeping working farms and ranches economically 
strong, and conserving wildlife and their habitats.
    Question. In Guam, the U.S. War in the Pacific National Historical 
Park houses some of our most beautiful places but more importantly it 
commemorates the WWII battles held in the Pacific Theatre. In response 
to sequestration there have been hiring freezes and program cutbacks. 
Like you mentioned in your statement and in addressing a similar 
question by Congresswoman Tsongas, these are unsustainable actions. If 
we do not solve the whole of sequestration will we be looking at 
permanent closure of some of our National Parks and refuges?
    Answer. The sequester was designed to be inflexible, damaging, and 
indiscriminate, and it was. Although the 2014 Consolidated 
Appropriations Act revised some of the sequestration cuts, the 
Department continues to face challenges across our bureaus to deal with 
the impacts of the sequestration. Our parks and refuges are special 
places, and deferring important work cannot be continued in future 
years without further severe consequences to our mission.
    Question. The budget also affects the maintenance and improvement 
of our refuge. The roads in the refuge are in deplorable condition with 
potholes so extensive that traffic has moved to the dirt shoulder. The 
refuge has yet to be connected to an outside source of water and 
operations are dependent on roof rainwater collection and trucking in 
water during the dry season. Needless to say, visitation has decrease 
by 10 percent due to these factors. How will the Interior keep up with 
maintenance of the current parks and refuges?
    Answer. We have to balance addressing the most urgent needs, 
including for recreation; species and habitat conservation; and 
preservation of landscapes and historic and cultural resources with 
addressing the deferred maintenance backlog. The NPS is prioritizing 
capital investment funding to address its most important assets, such 
as mission-critical infrastructure and historic buildings and is 
removing non-essential assets, which reduces the number of structures 
that contribute to the backlog. The FWS is continuing to refine its 
condition assessment process, using maintenance action teams, actively 
pursuing local partnerships, carefully prioritizing budgets, and 
disposing of unneeded assets.
    Question. On Guam, there is already increased pressure on our 
resources due to global climate change. Steps need to be taken to both 
address the causes of climate change and prepare for climate change 
impacts. The refuge recently connected an 84 solar panel array to the 
grid to both offset the 40 percent rise in electric rates this fall and 
to help decrease carbon emissions. I commend you for your commitment to 
massive renewable energy projects in Nevada and Arizona but global 
climate change is a problem for everyone. What plans does the Interior 
have to expand its alternative energy infrastructure in more local 
settings to decrease our carbon footprint? Does the Interior have plans 
to seek partnerships either public or private to accomplish this goal?
    Answer. Interior is working broadly to implement energy efficiency 
and renewable energy at all levels. On Guam, the Office of Insular 
Affairs (OIA) and National Renewable Energy Laboratory (NREL) assisted 
the Guam Energy Task Force in developing a strategic energy plan that 
sets a goal of reducing Guam's dependence on fossil fuels by 20 percent 
by the year 2020 (``20 x 20 goal''). With continued funding from OIA 
and with the support of NREL staff, the Guam Energy Task Force recently 
completed an energy action plan that identifies near-term strategies 
that will likely have the greatest impact on reducing Guam's fossil 
fuel energy consumption. Through a partnership with the NREL, the 
Department is supporting the design, development, and ultimate 
deployment of small-scale, modular, renewable energy/diesel hybrid 
systems that harness local renewable energy resources and will reduce 
dependence on expensive diesel fuel in remote communities around the 
world.
                                 ______
                                 
  Questions Submitted for the Record by The Honorable Gregorio Kilili 
  Camacho Sablan, a Delegate in Congress From the Commonwealth of the 
                        Northern Mariana Islands
    Question. As you are aware, the United States and the Republic of 
Palau signed an agreement on September 10, 2010, to extend the 
financial terms of the Compact of Free Association between our two 
nations until 2024. Since then, there has been little success in 
securing ratification of the agreement by Congress, largely due to the 
inability to find a suitable offset. After a recent visit to Washington 
by newly elected Palau President Tommy Remengesau, you joined Secretary 
of Defense Chuck Hagel, and Secretary of State John Kerry in sending a 
letter to Senate President Joe Biden and House Speaker John Boehner in 
support of the ratification of the Compact Review Agreement. In the 
letter, you and your fellow cabinet members pointed out that 
``approving the results of the Agreement is of import to the national 
security of the United States, to our bilateral relationship with 
Palau, and to our broader strategic interests in the Asia-Pacific 
region.'' Madam Secretary, what update can you give us regarding your 
Department's efforts to secure passage of the Palau agreement?
    Answer. As noted in the question, approving the results of the 
Agreement is of critical importance to the national security of the 
United States, to our bilateral relationship with Palau, and to our 
broader strategic interests in the Asia Pacific region. As such, the 
Administration transmitted legislation to Congress that would approve 
the Agreement and has worked with the Committee to try to identify 
appropriate offsets for funding the Agreement. The Administration 
stands ready to work with Congress to approve this critically important 
piece of legislation.
    Question. I commend DOI on its ongoing development of a 15-year 
Management Plan for the Marianas Trench Marine National Monument, which 
was established by then-President Bush in 2009. Please explain what 
other proposals your agency intends to take or is currently undertaking 
to support the monument?
    Answer. The U.S. Fish and Wildlife Service manages the Marianas 
Trench Marine National Monument, including the Trench Unit and the 
Volcanic Unit, as National Wildlife Refuges under Secretarial Order 
3284, dated January 16, 2009. Management activities include convening 
the Marianas Trench Monument Advisory Committee, consulting with the 
National Marine Fisheries Service on their responsibilities for 
fisheries-related issues, and coordinating with the Commonwealth of the 
Northern Mariana Islands on monument planning. On an operational basis, 
the Service fulfills its primary management responsibility by issuing 
special use permits that allow scientists and explorers like James 
Cameron's historic expedition to the trench. The FWS routinely consults 
and coordinates with the National Oceanic and Atmospheric 
Administration, the Commonwealth of the Northern Mariana Island, the 
U.S. Coast Guard, the Department of Defense, and the Friends of the 
Trench.
    Question. In January 2012, President Obama signed an Executive 
order and announced new initiatives to significantly increase travel 
and tourism in the United States. Back in October 2011, the Department 
of the Interior released a 50-State report outlining some of the 
country's most promising ways to reconnect Americans to the natural 
world. Unfortunately, the U.S. territories were left out. And then DOI 
rolled out the improved Recreation.gov Web site and the Web site did 
not include treasures such as the American Memorial Park managed by the 
National Park Service or the Marianas Trench National Monument Volcanic 
and Trench units managed by the U.S. Fish and Wildlife Service. 
However, your staff worked with our office for months to update the Web 
site to reflect these areas. I am asking for your commitment to include 
the U.S. Territories when applicable in all reports, promotions, etc. 
This will complement the President's initiatives to increase travel and 
tourism in every State and territory.
    Answer. The Administration is committed to the empowerment and 
economic growth of U.S.-affiliated insular communities, and will 
include the U.S. Territories in this material where appropriate.
    Question. The illegal international trade in timber and wildlife 
has skyrocketed in recent years, and has been linked to organized crime 
syndicates and terrorist groups. While the Lacey Act has proven 
successful in keeping these criminal elements out of the United States, 
forests and wildlife in other countries are being decimated. Will you 
work with other Federal agencies, foreign governments, and the 
conservation community to fight illegal trafficking of wildlife and 
timber?
    Answer. In addition to being one of the lead Federal agencies 
enforcing the Lacey Act, the FWS works closely with the other land 
managing agencies within the Department that enforce the Lacey Act 
across hundreds of millions of acres of public and tribal lands, as 
well as with other Departments and foreign governments. The FWS also 
enforces many other U.S. laws that protect wildlife, including the 
Endangered Species Act, the Marine Mammal Protection Act, and the 
Migratory Bird Treaty Act. The FWS will continue to work with its 
partners to ensure the success of the Lacey Act.
    In July of this year, President Obama signed Executive Order 13648 
on Combating Wildlife Trafficking that establishes a cabinet-level Task 
Force, led by the Attorney General and the Secretaries of State and 
Interior. Under the terms of that Executive order, the Administration 
is developing a comprehensive program to work with African nations to 
combat wildlife poaching; prioritizing the targeting and prosecution of 
international syndicates engaged in illegal trafficking of wildlife for 
sale in consumer countries; and working with receiving countries to 
stop the transshipment and sale of ivory and other illegal wildlife 
parts. The Task Force is in the process of developing a National 
Strategy to address this problem. The first meeting of the Advisory 
Council on Wildlife Trafficking, which will make recommendations to the 
task force, was held December 16, 2013.
    Question. From the brown tree snake on Guam and the Mariana 
Islands, to pythons in the everglades, to Asian carp in the Mississippi 
River, invasive species cost the United States over $120 billion a 
year. What are your thoughts on the severity of our problems with 
invasive species, and how will you work to minimize the damage they 
cause? What additional tools do you need?
    Answer. Invasive species impact the Department's mission and 
purposes for which we manage public lands and their resources in myriad 
ways, including the services these lands offer, such as recreation, 
hydropower, water supplies, agriculture, and ranching. They also impact 
ecosystem functions including pollination, water filtration, climate 
stability, pest control, and erosion protection, wildfires, and other 
natural hazards. The environmental, economic, and social impacts of 
invasive species and their control or eradication can be costly, 
controversial, and complex. Prevention of their introduction, 
establishment, and spread is the most cost effective and least 
disruptive approach to managing the threats these species pose to the 
Nation's public trust resources.
    The Department is working to more effectively address the threat of 
invasive species through preventative and management efforts, including 
an ongoing effort to improve the efficiency and effectiveness of 
regulations and regulatory processes used to implement our existing 
authorities to address invasive species. We are developing an MOU with 
several key industry and State partners that will lead to voluntary 
actions to better manage the risks associated with harmful non-native 
species. And we are continuing to improve our ability to detect, 
assess, and control key invasive species through research and 
environmental modeling. The Department has also forged strong 
partnerships with local, State, tribal, and other Federal agencies in 
order to manage invasive species impacts on the resources it manages. 
The Department's efforts have resulted in tangible improvements in 
water quality, species recovery, habitat restoration, and overall 
invasive species management in ecosystems.
    Addressing invasive species is a high priority for the Department. 
With limited resources, it is critically important that invasive 
species prevention and control efforts be coordinated and prioritized. 
We look forward to working with Congress and other stakeholders and 
partners to tackle the significant problems that invasive species 
cause.
                                 ______
                                 
    Questions Submitted for the Record by The Honorable Colleen W. 
    Hanabusa, a Representative in Congress From the State of Hawaii
    Question. Madame Secretary, since 2009 Indian country's highest 
legislative priority has been passage of a legislative fix to the 
Carcieri v. Salazar decision. I introduced bipartisan legislation in 
the House this year that would provide a clean fix to that misguided 
decision.
     It has been suggested that a clean Carcieri fix is impossible, due 
to concerns related to so-called ``off reservation'' gaming. Does the 
Administration continue to support a clean Carcieri fix--that is, 
restoring Secretarial authority to place land into trust for any 
federally recognized Indian tribe, regardless of when that tribe was 
federally recognized?
    Answer. A Carcieri fix is a top priority for the Administration. 
The Department believes that this decision frustrates the U.S.'s trust 
responsibility to Indian tribes by hindering the Department's ability 
to take land into trust for some tribes. The President's 2014 Budget 
included language that, if enacted, would resolve the issue. The 
Department stands ready to assist Congress in passing legislation to 
fix the decision.
    Question. What administrative measures has the Department taken to 
ensure that tribal homelands are restored pending Congressional action?
    Answer. Despite the Carcieri decision, which has placed unnecessary 
and substantial administrative burdens on the Department and tribes and 
has significantly increased litigation risks, the Department over the 
last 4 years has processed more than 1,100 separate applications and 
acquired over 205,000 acres of land in trust on behalf of Indian tribes 
and individuals.
    The Department is also currently engaged in both Federal court and 
administrative litigation regarding the Secretary's authority to 
acquire land in trust pursuant to the Indian Reorganization Act of 1934 
following the Carcieri decision.
    Question. What steps has the Administration taken or proposed to 
take in order to work with Congress on passing a clean fix in the 113th 
Congress?
    Answer. The Administration continues to support a legislative 
solution to address the negative impacts and increased burdens on the 
Department and on Indian Country resulting from this decision. The 
President included in the Administration's fiscal year 2014 budget 
language that, if enacted, would resolve this issue.
    Question. Last month, President Obama signed an Executive order 
establishing the White House Council on Native American Affairs, 
furthering this Administration's already firm commitment to greater 
engagement and collaboration with Indian tribes. The National Congress 
of American Indians lauded the establishment of the Council, which you 
will chair as Secretary of the Interior.
     The Executive order establishing the Counsel states that the 
Council ``shall improve coordination of Federal programs and the use of 
resources available to tribal communities.'' As Council chair, how do 
you intend to achieve this purpose? What specific goals would you like 
to see achieved?
    Answer. The Executive order, signed by President Obama on June 26, 
is further evidence of this Administration's commitment to advancing 
self-determination. As noted in the question, the intent is to improve 
interagency coordination, efficiency, and expand efforts to leverage 
Federal programs and resources available to tribal communities.
    The Council will convene at least three times a year and will work 
collaboratively toward advancing five priorities that mirror the issues 
tribal leaders have raised during previous White House Tribal Nations 
Conferences, including promoting sustainable economic development; 
supporting greater access to and control over healthcare; supporting 
the efforts to improve the effectiveness and efficiency of tribal 
justice systems; expanding and improving educational opportunities for 
Native American youth; and protecting and supporting the sustainable 
management of Native lands, environments, and natural resources. The 
Council will establish inter-agency subgroups that will focus on 
leveraging and aligning Federal resources and updating and making 
regulatory processes more efficient. Specific goals for each area will 
be developed and generated by the relevant subgroup. For example, the 
Departments of Education and Interior have established a Federal Study 
Group to improve the effectiveness of Indian education in Bureau of 
Indian Education schools. Among other things, the Study Group is 
focusing on streamlining processes for BIE schools and proposing 
structural improvements which impact the delivery of education 
services.
    Question. How could Council recommendations impact reservation-
level conditions, such as greater access to and control over tribal 
nutrition and healthcare and tribal justice systems, as well as 
protecting tribal lands, environments and natural resources?
    Answer. As noted in the testimony for this hearing, the Council 
will include more than 30 Federal departments and agencies and will 
work across governments and executive departments, agencies, and 
offices to develop policy recommendations and expand efforts to 
leverage Federal programs and resources available to tribal 
communities. The goal is that the Council, through this improved 
coordination and use of resources will focus on key activities, such as 
promoting sustainable economic development; supporting greater access 
to and control over healthcare; improving the effectiveness and 
efficiency of tribal justice systems; expanding and improving 
educational opportunities for Native American youth; and protecting and 
supporting the sustainable management of Native lands, environments, 
and natural resources, will have a positive impact on issues of 
importance to tribes.
    Question. This Committee has received extensive testimony on the 
important distinction between federally owned public lands and Indian 
country held in trust by the Federal Government. The recently revised 
BLM regulations on hydraulic fracturing now allow for a ``variance'' 
that enables tribes to be the relevant authority in hydraulic 
fracturing decisions, after a showing that the tribal regulations are 
at least as stringent as Federal standards.
     Does this inclusion in the regulation stem from outreach from the 
tribes? Have you received feedback on this specific provision from 
tribes? Do you think that this provision adequately distinguishes 
tribal lands from public lands and respects tribal sovereignty?
    Answer. The variance provision in the BLM's proposed hydraulic 
fracturing rule was informed by tribal consultations. The BLM contacted 
over 180 tribal governing bodies and had significant exchanges with 
over 30 tribes in multiple States during the drafting of the rule. The 
BLM fully embraces the statutes, Executive orders, and other statements 
of governmental or departmental policy in favor of promoting tribal 
self-determination and control of resources. The Indian Mineral Leasing 
Act, however, subjects all oil and gas operations on trust or 
restricted Indian lands to the Secretary's regulations and does not 
authorize the Secretary to allow tribes to opt out of regulatory 
oversight. This rule applies to Indian lands so that these lands and 
communities receive the same level of protection provided on public 
lands.
                                 ______
                                 
Questions Submitted for the Record by The Honorable Alan S. Lowenthal, 
       a Representative in Congress From the State of California
    Question. How can and will the BLM guarantee that FracFocus and all 
of its current and historic data will exist in perpetuity if it is a 
private Web site?
    Answer. The Bureau of Land Management's revised hydraulic 
fracturing rule would require operators to disclose the chemicals used 
in the fracturing process and provide that information to the BLM after 
the fracturing operation is completed. Operators may submit this 
information to the BLM through FracFocus, which is already used by some 
States for reporting mandatory chemical disclosure of hydraulic 
fracturing chemicals as a single reporting location. FracFocus was 
initiated as a project with the Department of Energy and managed by the 
Ground Water Protection Council and Interstate Oil and Gas Compact 
Commission. It was endorsed in the Secretary of Energy Advisory Board 
90-day report of best practices. Use of this Web site allows an 
operator to provide the information to the BLM, as well as the public 
and State and tribal regulators. This approach also has the benefit of 
reducing reporting burdens for oil and gas operators by avoiding 
duplicative reporting requirements and administrative duties for the 
BLM in many instances. The data submitted to FracFocus is managed by 
the Ground Water Protection Council (GWPC) and in partnership with the 
Interstate Oil and Gas Compact Commission; the data is provided to the 
BLM and other regulators on a regular basis, and BLM would also 
maintain permanent possession of a set of this data.
    Question. How can the BLM ensure that FracFocus has all of the 
proper data search, sort, and aggregation tools--which we have heard 
from other witnesses before this Committee it still does not have, thus 
making it nearly impossible to effectively use?
    Answer. The FracFocus Web site was launched in April 2011 by the 
GWPC, a private nonprofit organization governed by State drilling and 
water quality officials. As States have expanded requirements for 
disclosure, FracFocus has evolved into a standardized, easily 
accessible repository of public information. FracFocus 2.0 was recently 
released with the added data search capability from a XML data base 
platform. Users have the option of using the GIS mapping technology to 
identify chemicals used in the wells, as well as search and develop 
reports by date ranges, chemical names or Chemical Abstract Service 
numbers. The BLM will continue to work with GWPC to improve the 
FracFocus Web site to meet the expectations of the final BLM hydraulic 
fracturing rule.
    Question. BLM's Revised Draft Rule ambiguously states, ``The BLM 
understands that the [FracFocus] data base is in the process of being 
improved and will in the near future have enhanced search capabilities 
and allow for easier reporting of information.'' The BLM's draft rule 
specifically references FracFocus as an acceptable compliance 
repository of data for oil and gas operators. What does it mean for the 
BLM to ``understand'' that FracFocus will provide additional tools? Has 
FracFocus provided written commitment to BLM to do so much? If so, 
please provide this documentation to the Committee. Does the BLM have 
any recourse if FracFocus does not do what BLM ``understands'' that it 
will do?
    Answer. The BLM's proposed regulation (Sec. 3162.3-3(i)) requires 
submission of the data through FracFocus or another data base specified 
by the BLM. The GWPC has a successful track record in development of 
similar risk-based data management systems reliably used by the U.S. 
Environmental Protection Agency, the Department of Energy, and other 
State agencies. FracFocus 2.0 was developed with a number of additional 
tools, such as dashboard access for individual users and configuration 
module for XML file download. The BLM has met on numerous occasions 
with the GWPC regarding FracFocus, and will continue meeting with the 
GWPC in the future as the final rule is being completed.
    Question. What is the oversight process for ensuring that operators 
are using the trade secret exception to chemical disclosure properly? 
In other words, what is the cross-check verification of whether these 
chemicals are in fact trade secrets? Will there be an internal BLM 
verification that those chemicals are in fact trade secrets? And will 
Congress and the public be excluded from providing oversight to the 
trade secret process? Please explain how the BLM and the public will 
not be relying on the world of operators without verification of the 
legitimacy of operators' trade secret exception claims? Do you think 
the BLM's broadening of the trade secret exception may erode the 
public's confidence and trust in hydraulic fracturing?
    Answer. The BLM must follow the Trade Secrets Act (TSA). Although 
operators may have their own list of chemicals that could fall under 
the TSA, the BLM would have the authority to validate the trade secret 
determinations. The BLM can issue a notice to the operator and move 
forward with the disclosure of the chemicals considered invalid for 
protection under the TSA if the operator does not appeal such a 
decision within 10 days of receipt of the notice.

                                 [all]

</pre></body></html>
